APPENDIX
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS

APPENDIX I

Section 1. Legislative Power Vested in Congress, USCA CONST Art. I § 1

United States Code Annotated
Constitution of the United States
Annotated
Article I. The Congress
U.S.C.A. Const. Art. I § 1
Section 1. Legislative Power Vested in Congress
Currentness
All legislative Powers herein granted shall be vested in a Congress of the United States, which shall consist of a Senate and
House of Representatives.

Notes of Decisions (411)
U.S.C.A. Const. Art. I § 1, USCA CONST Art. I § 1
Current through PL 117-14 with the exception of PL 116-283. Incorporation of changes from PL 116-283 are in progress. See
credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

55a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

APPENDIX J

§ 264. Regulations to control communicable diseases, 42 USCA § 264

United States Code Annotated
Title 42. The Public Health and Welfare
Chapter 6A. Public Health Service (Refs & Annos)
Subchapter II. General Powers and Duties
Part G. Quarantine and Inspection (Refs & Annos)
42 U.S.C.A. § 264
§ 264. Regulations to control communicable diseases
Effective: June 12, 2002
Currentness
(a) Promulgation and enforcement by Surgeon General
The Surgeon General, with the approval of the Secretary, is authorized to make and enforce such regulations as in his judgment
are necessary to prevent the introduction, transmission, or spread of communicable diseases from foreign countries into the
States or possessions, or from one State or possession into any other State or possession. For purposes of carrying out and
enforcing such regulations, the Surgeon General may provide for such inspection, fumigation, disinfection, sanitation, pest
extermination, destruction of animals or articles found to be so infected or contaminated as to be sources of dangerous infection
to human beings, and other measures, as in his judgment may be necessary.
(b) Apprehension, detention, or conditional release of individuals
Regulations prescribed under this section shall not provide for the apprehension, detention, or conditional release of individuals
except for the purpose of preventing the introduction, transmission, or spread of such communicable diseases as may be specified
from time to time in Executive orders of the President upon the recommendation of the Secretary, in consultation with the
Surgeon General, 1 .
(c) Application of regulations to persons entering from foreign countries
Except as provided in subsection (d), regulations prescribed under this section, insofar as they provide for the apprehension,
detention, examination, or conditional release of individuals, shall be applicable only to individuals coming into a State or
possession from a foreign country or a possession.
(d) Apprehension and examination of persons reasonably believed to be infected
(1) Regulations prescribed under this section may provide for the apprehension and examination of any individual reasonably
believed to be infected with a communicable disease in a qualifying stage and (A) to be moving or about to move from a State
to another State; or (B) to be a probable source of infection to individuals who, while infected with such disease in a qualifying
stage, will be moving from a State to another State. Such regulations may provide that if upon examination any such individual
is found to be infected, he may be detained for such time and in such manner as may be reasonably necessary. For purposes of
this subsection, the term “State” includes, in addition to the several States, only the District of Columbia.

56a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 264. Regulations to control communicable diseases, 42 USCA § 264

(2) For purposes of this subsection, the term “qualifying stage”, with respect to a communicable disease, means that such disease
(A) is in a communicable stage; or
(B) is in a precommunicable stage, if the disease would be likely to cause a public health emergency if transmitted to other
individuals.
(e) Preemption
Nothing in this section or section 266 of this title, or the regulations promulgated under such sections, may be construed as
superseding any provision under State law (including regulations and including provisions established by political subdivisions
of States), except to the extent that such a provision conflicts with an exercise of Federal authority under this section or section
266 of this title.
CREDIT(S)
(July 1, 1944, c. 373, Title III, § 361, 58 Stat. 703; 1953 Reorg. Plan No. 1, §§ 5, 8, eff. Apr. 11, 1953, 18 F.R. 2053, 67
Stat. 631; Pub.L. 86-624, § 29(c), July 12, 1960, 74 Stat. 419; Pub.L. 94-317, Title III, § 301(b)(1), June 23, 1976, 90 Stat. 707;
Pub.L. 107-188, Title I, § 142(a)(1), (2), (b)(1), (c), June 12, 2002, 116 Stat. 626, 627.)
EXECUTIVE ORDERS
EXECUTIVE ORDER NO. 12452
Ex. Ord. No. 12452, Dec. 22, 1983, 48 F.R. 56927, relating to the Revised List of Quarantinable Communicable Diseases, was
revoked by Ex. Ord. No. 13295, Apr. 4, 2003, 68 F.R. 17255, set out as a note under this section.
EXECUTIVE ORDER NO. 13295
<Apr. 4, 2003, 68 F.R. 17255, as amended by Ex. Ord. No. 13375, Apr. 1,
2005, 70 F.R. 17299; Ex. Ord. No. 13674 , July 31, 2014, 79 F.R. 45671>
Revised List of Quarantinable Communicable Diseases
By the authority vested in me as President by the Constitution and the laws of the United States of America, including section
361(b) of the Public Health Service Act (42 U.S.C. 264(b)), it is hereby ordered as follows:
Section 1. Based upon the recommendation of the Secretary of Health and Human Services (the “Secretary”), in consultation
with the Surgeon General, and for the purpose of specifying certain communicable diseases for regulations providing for the
apprehension, detention, or conditional release of individuals to prevent the introduction, transmission, or spread of suspected
communicable diseases, the following communicable diseases are hereby specified pursuant to section 361(b) of the Public
Health Service Act [subsec. (b) of this section]:
(a) Cholera; Diphtheria; infectious Tuberculosis; Plague; Smallpox; Yellow Fever; and Viral Hemorrhagic Fevers (Lassa,
Marburg, Ebola, Crimean-Congo, South American, and others not yet isolated or named).

57a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 264. Regulations to control communicable diseases, 42 USCA § 264

(b) Severe acute respiratory syndromes, which are diseases that are associated with fever and signs and symptoms of pneumonia
or other respiratory illness, are capable of being transmitted from person to person, and that either are causing, or have the
potential to cause, a pandemic, or, upon infection, are highly likely to cause mortality or serious morbidity if not properly
controlled. This subsection does not apply to influenza.
(c) Influenza caused by novel or reemergent influenza viruses that are causing, or have the potential to cause, a pandemic.
Sec. 2. The Secretary, in the Secretary's discretion, shall determine whether a particular condition constitutes a communicable
disease of the type specified in section 1 of this order.
Sec. 3. The functions of the President under sections 362 and 364(a) of the Public Health Service Act (42 U.S.C. 265 and
267(a)) are assigned to the Secretary.
Sec. 4. This order is not intended to, and does not, create any right or benefit enforceable at law or equity by any party against
the United States, its departments, agencies, entities, officers, employees or agents, or any other person.
Sec. 5. Executive Order 12452 of December 22, 1983 [set out as a note under this section], is hereby revoked.
GEORGE W. BUSH

Notes of Decisions (12)

Footnotes
1
So in original. Comma probably should not appear.
42 U.S.C.A. § 264, 42 USCA § 264
Current through PL 117-14 with the exception of PL 116-283. Incorporation of changes from PL 116-283 are in progress. See
credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

58a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

APPENDIX K



  

    

  


    
  



  

  
 !"!#$%&'$'$
! (!)!!*!+
,!!*#- .
/0!!(*# +
  
    
 ! "#$ "!"#! "# 



 1!/(!!222!))!(#! 20*%$&
'$'&2!"0#2!()&!)2"2+
!*# !!3")42!) !) 0!!0*(&
     
 0!#*!5(! 222! &'$'6+

  

  

++ (+
+'+!*()+
+%+4)+
+7+ -2(!!#!0+
+8+ !0)!222!+
++ !(!*(#))"+
+9+ :"002!+
+;+ )+
+<+=)))1!!0!"424>"0+
, = ? @44 &44  , = 1 &A==    4@
@  
4= 4 =  &'$'

1 4 =&  4  

(? "("!( !0

59a


        





CONSOLIDATED APPROPRIATIONS ACT, 2021, PL 116-260, December 27, 2020,...

(5) SECRETARY.—The term “Secretary” means the Secretary of the Treasury.
(6) UNIT OF LOCAL GOVERNMENT.—The term “unit of local government” has the meaning given such term in paragraph
(2) of section 601(g) of the Social Security Act (42 U.S.C. 801(g)), except that, in applying such term for purposes of this
section, such paragraph shall be applied by substituting “200,000” for “500,000”.

(l) TERMINATION OF PROGRAM.—The authority of an eligible grantee to make new obligations to provide
payments under subsection (c) shall terminate on the date established in subsection (e) for that eligible grantee.
Amounts not expended in accordance with this section shall revert to the Department of the Treasury.
<< 42 USCA § 264 NOTE >>
SEC. 502. EXTENSION OF EVICTION MORATORIUM.
The order issued by the Centers for Disease Control and Prevention under section 361 of the Public Health Service Act (42
U.S.C. 264), entitled “Temporary Halt in Residential Evictions To Prevent *2079 the Further Spread of COVID–19” (85 Fed.
Reg. 55292 (September 4, 2020) is extended through January 31, 2021, notwithstanding the effective dates specified in such
Order.
SubtitleB—Community Development Investment
<< 12 USCA § 4703a NOTE >>
SEC. 520. PURPOSE.
The purpose of this subtitle is to establish emergency programs to revitalize and provide long-term financial products and service
availability for, and provide investments in, low- and moderate-income and minority communities that have disproportionately
suffered from the impacts of the COVID–19 pandemic.
<< 12 USCA § 4703a NOTE >>
SEC. 521. CONSIDERATIONS; REQUIREMENTS FOR CREDITORS.
(a) IN GENERAL.—In exercising the authorities under this subtitle and the amendments made by this subtitle, the Secretary
of the Treasury shall take into consideration increasing the availability of affordable credit for consumers, small businesses,
and nonprofit organizations, including for projects supporting affordable housing, community-serving real estate, and other
projects, that provide direct benefits to low- and moderate-income communities, low-income and underserved individuals, and
minorities, that have disproportionately suffered from the health and economic impacts of the COVID–19 pandemic.
(b) REQUIREMENT FOR CREDITORS.—Any creditor participating in a program established under this subtitle or the
amendments made by this subtitle shall fully comply with all applicable statutory and regulatory requirements relating to fair
lending.
SEC. 522. CAPITAL INVESTMENTS FOR NEIGHBORHOODS
DISPROPORTIONATELY IMPACTED BY THE COVID–19 PANDEMIC.

60a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

873

Approved December 27, 2020.
LEGISLATIVE HISTORY—H.R. 133:
HOUSE REPORTS:
SENATE REPORTS:
CONGRESSIONAL RECORD, Vol. ():

DAILY COMPILATION OF PRESIDENTIAL DOCUMENTS ():
PL 116-260, 2020 HR 133
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

61a

APPENDIX L

§ 70.2 Measures in the event of inadequate local control., 42 C.F.R. § 70.2

Code of Federal Regulations
Title 42. Public Health
Chapter I. Public Health Service, Department of Health and Human Services (Refs & Annos)
Subchapter F. Quarantine, Inspection, Licensing
Part 70. Interstate Quarantine (Refs & Annos)
42 C.F.R. § 70.2
§ 70.2 Measures in the event of inadequate local control.
Currentness
Whenever the Director of the Centers for Disease Control and Prevention determines that the measures taken by health
authorities of any State or possession (including political subdivisions thereof) are insufficient to prevent the spread of any
of the communicable diseases from such State or possession to any other State or possession, he/she may take such measures
to prevent such spread of the diseases as he/she deems reasonably necessary, including inspection, fumigation, disinfection,
sanitation, pest extermination, and destruction of animals or articles believed to be sources of infection.
SOURCE: 65 FR 49908, Aug. 16, 2000, unless otherwise noted.
AUTHORITY: Secs. 215 and 311 of the Public Health Service (PHS) Act, as amended (42 U.S.C. 216, 243); section 361–369,
PHS Act, as amended (42 U.S.C. 264–272); 31 U.S.C. 9701.

Notes of Decisions (2)
Current through May 21, 2021; 86 FR 27796.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

62a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

APPENDIX M

Fighting the Spread of COVID-19 by Providing Assistance to Renters..., 85 FR 49935

Exec. Order No. 13945, 85 FR 49935, 2020 WL 4700692(Pres.)
Executive Order 13945
Fighting the Spread of COVID-19 by Providing Assistance to Renters and Homeowners
August 8, 2020
*49935 By the authority vested in me as President by the Constitution and the laws of the United States of America, it is
hereby ordered as follows:
Section 1. Purpose. The 2019 novel coronavirus (COVID-19) pandemic, which originated in the People's Republic of China,
continues to pose a significant threat to the health of Americans throughout the United States. As we have since January
2020, with the proactive decision to limit travel from China and the passage of three massive economic relief packages, my
Administration will take whatever steps are necessary to reduce the spread of COVID-19 and maintain economic prosperity.
The Centers for Disease Control and Prevention (CDC) of the Department of Health and Human Services have concluded that
“growing and disproportionate unemployment rates for some racial and ethnic minority groups during the COVID-19 pandemic
may lead to greater risk of eviction and homelessness or sharing of housing.”
This trend is concerning for many reasons, including that homeless shelters have proven to be particularly susceptible to
outbreaks of COVID-19. CDC has observed that “¯h»omelessness poses multiple challenges that can exacerbate and amplify
the spread of COVID-19. Homeless shelters are often crowded, making social distancing difficult. Many persons experiencing
homelessness are older or have underlying medical conditions, placing them at higher risk for severe COVID-19-associated
illness.” Increased shared housing is also potentially problematic to the extent it results in increased in-person interactions
between older, higher-risk individuals and their younger relatives or friends.
My Administration has taken bold steps to help renters and homeowners have safe and secure places to call home during the
COVID-19 crisis. Prior to passage of the Coronavirus Aid, Relief, and Economic Security Act (CARES Act) (Public Law
116-136), the Secretary of Housing and Urban Development implemented a foreclosure and eviction moratorium for all singlefamily mortgages insured by the Federal Housing Administration. Furthermore, prior to passage of the CARES Act, the Federal
Housing Finance Agency (FHFA) announced that it had instructed the Federal National Mortgage Association and the Federal
Home Loan Mortgage Corporation (the Enterprises) to suspend foreclosures for at least 60 days. FHFA has since announced
that the Enterprises will extend the foreclosure suspension until at least August 31, 2020.
The CARES Act imposed a temporary moratorium on evictions of certain renters subject to certain conditions. That moratorium
has now expired, and there is a significant risk that this will set off an abnormally large wave of evictions. With the failure of
the Congress to act, my Administration must do all that it can to help vulnerable populations stay in their homes in the midst
of this pandemic. Those who are dislocated from their homes may be unable to shelter in place and may have more difficulty
maintaining a routine of social distancing. They will have to find alternative living arrangements, which may include a homeless
shelter or a crowded family home and may also require traveling to other States.y49936
*49936 In addition, evictions tend to disproportionately affect minorities, particularly African Americans and Latinos. Unlike
the Congress, I cannot sit idly and refuse to assist vulnerable Americans in need. Under my Administration, minorities achieved
the lowest unemployment rates on record, and we will not let COVID-19 erase these gains by causing short-term dislocations
that could well have long-term consequences.
Accordingly, my Administration, to the extent reasonably necessary to prevent the further spread of COVID-19, will take all
lawful measures to prevent residential evictions and foreclosures resulting from financial hardships caused by COVID-19.

63a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Fighting the Spread of COVID-19 by Providing Assistance to Renters..., 85 FR 49935

Sec. 2. Policy. It is the policy of the United States to minimize, to the greatest extent possible, residential evictions and
foreclosures during the ongoing COVID-19 national emergency.
Sec. 3. Response to Public Health Risks of Evictions and Foreclosures. (a) The Secretary of Health and Human Services and
the Director of CDC shall consider whether any measures temporarily halting residential evictions of any tenants for failure
to pay rent are reasonably necessary to prevent the further spread of COVID-19 from one State or possession into any other
State or possession.
(b) The Secretary of the Treasury and the Secretary of Housing and Urban Development shall identify any and all available
Federal funds to provide temporary financial assistance to renters and homeowners who, as a result of the financial hardships
caused by COVID-19, are struggling to meet their monthly rental or mortgage obligations.
(c) The Secretary of Housing and Urban Development shall take action, as appropriate and consistent with applicable law, to
promote the ability of renters and homeowners to avoid eviction or foreclosure resulting from financial hardships caused by
COVID-19. Such action may include encouraging and providing assistance to public housing authorities, affordable housing
owners, landlords, and recipients of Federal grant funds in minimizing evictions and foreclosures.
(d) In consultation with the Secretary of the Treasury, the Director of FHFA shall review all existing authorities and resources that
may be used to prevent evictions and foreclosures for renters and homeowners resulting from hardships caused by COVID-19.

Sec. 4. General Provisions. (a) Nothing in this order shall be construed to impair or otherwise affect:
(i) the authority granted by law to an executive department or agency, or the head thereof; or
(ii) the functions of the Director of the Office of Management and Budget relating to budgetary, administrative, or legislative
proposals.
(b) This order shall be implemented consistent with applicable law and subject to the availability of appropriations.
*49937 (c) This order is not intended to, and does not, create any right or benefit, substantive or procedural, enforceable at
law or in equity by any party against the United States, its departments, agencies, or entities, its officers, employees, or agents,
or any other person.
THE WHITE HOUSE,August 8, 2020.
Exec. Order No. 1394585 FR 499352020 WL 4700692(Pres.)
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

64a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

APPENDIX N

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

85 FR 55292-01, 2020 WL 5253768(F.R.)
NOTICES
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Disease Control and Prevention
Temporary Halt in Residential Evictions To Prevent the Further Spread of COVID-19
Friday, September 4, 2020
AGENCY: Centers for Disease Control and Prevention (CDC), Department of Health and Human Services (HHS).
*55292 ACTION: Agency Order.
SUMMARY: The Centers for Disease Control and Prevention (CDC), located within the Department of Health and Human
Services (HHS) announces the issuance of an Order under Section 361 of the Public Health Service Act to temporarily halt
residential evictions to prevent the further spread of COVID-19.
DATES: This Order is effective September 4, 2020 through December 31, 2020.
FOR FURTHER INFORMATION CONTACT: Nina Witkofsky, Acting Chief of Staff, Centers for Disease Control
and Prevention, 1600 Clifton Road NE, MS H21-10, Atlanta, GA 30329; Telephone: 404-639-7000; Email:
cdcregulations@cdc.gov.
SUPPLEMENTARY INFORMATION:
Background
There is currently a pandemic of a respiratory disease (“COVID-19”) caused by a novel coronavirus (SARS-COV-2) that has
now spread globally, including cases reported in all fifty states within the United States plus the District of Columbia and
U.S. territories (excepting American Samoa). As of August 24, 2020, there were over 23,000,000 cases of COVID-19 globally
resulting in over 800,000 deaths; over 5,500,000 cases have been identified in the United States, with new cases being reported
daily and over 174,000 deaths due to the disease.
The virus that causes COVID-19 spreads very easily and sustainably between people who are in close contact with one another
(within about 6 feet), mainly through respiratory droplets produced when an infected person coughs, sneezes, or talks. Some
people without symptoms may be able to spread the virus. Among adults, the risk for severe illness from COVID-19 increases
with age, with older adults at highest risk. Severe illness means that persons with COVID-19 may require hospitalization,
intensive care, or a ventilator to help them breathe, and may be fatal. People of any age with certain underlying medical
conditions, such as cancer, an immunocompromised state, obesity, serious heart conditions, and diabetes, are at increased risk
for severe illness from COVID-19.[FN1]
1

CDC, People with Certain Medical Conditions, https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/
people-with-medical-conditions.html (accessed August 26, 2020).

COVID-19 presents a historic threat to public health. According to one recent study, the mortality associated with COVID-19
during the early phase of the outbreak in New York City was comparable to the peak mortality observed during the 1918 H1N1
influenza pandemic.[FN2] During the 1918 H1N1 influenza pandemic, there were approximately 50 million influenza-related
deaths worldwide, including 675,000 in the United States. To respond to this public health threat, the Federal, State, and local
governments have taken unprecedented or exceedingly rare actions, including border closures, restrictions on travel, stay-at-

65a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

home orders, mask requirements, and eviction moratoria. Despite these best efforts, COVID-19 continues to spread and further
action is needed.
2

Faust JS, Lin Z, del Rio C. Comparison of Estimated Excess Deaths in New York City During the COVID-19 and 1918
Influenza Pandemics. JAMA New Open. 2020;3(8):e2017527. doi:10.1001/jamanetworkopen.2020.17527.

In the context of a pandemic, eviction moratoria—like quarantine, isolation, and social distancing—can be an effective public
health measure utilized to prevent the spread of communicable disease. Eviction moratoria facilitate self-isolation by people who
become ill or who are at risk for severe illness from COVID-19 due to an underlying medical condition. They also allow State
and local authorities to more easily implement stay-at-home and social distancing directives to mitigate the community spread
of COVID-19. Furthermore, housing stability helps protect public health because homelessness increases the likelihood of
individuals moving into congregate settings, such as homeless shelters, which then puts individuals at higher risk to COVID-19.
The ability of these settings to adhere to best practices, such as social distancing and other infection control measures, decreases
as populations increase. Unsheltered homelessness also increases the risk that individuals will experience severe illness from
COVID-19.
Applicability
Under this Order, a landlord, owner of a residential property, or other person [FN3] with a legal right to pursue eviction or
possessory action, shall not evict any covered person from any residential property in any jurisdiction to which this Order
applies during the effective period of the Order. This Order does not apply in any State, local, territorial, or tribal area with a
moratorium on residential evictions that provides the same or greater level of public-health protection than the requirements
listed in this Order. Nor does this order apply to American Samoa, which has reported no cases of COVID-19, until such time
as cases are reported.
3

For purposes of this Order, “person” includes corporations, companies, associations, firms, partnerships, societies, and
joint stock companies, as well as individuals.

In accordance with 42 U.S.C. 264(e), this Order does not preclude State, local, territorial, and tribal authorities from imposing
additional requirements that provide greater public-health protection and are more restrictive than the requirements in this Order.
This Order is a temporary eviction moratorium to prevent the further spread of COVID-19. This Order does not relieve any
individual of any obligation to pay rent, make a housing payment, or comply with any other obligation that the individual may
have under a tenancy, lease, or similar contract. Nothing in this Order precludes the charging or collecting of fees, penalties, or
interest as a result of the failure to pay rent or other housing payment on a timely basis, under the terms of any applicable contract.
Renter's or Homeowner's Declaration
Attachment A is a Declaration form that tenants, lessees, or residents of residential properties who are covered by the CDC's
order temporarily halting residential evictions to prevent the further spread of COVID-19 may use. To invoke the CDC's order
these persons must provide an executed copy of the Declaration form (or a similar declaration under penalty of perjury) to their
landlord, owner of the residential property where they live, or other person who has a right to have them evicted or removed
from where they live. Each adult listed on the lease, rental agreement, or housing contract should likewise complete and provide
a declaration. Unless the CDC order is extended, changed, or ended, the order prevents these persons from being evicted or
removed from where they are living through December 31, 2020. These persons are still required to pay rent and follow all the
other terms of their lease and rules of the place where they live. These persons may also still be evicted for reasons other than not
paying rent or making a housing *55293 payment. Executed declarations should not be returned to the Federal Government.

66a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

Centers for Disease Control and Prevention, Department of Health and Human Services
Order Under Section 361 of the Public Health Service Act (42 U.S.C. 264) and 42 CFR 70.2
Temporary Halt in Residential Evictions To Prevent the Further Spread of COVID-19
Summary
Notice and Order; and subject to the limitations under “Applicability”: Under 42 CFR 70.2, a landlord, owner of a residential
property, or other person [FN4] with a legal right to pursue eviction or possessory action, shall not evict any covered person
from any residential property in any jurisdiction to which this Order applies during the effective period of the Order.
4

For purposes of this Order, “person” includes corporations, companies, associations, firms, partnerships, societies, and
joint stock companies, as well as individuals.

Definitions
“Available government assistance” means any governmental rental or housing payment benefits available to the individual or
any household member.
“Available housing” means any available, unoccupied residential property, or other space for occupancy in any seasonal or
temporary housing, that would not violate Federal, State, or local occupancy standards and that would not result in an overall
increase of housing cost to such individual.
“Covered person” [FN5] means any tenant, lessee, or resident of a residential property who provides to their landlord, the owner
of the residential property, or other person with a legal right to pursue eviction or a possessory action, a declaration under
penalty of perjury indicating that:
5

This definition is based on factors that are known to contribute to evictions and thus increase the need for individuals
to move into close quarters in new congregate or shared living arrangements or experience homelessness. Individuals
who suffer job loss, have limited financial resources, are low income, or have high out-of-pocket medical expenses
are more likely to be evicted for nonpayment of rent than others not experiencing these factors. See Desmond, M.,
Gershenson, C., Who gets evicted? Assessing individual, neighborhood, and network factors, Social Science Research
62 (2017), 366-377, http://dx.doi.org/10.1016/j.ssresearch.2016.08.017, (identifying job loss as a possible predictor of
eviction because renters who lose their jobs experience not only a sudden loss of income but also the loss of predictable
future income). According to one survey, over one quarter (26%) of respondents also identified job loss as the primary
cause of homelessness. See 2019 San Francisco Homeless Point-in-Time Count & Survey, page 22, available at: https://
hsh.sfgov.org/wp-content/uploads/2020/01/2019HIRDReport_SanFrancisco_FinalDraft-1.pdf.

(1) The individual has used best efforts to obtain all available government assistance for rent or housing;
(2) The individual either (i) expects to earn no more than $99,000 in annual income for Calendar Year 2020 (or no more than
$198,000 if filing a joint tax return),[FN6] (ii) was not required to report any income in 2019 to the U.S. Internal Revenue
Service, or (iii) received an Economic Impact Payment (stimulus check) pursuant to Section 2201 of the CARES Act;
6

According to one study, the national two-bedroom housing wage in 2020 was $23.96 per hour (approximately, $49,837
annually), meaning that an hourly wage of $23.96 was needed to afford a modest two bedroom house without spending
more than 30% of one's income on rent. The hourly wage needed in Hawaii (the highest cost U.S. State for rent) was
$38.76 (approximately $80,621 annually). See National Low-Income Housing Coalition, Out of Reach: The High Cost

67a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

of Housing 2020, available at: https://reports.nlihc.org/oor. As further explained herein, because this Order is intended
to serve the critical public health goal of preventing evicted individuals from potentially contributing to the interstate
spread of COVID-19 through movement into close quarters in new congregate, shared housing settings, or though
homelessness, the higher income thresholds listed here have been determined to better serve this goal.
(3) the individual is unable to pay the full rent or make a full housing payment due to substantial loss of household income, loss
of compensable hours of work or wages, a lay-off, or extraordinary [FN7] out-of-pocket medical expenses;
7

An extraordinary medical expense is any unreimbursed medical expense likely to exceed 7.5% of one's adjusted gross
income for the year.

(4) the individual is using best efforts to make timely partial payments that are as close to the full payment as the individual's
circumstances may permit, taking into account other nondiscretionary expenses; and
(5) eviction would likely render the individual homeless—or force the individual to move into and live in close quarters in a
new congregate or shared living setting—because the individual has no other available housing options.
“Evict” and “Eviction” means any action by a landlord, owner of a residential property, or other person with a legal right to
pursue eviction or a possessory action, to remove or cause the removal of a covered person from a residential property. This
does not include foreclosure on a home mortgage.
“Residential property” means any property leased for residential purposes, including any house, building, mobile home or land
in a mobile home park, or similar dwelling leased for residential purposes, but shall not include any hotel, motel, or other guest
house rented to a temporary guest or seasonal tenant as defined under the laws of the State, territorial, tribal, or local jurisdiction.
“State” shall have the same definition as under 42 CFR 70.1, meaning “any of the 50 states, plus the District of Columbia.”
“U.S. territory” shall have the same definition as under 42 CFR 70.1, meaning “any territory (also known as possessions) of
the United States, including American Samoa, Guam, the Northern Mariana Islands, the Commonwealth of Puerto Rico, and
the U.S. Virgin Islands.”
Statement of Intent
This Order shall be interpreted and implemented in a manner as to achieve the following objectives:
• Mitigating the spread of COVID-19 within congregate or shared living settings, or through unsheltered homelessness;
• mitigating the further spread of COVID-19 from one U.S. State or U.S. territory into any other U.S. State or U.S. territory; and
• supporting response efforts to COVID-19 at the Federal, State, local, territorial, and tribal levels.
Background
There is currently a pandemic of a respiratory disease (“COVID-19”) caused by a novel coronavirus (SARS-COV-2) that has
now spread globally, including cases reported in all fifty states within the United States plus the District of Columbia and
U.S. territories (excepting American Samoa). As of August 24, 2020, there were over 23,000,000 cases of COVID-19 globally
resulting in over 800,000 deaths; over 5,500,000 cases have been identified in the United States, with new cases being reported
daily and over 174,000 deaths due to the disease.

68a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

The virus that causes COVID-19 spreads very easily and sustainably between people who are in close contact with one another
(within about 6 feet), mainly through respiratory droplets produced when an infected person coughs, sneezes, or talks. Some
people without symptoms may be able to spread the virus. Among adults, the risk for severe illness from COVID-19 increases
with age, with older adults at highest risk. Severe illness means that persons with COVID-19 may require hospitalization,
intensive care, or a ventilator to help them breathe, and may be fatal. People of any age with certain underlying medical
conditions, such as cancer, an *55294 immunocompromised state, obesity, serious heart conditions, and diabetes, are at
increased risk for severe illness from COVID-19.[FN8]
8

CDC, People with Certain Medical Conditions, https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/
people-with-medical-conditions.html (accessed August 26, 2020).

COVID-19 presents a historic threat to public health. According to one recent study, the mortality associated with COVID-19
during the early phase of the outbreak in New York City was comparable to the peak mortality observed during the 1918 H1N1
influenza pandemic.[FN9] During the 1918 H1N1 influenza pandemic, there were approximately 50 million influenza-related
deaths worldwide, including 675,000 in the United States. To respond to this public health threat, the Federal, State, and local
governments have taken unprecedented or exceedingly rare actions, including border closures, restrictions on travel, stay-athome orders, mask requirements, and eviction moratoria. Despite these significant efforts, COVID-19 continues to spread and
further action is needed.
9

Faust JS, Lin Z, del Rio C. Comparison of Estimated Excess Deaths in New York City During the COVID-19 and 1918
Influenza Pandemics. JAMA New Open. 2020;3(8):e2017527. doi:10.1001/jamanetworkopen.2020.17527.

In the context of a pandemic, eviction moratoria—like quarantine, isolation, and social distancing—can be an effective public
health measure utilized to prevent the spread of communicable disease. Eviction moratoria facilitate self-isolation by people
who become ill or who are at risk for severe illness from COVID-19 due to an underlying medical condition. They also allow
State and local authorities to more easily implement stay-at-home and social distancing directives to mitigate the community
spread of COVID-19. Furthermore, housing stability helps protect public health because homelessness increases the likelihood
of individuals moving into close quarters in congregate settings, such as homeless shelters, which then puts individuals at higher
risk to COVID-19.
Applicability
This Order does not apply in any State, local, territorial, or tribal area with a moratorium on residential evictions that provides
the same or greater level of public-health protection than the requirements listed in this Order. In accordance with 42 U.S.C.
264(e), this Order does not preclude State, local, territorial, and tribal authorities from imposing additional requirements that
provide greater public-health protection and are more restrictive than the requirements in this Order.
Additionally, this Order shall not apply to American Samoa, which has reported no cases of COVID-19, until such time as
cases are reported.
This Order is a temporary eviction moratorium to prevent the further spread of COVID-19. This Order does not relieve any
individual of any obligation to pay rent, make a housing payment, or comply with any other obligation that the individual may
have under a tenancy, lease, or similar contract. Nothing in this Order precludes the charging or collecting of fees, penalties, or
interest as a result of the failure to pay rent or other housing payment on a timely basis, under the terms of any applicable contract.
Nothing in this Order precludes evictions based on a tenant, lessee, or resident: (1) Engaging in criminal activity while on the
premises; (2) threatening the health or safety of other residents; [FN10] (3) damaging or posing an immediate and significant
risk of damage to property; (4) violating any applicable building code, health ordinance, or similar regulation relating to health

69a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

and safety; or (5) violating any other contractual obligation, other than the timely payment of rent or similar housing-related
payment (including non-payment or late payment of fees, penalties, or interest).
10

Individuals who might have COVID-19 are advised to stay home except to get medical care. Accordingly, individuals
who might have COVID-19 and take reasonable precautions to not spread the disease should not be evicted on the
ground that they may pose a health or safety threat to other residents. See What to Do if You are Sick, available at https://
www.cdc.gov/coronavirus/2019-ncov/if-you-are-sick/steps-when-sick.html.

Eviction and Risk of COVID-19 Transmission
Evicted renters must move, which leads to multiple outcomes that increase the risk of COVID-19 spread. Specifically, many
evicted renters move into close quarters in shared housing or other congregate settings. According to the Census Bureau
American Housing Survey, 32% of renters reported that they would move in with friends or family members upon eviction,
which would introduce new household members and potentially increase household crowding.[FN11] Studies show that
COVID-19 transmission occurs readily within households; household contacts are estimated to be 6 times more likely to become
infected by an index case of COVID-19 than other close contacts.[FN12]
11

United States Census Bureau. American Housing Survey, 2017. https://www.census.gov/programs-surveys/ahs.html.

12

Bi Q, Wu Y, Mei S, et al. Epidemiology and transmission of COVID-19 in 391 cases and 1286 of their close contacts in
Shenzhen, China: a retrospective cohort study. Lancet Infect Dis 2020, https://doi.org/10.1016/S1473-3099(20)30287-5.

Shared housing is not limited to friends and family. It includes a broad range of settings, including transitional housing, and
domestic violence and abuse shelters. Special considerations exist for such housing because of the challenges of maintaining
social distance. Residents often gather closely or use shared equipment, such as kitchen appliances, laundry facilities, stairwells,
and elevators. Residents may have unique needs, such as disabilities, cognitive decline, or no access to technology, and thus
may find it more difficult to take actions to protect themselves from COVID-19. CDC recommends that shelters provide new
residents with a clean mask, keep them isolated from others, screen for symptoms at entry, or arrange for medical evaluations
as needed depending on symptoms.[FN13] Accordingly, an influx of new residents at facilities that offer support services could
potentially overwhelm staff and, if recommendations are not followed, lead to exposures.
13

See CDC COVID-19 Guidance for Shared or Congregate Housing, available at: https://www.cdc.gov/coronavirus/2019ncov/community/shared-congregate-house/guidance-shared-congregate-housing.html.

Congress passed the Coronavirus Aid, Relief, and Economic Security (CARES) Act (Pub. L. 116-136) to aid individuals and
businesses adversely affected by COVID-19. Section 4024 of the CARES Act provided a 120-day moratorium on eviction
filings as well as other protections for tenants in certain rental properties with Federal assistance or federally related financing.
These protections helped alleviate the public health consequences of tenant displacement during the COVID-19 pandemic. The
CARES Act eviction moratorium expired on July 24, 2020.[FN14] The protections in the CARES Act supplemented temporary
eviction moratoria and rent freezes implemented by governors and local officials using emergency powers.
14

Because evictions generally require 30-days' notice, the effects of housing displacement due to the expiration of the
CARES act are not expected to manifest until August 27, 2020.

Researchers estimated that this temporary Federal moratorium provided relief to a material portion of the nation's roughly 43
million renters.[FN15] *55295 Approximately 12.3 million rental units have federally backed financing, representing 28%
of renters. Other data show more than 2 million housing vouchers along with approximately 2 million other federally assisted
rental units.[FN16]

70a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

15

See Congressional Research Service, CARES Act Eviction Moratorium, (April 7, 2020) available at: https://
crsreports.congress.gov/product/pdf/IN/IN11320.

16

See HUD, A Picture of Subsidized Households General Description of the Data and Bibliography, available at: https://
www.huduser.gov/portal/datasets/assthsg/statedata98/descript.html.

The Federal moratorium, however, did not reach all renters. Many renters who fell outside the scope of the Federal moratorium
were protected under State and local moratoria. In the absence of State and local protections, as many as 30-40 million people
in America could be at risk of eviction.[FN17] A wave of evictions on that scale would be unprecedented in modern times.
[FN18] A large portion of those who are evicted may move into close quarters in shared housing or, as discussed below, become
homeless, thus contributing to the spread of COVID-19.
17

See Emily Benfer, et al., The COVID-19 Eviction Crisis: An Estimated 30-40 Million People in America are at
Risk, available at: https://www.aspeninstitute.org/blog-posts/the-covid-19-eviction-crisis-an-estimated-30-40-millionpeople-in-america-are-at-risk/.

18

As a baseline, approximately 900,000 renters are evicted every year in the United States. Princeton University Eviction
Lab. National Estimates: Eviction in America. https://evictionlab.org/national-estimates/.

The statistics on interstate moves show that mass evictions would likely increase the interstate spread of COVID-19. Over 35
million Americans, representing approximately 10% of the U.S. population, move each year.[FN19] Approximately 15% of
moves are interstate.[FN20]
19

See U.S. Census Bureau, CPS Historical Migration/Geographic Mobility Tables, available at: https://www.census.gov/
data/tables/time-series/demo/geographic-mobility/historic.html.

20

Id.

Eviction, Homelessness, and Risk of Severe Disease From COVID-19
Evicted individuals without access to housing or assistance options may also contribute to the homeless population, including
older adults or those with underlying medical conditions, who are more at risk for severe illness from COVID-19 than the
general population.[FN21] In Seattle-King County, 5-15% of people experiencing homelessness between 2018 and 2020 cited
eviction as the primary reason for becoming homeless.[FN22] Additionally, some individuals and families who are evicted may
originally stay with family or friends, but subsequently seek homeless services. Among people who entered shelters throughout
the United States in 2017, 27% were staying with family or friends beforehand.[FN23]
21

See CDC, Coronavirus Disease 2019 (COVID-19), People Who Are at Increased Risk for Severe Illness, available
at https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/people-at-increased-risk.html (accessed August
26, 2020).

22

Seattle-King County. Point in Time Count. https://regionalhomelesssystem.org/wp-content/uploads/2020/07/Count-UsIn-2020-Final_7.29.2020.pdf

23

United States Department of Housing and Urban Development. The 2017 Annual Homeless Assessment Report (AHAR)
to Congress: Part 2. Available at: https://files.hudexchange.info/resources/documents/2017-AHAR-Part-2.pdf

71a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

People experiencing homelessness are a high-risk population. It may be more difficult for these persons to consistently access
the necessary resources in order to adhere to public health recommendations to prevent COVID-19. For instance, it may not
be possible to avoid certain congregate settings such as homeless shelters, or easily access facilities to engage in handwashing
with soap and water.
Extensive outbreaks of COVID-19 have been identified in homeless shelters.[FN24] In Seattle, Washington, a network of three
related homeless shelters experienced an outbreak that led to 43 cases among residents and staff members.[FN25] In Boston,
Massachusetts, universal COVID-19 testing at a single shelter revealed 147 cases, representing 36% of shelter residents.[FN26]
COVID-19 testing in a single shelter in San Francisco led to the identification of 101 cases (67% of those tested).[FN27]
Throughout the United States, among 208 shelters reporting universal diagnostic testing data, 9% of shelter clients have tested
positive.[FN28]
24

Mosites E, et al, Assessment of SARS-CoV-2 Infection Prevalence in Homeless Shelters—Four U.S. Cities, March 27April 15, 2020. MMWR 2020 May 1;69(17):521-522.

25

Tobolowsky FA, et al. COVID-19 Outbreak Among Three Affiliated Homeless Service Sites—King County,
Washington, 2020. MMWR 2020 May 1;69(17):523-526.

26

Baggett TP, Keyes H, Sporn N, Gaeta JM. Prevalence of SARS-CoV-2 Infection in Residents of a Large Homeless
Shelter in Boston. JAMA. 2020 Apr 27;323(21):2191-2. Online ahead of print.

27

Imbert E, et al. Coronavirus Disease 2019 (COVID-19) Outbreak in a San Francisco Homeless Shelter. Clin Infect Dis.
2020 Aug 3.

28

National Health Care for the Homeless Council and Centers for Disease Control and Prevention. Universal Testing Data
Dashboard. Available at: https://nhchc.org/cdc-covid-dashboard/.

CDC guidance recommends increasing physical distance between beds in homeless shelters.[FN29] To adhere to this guidance,
shelters have limited the number of people served throughout the United States. In many places, considerably fewer beds are
available to individuals who become homeless. Shelters that do not adhere to the guidance, and operate at ordinary or increased
occupancy, are at greater risk for the types of outbreaks described above. The challenge of mitigating disease transmission
in homeless shelters has been compounded because some organizations have chosen to stop or limit volunteer access and
participation.
29

Centers for Disease Control and Prevention. Interim Guidance for Homeless Service Providers to Plan and Respond to
COVID-19. https://www.cdc.gov/coronavirus/2019-ncov/community/homeless-shelters/plan-prepare-respond.html.

In the context of the current pandemic, large increases in evictions could have at least two potential negative consequences.
One is if homeless shelters increase occupancy in ways that increase the exposure risk to COVID-19. The other is if homeless
shelters turn away the recently homeless, who could become unsheltered, and further contribute to the spread of COVID-19.
Neither consequence is in the interest of the public health.
The risk of COVID-19 spread associated with unsheltered homelessness (those who are sleeping outside or in places not
meant for human habitation) is of great concern to CDC. Over 35% of homeless persons are typically unsheltered.[FN30] The
unsheltered homeless are at higher risk for infection when there is community spread of COVID-19. The risks associated with
sleeping and living outdoors or in an encampment setting are different than from staying indoors in a congregate setting, such as
an emergency shelter or other congregate living facility. While outdoor settings may allow people to increase physical distance
between themselves and others, they may also involve exposure to the elements and inadequate access to hygiene, sanitation
facilities, health care, and therapeutics. The latter factors contribute to the further spread of COVID-19.

72a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

30

In January 2018, 552,830 people were counted as homeless in the United States. Of those, 194,467 (35 percent) were
unsheltered, and 358,363 (65 percent) were sheltered. See, Council of Economic Advisors, The State of Homelessness
in America (September 2019), available at https://www.whitehouse.gov/wp-content/uploads/2019/09/The-State-ofHomelessness-in-America.pdf.

Additionally, research suggests that the population of persons who would be evicted and become homeless would include
many who are predisposed to developing severe disease from COVID-19. Five studies have shown an association between
eviction and hypertension, which has been associated with more severe outcomes from COVID-19.[FN31] Also, the homeless
*55296 often have underlying conditions that increase their risk of severe outcomes of COVID-19.[FN32] Among patients
with COVID-19, homelessness has been associated with increased likelihood of hospitalization.[FN33]
31

Hugo Vasquez-Vera, et al. The threat of home eviction and its effects on health through the equity lens: A systematic
review. Social Science and Medicine. 175 (2017) 199e208.

32

Fazel S, Geddes JR, Kushel M. The health of homeless people in high-income countries: descriptive epidemiology,
health consequences, and clinical and policy recommendations. Lancet. 2014;384(9953):1529-1540.

33

Hsu HE, et al. Race/Ethnicity, Underlying Medical Conditions, Homelessness, and Hospitalization Status of Adult
Patients with COVID-19 at an Urban Safety-Net Medical Center—Boston, Massachusetts, 2020. MMWR 2020 Jul
10;69(27):864-869. Historically, African Americans and Hispanic Americans are disproportionately represented in
evictions compared to other races. They are more likely to experience severe outcomes of COVID-19. Id.

These public health risks may increase seasonally. Each year, as winter approaches and the temperature drops, many homeless
move into shelters to escape the cold and the occupancy of shelters increases.[FN34] At the same time, there is evidence to
suggest that the homeless are more susceptible to respiratory tract infections,[FN35] which may include seasonal influenza.
While there are differences in the epidemiology of COVID-19 and seasonal influenza, the potential co-circulation of viruses
during periods of increased occupancy in shelters could increase the risk to occupants in those shelters.
34

See, generally, the Annual Homeless Assessment Report to Congress (2007), available at: https://www.huduser.gov/
Publications/pdf/ahar.pdf (acknowledging the seasonality of shelter bed use).

35

Ly TDA, Edouard S, Badiaga S, et al. Epidemiology of respiratory pathogen carriage in the homeless population
within two shelters in Marseille, France, 2015-2017: Cross sectional 1-day surveys. Clin Microbiol Infect. 2019;
25(2):249.e1-249.e6.

In short, evictions threaten to increase the spread of COVID-19 as they force people to move, often into close quarters in new
shared housing settings with friends or family, or congregate settings such as homeless shelters. The ability of these settings
to adhere to best practices, such as social distancing and other infection control measures, decreases as populations increase.
Unsheltered homelessness also increases the risk that individuals will experience severe illness from COVID-19.
Findings and Action
Therefore, I have determined the temporary halt in evictions in this Order constitutes a reasonably necessary measure under 42
CFR 70.2 to prevent the further spread of COVID-19 throughout the United States. I have further determined that measures
by states, localities, or U.S. territories that do not meet or exceed these minimum protections are insufficient to prevent the
interstate spread of COVID-19.[FN36]

73a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

36

In the United States, public health measures are implemented at all levels of government, including the Federal, State,
local, and tribal levels. Publicly-available compilations of pending measures indicate that eviction moratoria and other
protections from eviction have expired or are set to expire in many jurisdictions. Eviction Lab, COVID-19 Housing
Policy Scorecard, available at: https://evictionlab.org/covid-policy-scorecard/.

Based on the convergence of COVID-19, seasonal influenza, and the increased risk of individuals sheltering in close quarters
in congregate settings such as homeless shelters, which may be unable to provide adequate social distancing as populations
increase, all of which may be exacerbated as fall and winter approach, I have determined that a temporary halt on evictions
through December 31, 2020, subject to further extension, modification, or rescission, is appropriate.
Therefore, under 42 CFR 70.2, subject to the limitations under the “Applicability” section, a landlord, owner of a residential
property, or other person with a legal right to pursue eviction or possessory action shall not evict any covered person from any
residential property in any State or U.S. territory in which there are documented cases of COVID-19 that provides a level of
public-health protections below the requirements listed in this Order.
This Order is not a rule within the meaning of the Administrative Procedure Act (“APA”) but rather an emergency action taken
under the existing authority of 42 CFR 70.2. In the event that this Order qualifies as a rule under the APA, notice and comment
and a delay in effective date are not required because there is good cause to dispense with prior public notice and comment and
the opportunity to comment on this Order and the delay in effective date. See 5 U.S.C. 553(b)(3)(B). Considering the publichealth emergency caused by COVID-19, it would be impracticable and contrary to the public health, and by extension the public
interest, to delay the issuance and effective date of this Order.
A delay in the effective date of the Order would permit the occurrence of evictions—potentially on a mass scale—that could have
potentially significant consequences. As discussed above, one potential consequence would be that evicted individuals would
move into close quarters in congregate or shared living settings, including homeless shelters, which would put the individuals
at higher risk to COVID-19. Another potential consequence would be if evicted individuals become homeless and unsheltered,
and further contribute to the spread of COVID-19. A delay in the effective date of the Order that leads to such consequences
would defeat the purpose of the Order and endanger the public health. Immediate action is necessary.
Similarly, if this Order qualifies as a rule under the APA, the Office of Information and Regulatory Affairs has determined that
it would be a major rule under the Congressional Review Act (CRA). But there would not be a delay in its effective date. The
agency has determined that for the same reasons, there would be good cause under the CRA to make the requirements herein
effective immediately.
If any provision of this Order, or the application of any provision to any persons, entities, or circumstances, shall be held invalid,
the remainder of the provisions, or the application of such provisions to any persons, entities, or circumstances other than those
to which it is held invalid, shall remain valid and in effect.
This Order shall be enforced by Federal authorities and cooperating State and local authorities through the provisions of 18
U.S.C. 3559, 3571; 42 U.S.C. 243, 268, 271; and 42 CFR 70.18. However, this Order has no effect on the contractual obligations
of renters to pay rent and shall not preclude charging or collecting fees, penalties, or interest as a result of the failure to pay rent
or other housing payment on a timely basis, under the terms of any applicable contract.
Criminal Penalties
Under 18 U.S.C. 3559, 3571; 42 U.S.C. 271; and 42 CFR 70.18, a person violating this Order may be subject to a fine of no
more than $100,000 if the violation does not result in a death or one year in jail, or both, or a fine of no more than $250,000 if
the violation results in a death or one year in jail, or both, or as otherwise provided by law. An organization violating this Order
may be subject to a fine of no more than $200,000 per event if the violation does not result in a death or $500,000 per event if

74a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

the violation results in a death or as otherwise provided by law. The U.S. Department of Justice may initiate court proceedings
as appropriate seeking imposition of these criminal penalties.
Notice to Cooperating State and Local Officials
Under 42 U.S.C. 243, the U.S. Department of Health and Human Services is authorized to cooperate with and aid State and local
authorities in the enforcement of their quarantine and *55297 other health regulations and to accept State and local assistance
in the enforcement of Federal quarantine rules and regulations, including in the enforcement of this Order.
Notice of Available Federal Resources
While this order to prevent eviction is effectuated to protect the public health, the States and units of local government are
reminded that the Federal Government has deployed unprecedented resources to address the pandemic, including housing
assistance.
The Department of Housing and Urban Development (HUD) has informed CDC that all HUD grantees—states, cities,
communities, and nonprofits—who received Emergency Solutions Grants (ESG) or Community Development Block Grant
(CDBG) funds under the CARES Act may use these funds to provide temporary rental assistance, homelessness prevention,
or other aid to individuals who are experiencing financial hardship because of the pandemic and are at risk of being evicted,
consistent with applicable laws, regulations, and guidance.
HUD has further informed CDC that:
HUD's grantees and partners play a critical role in prioritizing efforts to support this goal. As grantees decide how to deploy
CDBG-CV and ESG-CV funds provided by the CARES Act, all communities should assess what resources have already been
allocated to prevent evictions and homelessness through temporary rental assistance and homelessness prevention, particularly
to the most vulnerable households.
HUD stands at the ready to support American communities take these steps to reduce the spread of COVID-19 and maintain
economic prosperity. Where gaps are identified, grantees should coordinate across available Federal, non-Federal, and
philanthropic funds to ensure these critical needs are sufficiently addressed, and utilize HUD's technical assistance to design
and implement programs to support a coordinated response to eviction prevention needs. For program support, including
technical assistance, please visit www.hudexchange.info/program-support. For further information on HUD resources, tools,
and guidance available to respond to the COVID-19 pandemic, State and local officials are directed to visit https://www.hud.gov/
coronavirus. These tools include toolkits for Public Housing Authorities and Housing Choice Voucher landlords related to
housing stability and eviction prevention, as well as similar guidance for owners and renters in HUD-assisted multifamily
properties.
Similarly, the Department of the Treasury has informed CDC that the funds allocated through the Coronavirus Relief Fund
may be used to fund rental assistance programs to prevent eviction. Visit https://home.treasury.gov/policy-issues/cares/stateand-local-governments for more information.
Effective Date
This Order is effective upon publication in the Federal Register and will remain in effect, unless extended, modified, or
rescinded, through December 31, 2020.
Attachment

75a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

Declaration Under Penalty of Perjury for the Centers for Disease Control and Prevention's Temporary Halt in Evictions
to Prevent Further Spread of COVID-19
This declaration is for tenants, lessees, or residents of residential properties who are covered by the CDC's order temporarily
halting residential evictions (not including foreclosures on home mortgages) to prevent the further spread of COVID-19. Under
the CDC's order you must provide a copy of this declaration to your landlord, owner of the residential property where you live,
or other person who has a right to have you evicted or removed from where you live. Each adult listed on the lease, rental
agreement, or housing contract should complete this declaration. Unless the CDC order is extended, changed, or ended, the
order prevents you from being evicted or removed from where you are living through December 31, 2020. You are still required
to pay rent and follow all the other terms of your lease and rules of the place where you live. You may also still be evicted for
reasons other than not paying rent or making a housing payment. This declaration is sworn testimony, meaning that you can be
prosecuted, go to jail, or pay a fine if you lie, mislead, or omit important information.
I certify under penalty of perjury, pursuant to 28 U.S.C. 1746, that the foregoing are true and correct:
• I have used best efforts to obtain all available government assistance for rent or housing; [FN37]
37

“Available government assistance” means any governmental rental or housing payment benefits available to the
individual or any household member.

• I either expect to earn no more than $99,000 in annual income for Calendar Year 2020 (or no more than $198,000 if filing a
joint tax return), was not required to report any income in 2019 to the U.S. Internal Revenue Service, or received an Economic
Impact Payment (stimulus check) pursuant to Section 2201 of the CARES Act;
• I am unable to pay my full rent or make a full housing payment due to substantial loss of household income, loss of compensable
hours of work or wages, lay-offs, or extraordinary [FN38] out-of-pocket medical expenses;
38

An “extraordinary” medical expense is any unreimbursed medical expense likely to exceed 7.5% of one's adjusted gross
income for the year.

• I am using best efforts to make timely partial payments that are as close to the full payment as the individual's circumstances
may permit, taking into account other nondiscretionary expenses;
• If evicted I would likely become homeless, need to move into a homeless shelter, or need to move into a new residence shared
by other people who live in close quarters because I have no other available housing options.[FN39]
39

“Available housing” means any available, unoccupied residential property, or other space for occupancy in any seasonal
or temporary housing, that would not violate Federal, State, or local occupancy standards and that would not result in
an overall increase of housing cost to you.

• I understand that I must still pay rent or make a housing payment, and comply with other obligations that I may have under my
tenancy, lease agreement, or similar contract. I further understand that fees, penalties, or interest for not paying rent or making
a housing payment on time as required by my tenancy, lease agreement, or similar contract may still be charged or collected.
• I further understand that at the end of this temporary halt on evictions on December 31, 2020, my housing provider may require
payment in full for all payments not made prior to and during the temporary halt and failure to pay may make me subject to
eviction pursuant to State and local laws.

76a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Temporary Halt in Residential Evictions To Prevent the Further..., 85 FR 55292-01

I understand that any false or misleading statements or omissions may result in criminal and civil actions for fines, penalties,
damages, or imprisonment.
_____
Signature of Declarant Date
_____
Authority
The authority for this Order is Section 361 of the Public Health Service Act (42 U.S.C. 264) and 42 CFR 70.2.
Dated: September 1, 2020.
Nina B. Witkofsky,
Acting Chief of Staff, Centers for Disease Control and Prevention.

[FR Doc. 2020-19654 Filed 9-1-20; 4:15 pm]
BILLING CODE 4163-18-P

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

77a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

APPENDIX O

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

86 FR 8020-01, 2021 WL 352179(F.R.)
NOTICES
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Disease Control and Prevention
Temporary Halt in Residential Evictions to Prevent the Further Spread of COVID-19
Wednesday, February 3, 2021
AGENCY: Centers for Disease Control and Prevention (CDC), Department of Health and Human Services (HHS).
*8020 ACTION: Agency Order.
SUMMARY: The Centers for Disease Control and Prevention (CDC), located within the Department of Health and Human
Services (HHS) announces the extension of an Order under Section 361 of the Public Health Service Act to temporarily halt
residential evictions to prevent the further spread of COVID-19.
DATES: This Order is effective January 31, 2021 through March 31, 2021.
FOR FURTHER INFORMATION CONTACT: Tiffany Brown, Acting Deputy Chief of Staff, Centers for Disease Control and
Prevention, 1600 Clifton Road, NE, MS H21-10, Atlanta, GA 30329. Phone: 404-639-7000. Email: cdcregulations@cdc.gov.
SUPPLEMENTARY INFORMATION:
Background
This Order extends the original temporary eviction moratorium Order published on September 4, 2020 and extended by
the Consolidated Appropriations Act, 2021 and further extends the Order with modifications through March 31, 2021. The
conditions that originally necessitated the original Order continue to exist and, in many jurisdictions, have significantly
worsened. With the convergence of COVID-19, seasonal influenza, household crowding and transmission, and the increased
risk of individuals sheltering in close quarters in congregate settings such as homeless shelters, which may be unable to provide
adequate social distancing as populations increase, extending the temporary halt on evictions, subject to further extension,
modification, or rescission, is appropriate. Additionally, the Order now applies to American Samoa. At the time of publication
of the September 4, 2020 Order, no cases had been reported in American Samoa. Cases have now been reported there.
A copy of the Order is provided below. A copy of the signed Order and the Declaration can be found at: https://www.cdc.gov/
coronavirus/2019-ncov/covid-eviction-declaration.html
Centers for Disease Control and Prevention Department of Health and Human Services
Order Under Section 361 of the Public Health Service AcT (42 U.S.C. 264) and 42 Code of Federal Regulations 70.2
Temporary Halt in Residential Evictions to Prevent the Further Spread of Covid-19
Summary
Subject to the limitations under “Applicability,” a landlord, owner of a residential property, or other person [FN1] with a legal
right to pursue eviction or possessory action, shall not evict any covered person from any residential property in any jurisdiction
to which this Order applies during the effective period of the Order.

78a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

1

For purposes of this Order, “person” includes corporations, companies, associations, firms, partnerships, societies, and
joint stock companies, as well as individuals.

Definitions
“Available government assistance” means any governmental rental or housing payment benefits available to the individual or
any household member.
“Available housing” means any available, unoccupied residential property, or other space for occupancy in any seasonal or
temporary housing, that would not violate Federal, state, or local occupancy standards and that would not result in an overall
increase of housing cost to such individual.
“Covered person” [FN2] means any tenant, lessee, or resident of a residential property who provides to their landlord, the
owner of the residential property, or other person with a legal right to pursue eviction or a possessory action, a declaration
under penalty of perjury indicating that: (1) The individual has used best efforts to obtain all available government assistance
for rent or housing;
(2) The individual either (i) expects to earn no more than $99,000 in annual income for Calendar Year 2021 (or no more than
$198,000 if filing a joint tax return),[FN3] (ii) was not required to report any income in 2020 to the U.S. Internal Revenue
Service, or (iii) received an Economic Impact Payment (stimulus check) pursuant to Section 2201 of the CARES Act;
2

This definition is based on factors that are known to contribute to evictions and thus increase the need for individuals
to move into close quarters in new congregate or shared living arrangements or experience homelessness. Individuals
who suffer job loss, have limited financial resources, are low income, or have high out-of-pocket medical expenses
are more likely to be evicted for nonpayment of rent than others not experiencing these factors. See Desmond, M.,
Gershenson, C., Who gets evicted? Assessing individual, neighborhood, and network factors, Social Science Research
62 (2017), 366-377, http://dx.doi.org/10.1016/j.ssresearch.2016.08.017, (identifying job loss as a possible predictor of
eviction because renters who lose their jobs experience not only a sudden loss of income but also the loss of predictable
future income). According to one survey, over one quarter (26%) of respondents also identified job loss as the primary
cause of homelessness. See 2019 San Francisco Homeless Point-in-Time Count & Survey, page 22, available at: https://
hsh.sfgov.org/wp-content/uploads/2020/01/2019HIRDReport_SanFrancisco_FinalDraft-1.pdf.

3

According to one study, the national two-bedroom housing wage in 2020 was $23.96 per hour (approximately, $49,837
annually), meaning that an hourly wage of $23.96 was needed to afford a modest two bedroom house without spending
more than 30% of one's income on rent. The hourly wage needed in Hawaii (the highest cost U.S. State for rent) was
$38.76 (approximately $80,621 annually). See National Low-Income Housing Coalition, Out of Reach: The High Cost
of Housing 2020, available at: https://reports.nlihc.org/oor. As further explained herein, because this Order is intended
to serve the critical public health goal of preventing evicted individuals from potentially contributing to the interstate
spread of COVID-19 through movement into close quarters in new congregate, shared housing settings, or though
homelessness, the higher income thresholds listed here have been determined to better serve this goal.

(3) the individual is unable to pay the full rent or make a full housing payment due to substantial loss of household income, loss
of compensable hours of work or wages, a lay-off, or extraordinary [FN4] out-of-pocket medical expenses;
4

An extraordinary medical expense is any unreimbursed medical expense likely to exceed 7.5% of one's adjusted gross
income for the year.

79a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

(4) the individual is using best efforts to make timely partial payments that are *8021 as close to the full payment as the
individual's circumstances may permit, taking into account other nondiscretionary expenses; and
(5) eviction would likely render the individual homeless—or force the individual to move into and live in close quarters in a
new congregate or shared living setting—because the individual has no other available housing options.
“Evict” and “Eviction” means any action by a landlord, owner of a residential property, or other person with a legal right to
pursue eviction or possessory action, to remove or cause the removal of a covered person from a residential property. It also
does not include foreclosure on a home mortgage.
“Residential property” means any property leased for residential purposes, including any house, building, mobile home or land
in a mobile home park, or similar dwelling leased for residential purposes, but shall not include any hotel, motel, or other guest
house rented to a temporary guest or seasonal tenant as defined under the laws of the state, territorial, tribal, or local jurisdiction.
“State” shall have the same definition as under 42 CFR 70.1, meaning “any of the 50 states, plus the District of Columbia.”
“U.S. territory” shall have the same definition as under 42 CFR 70.1, meaning “any territory (also known as possessions) of
the United States, including American Samoa, Guam, the Northern Mariana Islands, the Commonwealth of Puerto Rico, and
the U.S. Virgin Islands.”
Statement of Intent
This Order shall be interpreted and implemented in a manner as to achieve the following objectives:
• Mitigating the spread of COVID-19 within congregate or shared living settings, or through unsheltered homelessness;
• Mitigating the further spread of COVID-19 from one state or territory into any other state or territory; and
• Supporting response efforts to COVID-19 at the Federal, state, local, territorial, and tribal levels.
Background
There is currently a pandemic of a respiratory disease (“COVID-19”) caused by a novel coronavirus (SARS-COV-2) that has
now spread globally, including cases reported in all fifty states within the United States plus the District of Columbia and U.S.
territories. As of January 21, 2021, there have been over 96 million cases of COVID-19 globally, resulting in over 2,000,000
deaths. Over 24,400,000 cases have been identified in the United States, with new cases reported daily, and over 400,000 deaths
due to the disease. On January 8, 2021, over 300,000 COVID-19 cases in the U.S. were reported to CDC, representing a peak
approximately 7 times the highest daily cases in April, 2020 and approximately 4 times the highest daily cases in July, 2020.
The virus that causes COVID-19 spreads very easily and sustainably between people who are in close contact with one another
(within about 6 feet), mainly through respiratory droplets produced when an infected person coughs, sneezes, or talks. Some
people without symptoms may be able to spread the virus. Among adults, the risk for severe illness from COVID-19 increases
with age, with older adults at highest risk. Severe illness means that persons with COVID-19 may require hospitalization,
intensive care, or a ventilator to help them breathe, and may be fatal. People of any age with certain underlying medical
conditions, such as cancer, an immunocompromised state, obesity, serious heart conditions, and diabetes, are at increased risk
for severe illness from COVID-19.[FN5]

80a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

5

CDC, People with Certain Medical Conditions, https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/
people-with-medical-conditions.html (accessed August 26, 2020).

COVID-19 presents a historic threat to public health, and COVID-19 cases have been detected in every county in the continental
United States.[FN6] Through December 2020 and January 2021, the number of deaths per day from COVID-19 consistently
exceeded any other cause.[FN7] Additionally, in recent months, new variants of SARS-CoV-2 have emerged globally, some of
which have been associated with increased transmissibility.[FN8] To respond to this public health threat, the Federal, state, and
local governments have taken unprecedented or exceedingly rare actions, including border closures, restrictions on travel, stayat-home orders, mask requirements, and eviction moratoria. Despite these significant efforts, COVID-19 continues to spread
and further action is needed.
6

USAFacts. https://usafacts.org/visualizations/coronavirus-covid-19-spread-map/.

7

Woolf SH, Chapman DA, Lee JH. COVID-19 as the Leading Cause of Death in the United States. JAMA.
2021;325(2):123-124. doi:10.1001/jama.2020.24865

8

Emerging SARS-CoV-2 Variants. https://www.cdc.gov/coronavirus/2019-ncov/more/science-and-research/scientificbrief-emerging-variants.html.

In the context of a pandemic, eviction moratoria—like quarantine, isolation, and social distancing—can be an effective public
health measure utilized to prevent the spread of communicable disease. Eviction moratoria facilitate self-isolation by people
who become ill or who are at risk for severe illness from COVID-19 due to an underlying medical condition. They also allow
state and local authorities to more easily implement stay-at-home and social distancing directives to mitigate the community
spread of COVID-19. Furthermore, housing stability helps protect public health because homelessness increases the likelihood
of individuals moving into close quarters in congregate settings, such as homeless shelters, which then puts individuals at higher
risk to COVID-19.
On September 4, 2020, the CDC Director issued an Order temporarily halting evictions in the United States for the reasons
described therein. That Order was set to expire on December 31, 2020, subject to further extension, modification, or rescission.
Section 502 of Title V, Division N of the Consolidated Appropriations Act, 2021 extended the Order until January 31, 2021.
This Order further extends and modifies the prior Orders until March 31, 2021 for the reasons described herein. Much of the
content of the September 4, 2020 Order has been incorporated into this Order. To the extent any provision of this Order conflicts
with prior Orders, this Order is controlling.
In addition to extending the effective period of the September 4, 2020 Order, as further extended by the Consolidated
Appropriations Act, 2021, this Order includes newly available modeling projections and observational data from COVID-19
incidence comparisons across states that have implemented and lifted eviction moratoria, which clearly demonstrate the need
for this Order. The Order now also applies to American Samoa because cases of COVID-19 have now been reported there.
Applicability
This Order does not apply in any state, local, territorial, or tribal area with a moratorium on residential evictions that provides
the same or greater level of public-health protection than the requirements listed in this Order. In accordance with 42 U.S.C.
264(e), this Order does not preclude state, local, territorial, and tribal authorities from imposing additional requirements that
provide greater public-health protection and are more restrictive than the requirements in this Order.
This Order is a temporary eviction moratorium to prevent the further spread of COVID-19. This Order does not relieve any
individual of any obligation to pay rent, make a housing *8022 payment, or comply with any other obligation that the individual
may have under a tenancy, lease, or similar contract. Nothing in this Order precludes the charging or collecting of fees, penalties,

81a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

or interest as a result of the failure to pay rent or other housing payment on a timely basis, under the terms of any applicable
contract. Nothing in this Order precludes evictions based on a tenant, lessee, or resident: (1) Engaging in criminal activity
while on the premises; (2) threatening the health or safety of other residents; [FN9] (3) damaging or posing an immediate and
significant risk of damage to property; (4) violating any applicable building code, health ordinance, or similar regulation relating
to health and safety; or (5) violating any other contractual obligation, other than the timely payment of rent or similar housingrelated payment (including non-payment or late payment of fees, penalties, or interest).
9

Individuals who might have COVID-19 are advised to stay home except to get medical care. Accordingly, individuals
who might have COVID-19 and take reasonable precautions to not spread the disease should not be evicted on the
ground that they may pose a health or safety threat to other residents. See What to Do if You are Sick, available at https://
www.cdc.gov/coronavirus/2019-ncov/if-you-are-sick/steps-when-sick.html.

This Order now applies to American Samoa. At the time of publication of the September 4, 2020 Order, no cases had been
reported in American Samoa. Cases have now been reported there.[FN10]
10

https://www.who.int/americansamoa.

Eviction and Risk of COVID-19 Transmission
Evicted renters must move, which leads to multiple outcomes that increase the risk of COVID-19 spread. Specifically, many
evicted renters move into close quarters in shared housing or other congregate settings. According to the Census Bureau
American Housing Survey, 32% of renters reported that they would move in with friends or family members upon eviction,
which would introduce new household members and potentially increase household crowding.[FN11] Studies show that
COVID-19 transmission occurs readily within households; household contacts are estimated to be 6 times more likely to become
infected by an index case of COVID-19 than other close contacts.[FN12]
11

United States Census Bureau. American Housing Survey, 2017. https://www.census.gov/programs-surveys/ahs.html.

12

Bi Q, Wu Y, Mei S, et al. Epidemiology and transmission of COVID-19 in 391 cases and 1286 of their close contacts in
Shenzhen, China: a retrospective cohort study. Lancet Infect Dis 2020, https://doi.org/10.1016/S1473-3099(20)30287-5.

Preliminary modeling projections and observational data from COVID-19 incidence comparisons across states that implemented
and lifted eviction moratoria indicate that evictions substantially contribute to COVID-19 transmission. In mathematical models
where eviction led exclusively to sharing housing with friends or family, lifting eviction moratoria led to a 40% increased
risk of contracting COVID-19 among people who were evicted and those with whom they shared housing after eviction (prepeer review).[FN13] Compared to a scenario where no evictions occurred, the models also predicted a 5-50% increased risk
of infection even for those who did not share housing as a result of increased overall transmission. The authors estimated that
anywhere from 1,000 to 100,000 excess cases per million population could be attributable to evictions depending on the eviction
and infection rates.[FN14] An analysis of observational data from state-based eviction moratoria in 43 states and the District of
Columbia showed significant increases in COVID-19 incidence and mortality approximately 2-3 months after eviction moratoria
were lifted (pre-peer review).[FN15] Specifically, the authors compared the COVID-19 incidence and mortality rates in states
that lifted their moratoria with the rates in states that maintained their moratoria. In these models, the authors controlled for timevarying indicators of each state's test count as well as major public-health interventions including lifting stay-at-home orders,
school closures, and mask mandates. After adjusting for these other changes, they found that the incidence of COVID-19 in
states that lifted their moratoria was 1.6 times that of states that did not at 10 weeks post-lifting (95% CI 1.0, 2.3), a ratio that
grew to 2.1 at >=16 weeks (CI 1.1, 3.9). Similarly, they found that mortality in states that lifted their moratoria was 1.6 times
that of states that did not at 7 weeks post-lifting (CI 1.2, 2.3), a ratio that grew to 5.4 at >=16 weeks (CI 3.1, 9.3). Although

82a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

there may be additional factors that the authors were unable to adjust for, the authors estimated that, nationally, over 433,000
cases of COVID-19 and over 10,000 deaths could be attributed to lifting state moratoria.[FN16]
13

Sheen J, Nande A, Walters EL, Adlam B, Gheorghe A, Shinnick J, Tejeda MF, Greenlee A, Schneider D, Hill AL,
Levy MZ. The effect of eviction moratoriums on the transmission of SARS-CoV-2. medRxiv [Preprint]. 2020 Nov
1:2020.10.27.20220897. doi: 10.1101/2020.10.27.20220897. PMID: 33140067; PMCID: PMC7605580.

14

Id.

15

Leifheit, Kathryn M. and Linton, Sabriya L. and Raifman, Julia and Schwartz, Gabriel and Benfer, Emily
and Zimmerman, Frederick J and Pollack, Craig, Expiring Eviction Moratoriums and COVID-19 Incidence and
Mortality (November 30, 2020). Available at SSRN: https://ssrn.com/abstract=3739576 or http://dx.doi.org/10.2139/
ssrn.3739576.

16

Id.

Shared housing is not limited to friends and family. It includes a broad range of settings, including transitional housing, and
domestic violence and abuse shelters. Special considerations exist for such housing because of the challenges of maintaining
social distance. Residents often gather closely or use shared equipment, such as kitchen appliances, laundry facilities, stairwells,
and elevators. Residents may have unique needs, such as disabilities, cognitive decline, or no access to technology, and thus
may find it more difficult to take actions to protect themselves from COVID-19. CDC recommends that shelters provide new
residents with a clean mask, keep them isolated from others, screen for symptoms at entry, or arrange for medical evaluations
as needed depending on symptoms.[FN17] Accordingly, an influx of new residents at facilities that offer support services could
potentially overwhelm staff and, if recommendations are not followed, lead to exposures.
17

See CDC COVID-19 Guidance for Shared or Congregate Housing, available at: https://www.cdc.gov/coronavirus/2019ncov/community/shared-congregate-house/guidance-shared-congregate-housing.html.

Congress passed the Coronavirus Aid, Relief, and Economic Security (CARES) Act (Pub. L. 116-136) to aid individuals and
businesses adversely affected by COVID-19. Section 4024 of the CARES Act provided a 120-day moratorium on eviction
filings as well as other protections for tenants in certain rental properties with Federal assistance or federally related financing.
These protections helped alleviate the public health consequences of tenant displacement during the COVID-19 pandemic. The
CARES Act eviction moratorium expired on July 24, 2020.[FN18] The protections in the CARES Act supplemented temporary
eviction moratoria and rent freezes implemented by governors and local officials using emergency powers.
18

Because evictions generally require 30-days' notice, the effects of housing displacement due to the expiration of the
CARES act are not expected to manifest until August 27, 2020.

Researchers estimated that this temporary Federal moratorium provided relief to a material portion of the nation's roughly 43
million renters.[FN19] *8023 Approximately 12.3 million rental units have federally backed financing, representing 28% of
renters. Other data show more than 2 million housing vouchers along with approximately 2 million other federally assisted
rental units.[FN20]
19

See Congressional Research Service, CARES Act Eviction Moratorium, (April 7, 2020) available at: https://
crsreports.congress.gov/product/pdf/IN/IN11320.

20

See HUD, A Picture of Subsidized Households General Description of the Data and Bibliography, available at: https://
www.huduser.gov/portal/datasets/assthsg/statedata98/descript.html.

83a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

The CARES Act moratorium, however, did not reach all renters. Neither does the more recently enacted Emergency Rental
Assistance Program under the Consolidated Appropriations Act, 2021, as administered by the Department of Treasury.[FN21]
Many renters who fell outside the scope of the moratorium were protected under state and local moratoria. In the absence of
state and local protections, as many as 30-40 million people in America could be at risk of eviction.[FN22] A wave of evictions
on that scale would be unprecedented in modern times.[FN23] A large portion of those who are evicted may move into close
quarters in shared housing or, as discussed below, become homeless, thus contributing to the spread of COVID-19.
21

https://home.treasury.gov/policy-issues/cares/emergency-rental-assistance-program.

22

See Emily Benfer, et al., The COVID-19 Eviction Crisis: An Estimated 30-40 Million People in America are at
Risk, available at: https://www.aspeninstitute.org/blog-posts/the-covid-19-eviction-crisis-an-estimated-30-40-millionpeople-in-america-are-at-risk/.

23

As a baseline, approximately 900,000 renters are evicted every year in the United States. Princeton University Eviction
Lab. National Estimates: Eviction in America. https://evictionlab.org/national-estimates/.

The statistics on interstate moves show that mass evictions would likely increase the interstate spread of COVID-19. Over 35
million Americans, representing approximately 10% of the U.S. population, move each year.[FN24] Approximately 15% of
moves are interstate.[FN25]
24

See U.S. Census Bureau, CPS Historical Migration/Geographic Mobility Tables, available at: https://www.census.gov/
data/tables/time-series/demo/geographic-mobility/historic.html.

25

Id.

Eviction, Homelessness, and Risk of Severe Disease From COVID-19
Evicted individuals without access to housing or assistance options may also contribute to the homeless population, including
older adults or those with underlying medical conditions, who are more at risk for severe illness from COVID-19 than the
general population.[FN26] In Seattle-King County, 5-15% of people experiencing homelessness between 2018 and 2020 cited
eviction as the primary reason for becoming homeless.[FN27] Additionally, some individuals and families who are evicted may
originally stay with family or friends, but subsequently seek homeless services. Among people who entered shelters throughout
the United States in 2017, 27% were staying with family or friends beforehand.[FN28]
26

See CDC, Coronavirus Disease 2019 (COVID-19), People Who Are at Increased Risk for Severe Illness, available
at https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/people-at-increased-risk.html (accessed August
26, 2020).

27

Seattle-King County. Point in Time Count. https://regionalhomelesssystem.org/wp-content/uploads/2020/07/Count-UsIn-2020-Final_7.29.2020.pdf.

28

United States Department of Housing and Urban Development. The 2017 Annual Homeless Assessment Report (AHAR)
to Congress: Part 2. Available at: https://files.hudexchange.info/resources/documents/2017-AHAR-Part-2.pdf.

People experiencing homelessness are a high-risk population. It may be more difficult for these persons to consistently access
the necessary resources in order to adhere to public health recommendations to prevent COVID-19. For instance, it may not
be possible to avoid certain congregate settings such as homeless shelters, or easily access facilities to engage in handwashing
with soap and water.

84a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

Extensive outbreaks of COVID-19 have been identified in homeless shelters.[FN29] In Seattle, Washington, a network of three
related homeless shelters experienced an outbreak that led to 43 cases among residents and staff members.[FN30] In Boston,
Massachusetts, universal COVID-19 testing at a single shelter revealed 147 cases, representing 36% of shelter residents.[FN31]
COVID-19 testing in a single shelter in San Francisco led to the identification of 101 cases (67% of those tested).[FN32]
Throughout the United States, among 208 shelters reporting universal diagnostic testing data, 9% of shelter clients have tested
positive.[FN33]
29

Mosites E, et al, Assessment of SARS-CoV-2 Infection Prevalence in Homeless Shelters—Four U.S. Cities, March 27April 15, 2020. MMWR 2020 May 1;69(17):521-522.

30

Tobolowsky FA, et al. COVID-19 Outbreak Among Three Affiliated Homeless Service Sites—King County,
Washington, 2020. MMWR 2020 May 1;69(17):523-526.

31

Baggett TP, Keyes H, Sporn N, Gaeta JM. Prevalence of SARS-CoV-2 Infection in Residents of a Large Homeless
Shelter in Boston. JAMA. 2020 Apr 27;323(21):2191-2. Online ahead of print.

32

Imbert E, et al. Coronavirus Disease 2019 (COVID-19) Outbreak in a San Francisco Homeless Shelter. Clin Infect Dis.
2020 Aug 3.

33

National Health Care for the Homeless Council and Centers for Disease Control and Prevention. Universal Testing Data
Dashboard. Available at: https://nhchc.org/cdc-covid-dashboard/.

CDC guidance recommends increasing physical distance between beds in homeless shelters.[FN34] To adhere to this guidance,
shelters have limited the number of people served throughout the United States. In many places, considerably fewer beds are
available to individuals who become homeless. Shelters that do not adhere to the guidance, and operate at ordinary or increased
occupancy, are at greater risk for the types of outbreaks described above. The challenge of mitigating disease transmission
in homeless shelters has been compounded because some organizations have chosen to stop or limit volunteer access and
participation.
34

Centers for Disease Control and Prevention. Interim Guidance for Homeless Service Providers to Plan and Respond to
COVID-19. https://www.cdc.gov/coronavirus/2019-ncov/community/homeless-shelters/plan-prepare-respond.html.

In the context of the current pandemic, large increases in evictions resulting in homelessness could have at least two potential
negative consequences. One is if homeless shelters increase occupancy in ways that increase the exposure risk to COVID-19.
The other is if homeless shelters continue to limit new admissions, leading to increases in unsheltered homelessness. Neither
consequence is in the interest of the public health.
Recently published data suggest that those experiencing unsheltered homelessness may have a lower risk of contracting
COVID-19 compared to those staying in shelters.[FN35] Data are not yet available to evaluate the risk of COVID-19 among
people who are staying unsheltered compared to the general population. However, increases in unsheltered homelessness may
lead to further strains on the healthcare system, impacting the availability of COVID-19 care. People experiencing homelessness
have been estimated to use the emergency department almost 5 times the rate of the general population,[FN36] and those who
are unsheltered are estimated to use the emergency department twice as often as *8024 those who are sheltered.[FN37] In the
context of the pandemic, increased emergency department use is untenable given the existing strains on the healthcare system.
[FN38]
35

Yoon JC, Montgomery MP, Buff AM, Boyd AT, Jamison C, Hernandez A, Schmit K, Shah S, Ajoku S, Holland
DP, Prieto J, Smith S, Swancutt MA, Turner K, Andrews T, Flowers K, Wells A, Marchman C, Laney E, Bixler D,

85a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

Cavanaugh S, Flowers N, Gaffga N, Ko JY, Paulin HN, Weng MK, Mosites E, Morris SB. COVID-19 Prevalence among
People Experiencing Homelessness and Homelessness Service Staff during Early Community Transmission in Atlanta,
Georgia, April-May 2020. Clin Infect Dis. 2020 Sep 8:ciaa1340. doi: 10.1093/cid/ciaa1340. Epub ahead of print. PMID:
32898272; PMCID: PMC7499502.
36

Amato S, Nobay F, Amato DP, Abar B, Adler D. Sick and unsheltered: Homelessness as a major risk factor for emergency
care utilization. Am J Emerg Med. 2019 Mar;37(3):415-420. doi: 10.1016/j.ajem.2018.06.001. Epub 2018 Jun 2. PMID:
29891125.

37

Raven MC, Tieu L, Lee CT, Ponath C, Guzman D, Kushel M. Emergency Department Use in a Cohort of Older Homeless
Adults: Results From the HOPE HOME Study. Acad Emerg Med. 2017 Jan;24(1):63-74. doi: 10.1111/acem.13070.
PMID: 27520382; PMCID: PMC5857347.

38

https://www.wsj.com/articles/covid-19-surge-strains-hospitals-once-again-11605100312.

Additionally, research suggests that the population of persons who would be evicted and become homeless would include many
who are predisposed to developing severe disease from COVID-19. Five studies have shown an association between eviction
and hypertension, which has been associated with more severe outcomes from COVID-19.[FN39] Also, people experiencing
homelessness often have underlying conditions that increase their risk of severe outcomes of COVID-19.[FN40] Among patients
with COVID-19, homelessness has been associated with increased likelihood of hospitalization.[FN41]
39

Hugo Vasquez-Vera, et al. The threat of home eviction and its effects on health through the equity lens: A systematic
review. Social Science and Medicine. 175 (2017) 199e208.

40

Fazel S, Geddes JR, Kushel M. The health of homeless people in high-income countries: descriptive epidemiology,
health consequences, and clinical and policy recommendations. Lancet. 2014;384(9953):1529-1540.

41

Hsu HE, et al. Race/Ethnicity, Underlying Medical Conditions, Homelessness, and Hospitalization Status of Adult
Patients with COVID-19 at an Urban Safety-Net Medical Center—Boston, Massachusetts, 2020. MMWR 2020 Jul
10;69(27):864-869. Historically, African Americans and Hispanic Americans are disproportionately represented in
evictions compared to other races. They are more likely to experience severe outcomes of COVID-19. Id.

These public health risks may increase seasonally. Each year, as winter approaches and the temperature drops, many persons
experiencing homelessness move into shelters to escape the cold and the occupancy of shelters increases.[FN42] At the same
time, there is evidence to suggest that the homeless are more susceptible to respiratory tract infections,[FN43] which may
include seasonal influenza. While there are differences in the epidemiology of COVID-19 and seasonal influenza, the potential
co-circulation of viruses during periods of increased occupancy in shelters could increase the risk to occupants in those shelters.
42

See, generally, the Annual Homeless Assessment Report to Congress (2007), available at: https://www.huduser.gov/
Publications/pdf/ahar.pdf (acknowledging the seasonality of shelter bed use).

43

Ly TDA, Edouard S, Badiaga S, et al. Epidemiology of respiratory pathogen carriage in the homeless population
within two shelters in Marseille, France, 2015-2017: Cross sectional 1-day surveys. Clin Microbiol Infect. 2019;
25(2):249.e1-249.e6.

In short, evictions threaten to increase the spread of COVID-19 as they force people to move, often into close quarters in new
shared housing settings with friends or family, or congregate settings such as homeless shelters. The ability of these settings to
adhere to best practices, such as social distancing and other infection control measures, decreases as populations increase.
Findings and Action

86a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

For the reasons described herein, I am extending and modifying the September 4, 2020 Order, as further extended by Section
502 of Title V, Division N of the Consolidated Appropriations Act, 2021. I have determined that extending the temporary
halt in evictions in this Order constitutes a reasonably necessary measure under 42 CFR 70.2 to prevent the further spread of
COVID-19 throughout the United States. I have further determined that measures by states, localities, or territories that do not
meet or exceed these minimum protections are insufficient to prevent the interstate spread of COVID-19.[FN44]
44

In the United States, public health measures are implemented at all levels of government, including the federal, state,
local, and tribal levels. Publicly-available compilations of pending measures indicate that eviction moratoria and other
protections from eviction have expired or are set to expire in many jurisdictions. Eviction Lab, COVID-19 Housing
Policy Scorecard, available at: https://evictionlab.org/covid-policy-scorecard/.

Based on the convergence of COVID-19, seasonal influenza, household crowding and transmission, and the increased risk
of individuals sheltering in close quarters in congregate settings such as homeless shelters, which may be unable to provide
adequate social distancing as populations increase, all of which may be exacerbated as winter continues, I have determined that
extending the temporary halt on evictions, subject to further extension, modification, or rescission, is appropriate.
Therefore, under 42 CFR 70.2, subject to the limitations under the “Applicability” section, the September 4, 2020 Order is
hereby modified and extended through March 31, 2021. Accordingly, a landlord, owner of a residential property, or other person
with a legal right to pursue eviction or possessory action shall not evict any covered person from any residential property in
any state or U.S. territory in which there are documented cases of COVID-19 that provides a level of public-health protections
below the requirements listed in this Order.
This Order is not a rule within the meaning of the Administrative Procedure Act (“APA”) but rather an emergency action taken
under the existing authority of 42 CFR 70.2. The purpose of § 70.2 is to enable CDC to take swift steps to prevent contagion.
[FN45]
45

Chambless Enters., LLC v. Redfield, No. 20-1455, 2020 WL 7588849, (W.D. La. 2020).

In the event that this Order qualifies as a rule under the APA, notice and comment and a delay in effective date are not required
because there is good cause to dispense with prior public notice and comment and the opportunity to comment on this Order
and the delay in effective date. See 5 U.S.C. 553(b)(3)(B). Considering the public-health emergency caused by COVID-19,
it would be impracticable and contrary to the public health, and by extension the public interest, to delay the issuance and
effective date of this Order.
In the September 4, 2020 Order, the previous CDC Director determined that good cause existed because the public health
emergency caused by COVID-19 made it impracticable and contrary to the public health, and by extension the public interest,
to delay the issuance and effective date of the Order. The previous Director also found that a delay in the effective date of
the Order would permit the occurrence of evictions—potentially on a mass scale—that would have potentially significant
consequences. One such potential consequence would be that evicted individuals would move into close quarters in congregate
or shared living settings, including homeless shelters, which would put the individuals at higher risk for COVID-19. Another
potential consequence would be if evicted individuals become homeless and unsheltered, and further contribute to the spread of
COVID-19. For these reasons, the previous Director concluded that the delay in the effective date of the Order would defeat the
purpose of the Order and endanger the public health and, therefore, determined that immediate action was necessary. As a result,
the previous Director issued the Order without prior notice and comment and without a delay in the effective date. Because these
conditions continue to exist—indeed, have worsened—and because the extension granted in section 502 of Title V, Division N
of the Consolidated Appropriations Act, 2021 is set to expire on January 31, 2021, I hereby conclude that immediate action is
again necessary without prior notice and comment and without a delay in the effective date.

87a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

*8025 The rapidly changing nature of the pandemic requires not only that CDC act swiftly, but also deftly to ensure that
its actions are commensurate with the threat. This necessarily involves assessing evolving conditions that inform CDC's
determinations.
The conditions that existed on September 4, 2020 have only worsened. As of January 21, 2021, there have been over 24,400,000
cases and over 400,000 deaths. Data collected by Princeton University show that eviction filings are occurring; it is therefore
expected that large numbers of evictions would be processed if the Order were to expire. [https://evictionlab.org/evictiontracking]. Without this Order, there is every reason to expect that evictions will increase significantly, resulting in further spread
of COVID-19. It is imperative is to act quickly to protect the public health, and it would be impracticable and contrary to the
public interest to delay the issuance and effective date of the Order pending notice-and-comment rulemaking.
Similarly, if this Order qualifies as a rule under the APA, the Office of Information and Regulatory Affairs (OIRA) has
determined that it would be a major rule under the Congressional Review Act (CRA). But there would not be a delay in its
effective date. The agency has determined that for the same reasons, there would be good cause under the CRA to make the
requirements herein effective immediately
If any provision of this Order, or the application of any provision to any persons, entities, or circumstances, shall be held invalid,
the remainder of the provisions, or the application of such provisions to any persons, entities, or circumstances other than those
to which it is held invalid, shall remain valid and in effect.
This Order shall be enforced by federal authorities and cooperating state and local authorities through the provisions of 18
U.S.C. 3559, 3571; 42 U.S.C. 243, 268, 271; and 42 CFR 70.18. However, this Order has no effect on the contractual obligations
of renters to pay rent and shall not preclude charging or collecting fees, penalties, or interest as a result of the failure to pay rent
or other housing payment on a timely basis, under the terms of any applicable contract.
Criminal Penalties
Under 18 U.S.C. 3559, 3571; 42 U.S.C. 271; and 42 CFR 70.18, a person violating this Order may be subject to a fine of no more
than $100,000 if the violation does not result in a death, or a fine of no more than $250,000 if the violation results in a death, or
as otherwise provided by law. An organization violating this Order may be subject to a fine of no more than $200,000 per event
if the violation does not result in a death or $500,000 per event if the violation results in a death or as otherwise provided by law.
The U.S. Department of Justice may initiate criminal proceedings as appropriate seeking imposition of these criminal penalties.
Notice to Cooperating State and Local Officials
Under 42 U.S.C. 243, the U.S. Department of Health and Human Services is authorized to cooperate with and aid state and
local authorities in the enforcement of their quarantine and other health regulations and to accept state and local assistance in
the enforcement of Federal quarantine rules and regulations, including in the enforcement of this Order.
Notice of Available Federal Resources
While this Order to prevent eviction is effectuated to protect the public health, the states and units of local government are
reminded that the Federal Government has deployed unprecedented resources to address the pandemic, including housing
assistance.
The Department of Housing and Urban Development (HUD) has informed CDC that all HUD grantees—states, cities,
communities, and nonprofits—who received Emergency Solutions Grants (ESG) or Community Development Block Grant
(CDBG) funds under the CARES Act may use these funds to provide temporary rental assistance, homelessness prevention,
or other aid to individuals who are experiencing financial hardship because of the pandemic and are at risk of being evicted,
consistent with applicable laws, regulations, and guidance.

88a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Temporary Halt in Residential Evictions to Prevent the Further..., 86 FR 8020-01

HUD has further informed CDC that:
HUD's grantees and partners play a critical role in prioritizing efforts to support this goal. As grantees decide how to deploy
CDBG-CV and ESG-CV funds provided by the CARES Act, all communities should assess what resources have already been
allocated to prevent evictions and homelessness through temporary rental assistance and homelessness prevention, particularly
to the most vulnerable households.
HUD stands at the ready to support American communities take these steps to reduce the spread of COVID-19 and maintain
economic prosperity. Where gaps are identified, grantees should coordinate across available Federal, non-Federal, and
philanthropic funds to ensure these critical needs are sufficiently addressed and utilize HUD 's technical assistance to design
and implement programs to support a coordinated response to eviction prevention needs. For program support, including
technical assistance, please visit www.hudexchange.info/program-support. For further information on HUD resources, tools,
and guidance available to respond to the COVID-19 pandemic, state and local officials are directed to visit https://www.hud.gov/
coronavirus. These tools include toolkits for Public Housing Authorities and Housing Choice Voucher landlords related to
housing stability and eviction prevention, as well as similar guidance for owners and renters in HUD-assisted multifamily
properties.
Similarly, the Department of the Treasury has informed CDC that the funds allocated through the Coronavirus Relief Fund
and the Emergency Rental Assistance Program may be used to fund rental assistance programs to prevent eviction. Visit
https://home.treasury.gov/policy-issues/cares/state-and-local-governments for more information about the Coronavirus Relief
Fund and https://home.treasury.gov/policy-issues/cares/emergency-rental-assistance-program for more information about the
Emergency Rental Assistance Program..
Effective Date
This Order is effective on January 31, 2021 and will remain in effect, unless extended, modified, or rescinded, through March
31, 2021.
Authority
The authority for this Order is Section 361 of the Public Health Service Act (42 U.S.C. 264) and 42 CFR 70.2.
Dated: January 29, 2021.
Sherri Berger
Acting Chief of Staff, Centers for Disease Control and Prevention.

[FR Doc. 2021-02243 Filed 1-29-21; 4:15 pm]
BILLING CODE 4163-18-P

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

89a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

APPENDIX P

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

86 FR 16731-01, 2021 WL 1194000(F.R.)
NOTICES
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Disease Control and Prevention
Temporary Halt in Residential Evictions To Prevent the Further Spread of COVID-19
Wednesday, March 31, 2021
AGENCY: Centers for Disease Control and Prevention (CDC), Department of Health and Human Services (HHS).
*16731 ACTION: Agency order.
SUMMARY: The Centers for Disease Control and Prevention (CDC), located within the Department of Health and Human
Services (HHS) announces the extension of an Order under Section 361 of the Public Health Service Act to temporarily halt
residential evictions to prevent the further spread of COVID-19.
DATES: This Order is effective April 1, 2021 through June 30, 2021.
FOR FURTHER INFORMATION CONTACT: Tiffany Brown, Acting Deputy Chief of Staff, Centers for Disease Control and
Prevention, 1600 Clifton Road NE, MS H21-10, Atlanta, GA 30329. Phone: 404-639-7000. Email: cdcregulations@cdc.gov.
SUPPLEMENTARY INFORMATION:
Background
This Order further extends the original temporary eviction moratorium Order published on September 4, 2020, as initially
extended by the Consolidated Appropriations Act, 2021, and further extended by the Order published on January 29, 2021
set to expire on March 31, 2021, with modifications through June 30, 2021. Because of COVID-19, household crowding and
transmission, and the increased risk of individuals sheltering in close quarters in congregate settings such as homeless shelters,
which may be unable to provide adequate social distancing as populations increase, extending the temporary halt on evictions,
subject to further extension, modification, or rescission, is appropriate.
The Order is extended through June 30, 2021 based on current and projected epidemiological context of SARS-CoV-2
transmission throughout the United States. Although daily incidence of COVID-19 decreased and plateaued between January
and March 25, 2021, widespread transmission continues at high levels, making the Order still necessary, especially given that
previous plateaus have led to secondary and tertiary phases of acceleration.
A copy of the Order is provided below. A copy of the signed Order and the Declaration can be found at: https://www.cdc.gov/
coronavirus/2019-ncov/covid-eviction-declaration.html.
Centers for Disease Control and Prevention Department of Health and Human Services
Order Under Section 361 of the Public Health Service Act (42 U.S.C. 264) and 42 Code of Federal Regulations 70.2
Temporary Halt in Residential Evictions To Prevent the Further Spread of COVID-19
Summary

90a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

Subject to the limitations under “Applicability,” a landlord, owner of a residential property, or other person [FN1] with a legal
right to pursue eviction or possessory action, shall not evict any covered person from any residential property in any jurisdiction
to which this Order applies during the effective period of the Order.
1

For purposes of this Order, “person” includes corporations, companies, associations, firms, partnerships, societies, and
joint stock companies, as well as individuals.

Definitions
“Available government assistance” means any governmental rental or housing payment benefits available to the individual or
any household member.
“Available housing” means any available, unoccupied residential property, or other space for occupancy in any seasonal or
temporary housing, that would not violate federal, state, or local occupancy standards and that would not result in an overall
increase of housing cost to such individual.
“Covered person” [FN2] means any tenant, lessee, or resident of a residential property who provides to their landlord, the
owner of the residential property, or other person with a legal right to pursue *16732 eviction or a possessory action,[FN3]
a declaration under penalty of perjury indicating that:
2

This definition is based on factors that are known to contribute to evictions and thus increase the need for individuals to
move into close quarters in new congregate or shared living arrangements or experience homelessness. Individuals who
suffer job loss, have limited financial resources, are low income, or have high out-of-pocket medical expenses are more
likely to be evicted for nonpayment of rent than others not experiencing these factors. See Desmond, M., Gershenson,
C., Who gets evicted? Assessing individual, neighborhood, and network factors, Soc Sci Res. 2017;62:362-377.
doi:10.1016/j.ssresearch.2016.08.017, (identifying job loss as a possible predictor of eviction because renters who lose
their jobs experience not only a sudden loss of income but also the loss of predictable future income). According to one
survey, over one quarter (26%) of respondents also identified job loss as the primary cause of homelessness. See 2019
San Francisco Homeless Count & Survey Comprehensive Report, Applied Survey Research, at 22, https://hsh.sfgov.org/
wp-content/uploads/2020/01/2019HIRDReport_SanFrancisco_FinalDraft-1.pdf. (last viewed Mar. 24, 2021).

3

As used throughout this Order, this would include, without limitation, an agent or attorney acting on behalf of the
landlord or the owner of the residential property.

(1) The individual has used best efforts to obtain all available government assistance for rent or housing;
(2) The individual either (i) earned no more than $99,000 (or $198,000 if filing jointly) in Calendar Year 2020, or expects to
earn no more than $99,000 in annual income for Calendar Year 2021 (or no more than $198,000 if filing a joint tax return),
[FN4] (ii) was not required to report any income in 2020 to the U.S. Internal Revenue Service, or (iii) received an Economic
Impact Payment (stimulus check) .5 6
4

According to one study, the national two-bedroom housing wage in 2020 was $23.96 per hour (approximately, $49,837
annually), meaning that an hourly wage of $23.96 was needed to afford a modest two-bedroom house without spending
more than 30% of one's income on rent. The hourly wage needed in Hawaii (the highest cost U.S. State for rent) was
$38.76 (approximately $80,621 annually). See Out of Reach: How Much do you Need to Earn to Afford a Modest
Apartment in Your State?, National Low Income Housing Coalition, https://reports.nlihc.org/oor (last visited Mar. 23,
2021). As further explained herein, because this Order is intended to serve the critical public health goal of preventing
evicted individuals from potentially contributing to the interstate spread of COVID-19 through movement into close

91a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

quarters in new congregate, shared housing settings, or though homelessness, the higher income thresholds listed here
have been determined to better serve this goal.
5

“Stimulus check” includes payments made pursuant to Section 2201 of the CARES Act, to Section 9601 of the American
Rescue Plan Act of 2021, or to any similar federally authorized payments made to individual natural persons in 2020
and 2021. Eligibility for the 2020 or 2021 stimulus checks has been based on an income that is equal to or lower than
the income thresholds described above and does not change or expand who is a covered person under this Order since
it was entered into on September 4, 2020.

6

A person is likely to qualify for protection under this Order if they receive the following benefits: (a) Temporary
Assistance for Needy Families (TANF); (b) Supplemental Nutrition Assistance Program (SNAP); (c) Supplemental
Security Income (SSI); or (d) Supplemental Security Disability Income (SSDI) to the extent that income limits for these
programs are less than or equal to the income limits for this Order. However, it is the individual's responsibility to verify
that their income is within the income limits described.

(3) The individual is unable to pay the full rent or make a full housing payment due to substantial loss of household income,
loss of compensable hours of work or wages, a lay-off, or extraordinary [FN7] out-of-pocket medical expenses;
7

Extraordinary expenses are defined as those that prevented you from paying some or all of your rent or providing for
other basic necessities like food security. To qualify as an extraordinary medical expense, the unreimbursed medical
expense is on that is likely to exceed 7.5% of one's adjusted gross income for the year.

(4) The individual is using best efforts to make timely partial payments that are as close to the full payment as the individual's
circumstances may permit, taking into account other nondiscretionary expenses; and
(5) Eviction would likely render the individual homeless—or force the individual to move into and live in close quarters in a
new congregate or shared living setting—because the individual has no other available housing options.
“Evict” and “Eviction” means any action by a landlord, owner of a residential property, or other person with a legal right to
pursue eviction or possessory action, to remove or cause the removal of a covered person from a residential property. This
definition also does not prohibit foreclosure on a home mortgage.
“Residential property” means any property leased for residential purposes, including any house, building, mobile home or land
in a mobile home park,[FN8] or similar dwelling leased for residential purposes, but shall not include any hotel, motel, or other
guest house rented to a temporary guest or seasonal tenant as defined under the laws of the state, territorial, tribal, or local
jurisdiction.
8

Mobile home parks may also be referred to as manufactured housing communities.

“State” shall have the same definition as under 42 CFR 70.1, meaning “any of the 50 states, plus the District of Columbia.”
“U.S. territory” shall have the same definition as under 42 CFR 70.1, meaning “any territory (also known as possessions) of
the United States, including American Samoa, Guam, the Northern Mariana Islands, the Commonwealth of Puerto Rico, and
the U.S. Virgin Islands.”
Statement of Intent
This Order shall be interpreted and implemented in a manner as to achieve the following objectives:
• Mitigating the spread of COVID-19 within crowded, congregate or shared living settings, or through unsheltered homelessness;

92a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

• Mitigating the further spread of COVID-19 from one state or territory into any other state or territory;
• Mitigating the further spread of COVID-19 by temporarily suspending the eviction of covered persons from residential
property for nonpayment of rent; and
• Supporting response efforts to COVID-19 at the federal, state, local, territorial, and tribal levels.
Background
There is currently a pandemic of a respiratory disease (“COVID-19”) caused by a novel coronavirus (SARS-COV-2) that has
now spread globally, including cases reported in all fifty states within the United States, plus the District of Columbia and U.S.
territories. As of March 25, 2021, there have been almost 125 million cases of COVID-19 globally, resulting in over 2,700,000
deaths.[FN9] Over 29,700,000 cases have been identified in the United States, with new cases reported daily, and over 540,000
deaths due to the disease.[FN10] Although transmission has decreased since a peak in January 2021, the current number of
cases per day remains almost twice as high as the initial peak in April 2020 and transmission rates are similar to the second
peak in July 2020.
9

COVID-19 Dashboard by the Center for Systems Science and Engineering (CSSE) at Johns Hopkins University (JHU),
Johns Hopkins Coronavirus Resource Center, https://coronavirus.jhu.edu/map.html (last visited Mar. 25, 2021).

10

COVID Data Tracker, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-data-tracker/
#datatracker-home (last visited Mar. 25, 2021).

The virus that causes COVID-19 spreads very easily and sustainably between people who are in close contact with one
another (within about 6 feet), mainly through respiratory droplets produced when an infected person coughs, sneezes,
or talks. Individuals without symptoms can also spread the virus.[FN11] Among adults, the risk for severe illness from
COVID-19 increases with age, with older adults at highest risk. Severe illness means that persons with COVID-19 may require
hospitalization, intensive care, or a ventilator to help them breathe, and may be fatal. People of any age with certain underlying
medical conditions (e.g. cancer, obesity, serious heart conditions, or diabetes) are at increased risk for severe illness from
COVID-19.[FN12]
11

Johansson MA, Quandelacy TM, Kada S, et al. SARS-CoV-2 Transmission From People Without COVID-19
Symptoms. JAMA Netw Open. 2021;4(1):e2035057. doi:10.1001/jamanetworkopen.2020.35057

12

People with Certain Medical Conditions, Centers for Disease Control and Prevention, https://www.cdc.gov/
coronavirus/2019-ncov/need-extra-precautions/people-with-medical-conditions.html (last updated Mar. 15, 2021).

COVID-19 presents a historic threat to public health, and COVID-19 cases have been detected in every county in the continental
United States.[FN13] Between December 2020 and January 2021, the number of deaths per day from COVID-19 consistently
exceeded any other *16733 cause.[FN14] Although transmission levels have decreased since January, between February 25
and March 25, 2021, the daily incidence of COVID-19 remained comparable to the summer peak of transmission in July 2020,
which is higher than the daily incidence when the Order initially took effect in September, 2020. Furthermore, 37% of counties
in the United States are categorized as experiencing “high” transmission (over 100 cases per 100,000 people or greater than
10% test positivity) and an additional 30% of counties are categorized as experiencing “substantial” transmission (50-99.99
cases per 100,000 people or 8-9.99% test positivity).[FN15] No counties are currently considered free of spread, and only 8%
of counties are considered to have low transmission.[FN16]

93a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

13

US COVID-19 cases and deaths by state, USAFacts, https://usafacts.org/visualizations/coronavirus-covid-19-spreadmap/ (last visited Mar. 24, 2021).

14

Woolf SH, Chapman DA, Lee JH. COVID-19 as the Leading Cause of Death in the United States. JAMA.
2021;325(2):123-124. doi:10.1001/jama.2020.24865.

15

COVID-19 Integrated County View, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-datatracker/#county-view (last visited Mar. 22, 2021).

16

Id.

Two-dose mRNA COVID-19 vaccination became available in December 2020 and as of March 27, 2021 over 50 million
people in the United States (more than 15% of the population) have been fully immunized.[FN17] In February 2021, a
single dose COVID-19 vaccine also became available. CDC continues to update guidance for COVID-19 precautions among
individuals who have been fully vaccinated; however, currently there are no recommended changes to COVID-19 prevention
recommendations related to activities in public, such as avoiding crowded and poorly ventilated places. This is particularly
important given continued transmission. Even as COVID-19 vaccines continue to be distributed, it remains critical to maintain
COVID-19 precautions to avoid further rises in transmission and to guard against yet another increase in the rates of new
infections. It is important to note that despite higher rates of vaccine coverage, the simultaneous roll-back of community
mitigation efforts may continue to expose vulnerable populations, such as those targeted in this Order, to higher-than-average
COVID-19 rates. It is important to note that despite higher rates of vaccine coverage, the simultaneous roll-back of community
mitigation efforts may continue to expose vulnerable populations, such as those targeted in this Order, to higher-than-average
COVID-19 rates.[FN18]
17

Id.

18

COVID Data Tracker, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-data-tracker/
#datatracker-home (last visited Mar. 25, 2021).

In recent months, new variants of SARS-CoV-2 have also emerged globally.[FN19] Epidemiological evaluation of these variants
shows increased transmissibility as well as possible increased mortality. The current substantial levels of transmission and the
emergence of variants highlight the persistent and dynamic nature of the pandemic and the need for continued protections.
19

Abdool Karim SS, de Oliveira T. New SARS-CoV-2 Variants—Clinical, Public Health, and Vaccine Implications
[published online ahead of print, 2021 Mar 24]. N Engl J Med. 2021;10.1056/NEJMc2100362. doi:10.1056/
NEJMc2100362.

To respond to this public health threat, Federal, state, and local governments have taken unprecedented or exceedingly rare
actions, including border closures, restrictions on travel, stay-at-home orders, mask requirements, and eviction moratoria. In
particular, the COVID-19 pandemic has triggered unprecedented restrictions on interstate and foreign travel. For example,
many states require travelers arriving from other states to obtain negative test results and/or quarantine upon arrival.[FN20]
For international travel, all passengers age two or older—including U.S. citizens—must obtain a negative test result or show
proof of recovery before they may board a flight to the United States.[FN21] Despite the need for travel precautions, airport use
has increased in recent weeks, leading to heightened concerns of interstate transmission.[FN22] SARS-CoV-2 transmission,
behavior change, and travel restrictions have devastated industries that depend on the movement of people, such as the travel,
leisure, and hospitality.[FN23] Ten months after the initial wave of closures due to COVID-19, over 16 percent of the hospitality
and leisure sector's labor force was unemployed.[FN24] The persistent spread of COVID-19 continues to necessitate preventive
action.

94a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

20

Travel During COVID-19, Centers for Disease Control and Prevention, https://www.cdc.gov/coronavirus/2019-ncov/
travelers/travel-during-covid19.html (last updated Feb. 16, 2021).

21

Id.

22

Cecelia Smith-Schoenwalder, CDC Urges Americans to Avoid Travel as Airport Screenings Approach Pandemic Peak,
U.S. News, https://www.usnews.com/news/health-news/articles/2021-03-22/cdc-urges-americans-to-avoid-travel-asairport-screenings-approach-pandemic-peak (last visited Mar. 26, 2021).

23

Aaron Klein & Ember Smith, Explaining the economic impact of COVID-19: Core industries and the Hispanic
workforce, Brookings Institute, https://www.brookings.edu/research/explaining-the-economic-impact-of-covid-19core-industries-and-the-hispanic-workforce/ (last visited Mar. 23, 2021).

24

Labor Force Statistics from the Current Population Survey, U.S. Bureau of Labor Statistics, https://www.bls.gov/web/
empsit/cpseea31.htm (last updated Mar. 5, 2021).

In the context of a pandemic, eviction moratoria—like quarantine, isolation, and social distancing—can be an effective public
health measure utilized to prevent the spread of communicable disease. Eviction moratoria facilitate self-isolation by people
who become ill or who are at risk for severe illness from COVID-19 due to an underlying medical condition. They also allow
state and local authorities to more easily implement, as needed, stay-at-home and social distancing directives to mitigate the
community spread of COVID-19.
Congress passed the Coronavirus Aid, Relief, and Economic Security (CARES) Act (Pub. L. 116-136) to aid individuals and
businesses adversely affected by COVID-19 in March 2020. Section 4024 of the CARES Act provided a 120-day moratorium
on eviction filings as well as other protections for tenants in certain rental properties with federal assistance or federally related
financing. These protections helped alleviate the public health consequences of tenant displacement during the COVID-19
pandemic. The CARES Act eviction moratorium expired on July 24, 2020. The protections in the CARES Act supplemented
temporary eviction moratoria and rent freezes implemented by governors and other local officials using emergency powers.
Researchers estimated that this temporary federal moratorium provided relief to a material portion of the nation's roughly 43
million renters.[FN25] The CARES act also provided funding streams for emergency rental assistance; surveys estimate that
this assistance became available to the public through rental assistance programs by July 2020.[FN26]
25

See CARES Act Eviction Moratorium, Congressional Research Service, https://crsreports.congress.gov/product/pdf/
IN/IN11320 (last visited Mar. 23, 2021).

26

Vincent Reina et al., COVID-19 Emergency Rental Assistance: Analysis of a National Survey of Programs, Research
Brief, https://nlihc.org/sites/default/files/HIP_NLIHC_Furman_Brief_FINAL.pdf (last visited Mar. 26, 2021).

The federal moratorium provided by the CARES Act, however, did not reach all renters. Many renters who fell outside the scope
of the Federal moratorium were instead protected under state and local moratoria. In August, it was estimated that as many as
30-40 million people in America could be at risk of eviction.[FN27] In early *16734 March, 2021, the Census Household
Pulse Survey estimated that over 4 million adults who are not current on rent perceive that they are at imminent risk of eviction.
[FN28] A wave of evictions on that scale would be unprecedented in modern times.[FN29] A large portion of those who are
evicted may move into close quarters in shared housing or, as discussed below, become homeless, thus becoming at higher
risk of COVID-19.

95a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

27

See Emily Benfer et al., The COVID-19 Eviction Crisis: An Estimated 30-40 Million People in America are
at Risk, Aspen Institute, https://www.aspeninstitute.org/blog-posts/the-covid-19-eviction-crisis-an-estimated-30-40million-people-in-america-are-at-risk/ (last visited Mar. 23, 2021).

28

Household Pulse Survey, United States
measures=EVR (last visited Mar. 25, 2021).

29

As a baseline, approximately 900,000 renters are evicted every year in the United States. Princeton University Eviction
Lab. National Estimates: Eviction in America, The Eviction Lab: Princeton University, https://evictionlab.org/nationalestimates/ (last visited Mar. 24, 2021).

Census

Bureau,

https://www.census.gov/data-tools/demo/hhp/#/?

On September 4, 2020, the CDC Director issued an Order temporarily halting evictions in the United States for the reasons
described therein. That Order was set to expire on December 31, 2020, subject to further extension, modification, or rescission.
Section 502 of Title V, Division N of the Consolidated Appropriations Act, 2021 extended the Order until January 31, 2021.
With the extension of the Order, Congress also provided $25 billion for emergency rental assistance for the payment of rent and
rental arrears. Congress later provided an additional $21.55 billion in emergency rental assistance when it passed the American
Rescue Plan.
On January 29, 2021, following an assessment of the ongoing pandemic, the CDC Director renewed the Order until March
31, 2021. This Order further extends and modifies the prior Eviction Moratoria until June 30, 2021, for the reasons described
herein, subject to revision based on the changing public health landscape. To the extent any provision of this Order conflicts
with prior Orders, this Order is controlling.
Researchers estimate that, in 2020, Federal, state, and local eviction moratoria led to over one million fewer evictions than
the previous year.[FN30] Additional research shows that, despite the CDC eviction moratorium leading to an estimated 50%
decrease in eviction filings compared to the historical average, there have still been over 100,000 eviction filings since
September, suggesting high demand and likelihood of mass evictions.[FN31]
30

Pete Hepburn & Renee Louis, Preliminary Analysis: Six Months of the CDC Eviction Moratorium, The Eviction Lab:
Princeton University, https://evictionlab.org/six-months-cdc/ (last visited Mar. 26, 2021).

31

Id.

Eviction and Risk of COVID-19 Transmission
Evicted renters must move, which leads to multiple outcomes that increase the risk of COVID-19 spread. Specifically, many
evicted renters move into close quarters in shared housing or other congregate settings. According to the Census Bureau
American Housing Survey, 32% of renters reported that they would move in with friends or family members upon eviction,
which would introduce new household members and potentially increase household crowding. Studies show that COVID-19
transmission occurs readily within households. The secondary attack rate in households has been estimated to be 17%, and
household contacts are estimated to be 6 times more likely to become infected by an index case of COVID-19 than other close
contacts. A study of pregnant women in New York City showed that women in large households (greater number of residents
per household) were three times as likely to test positive for SARS-CoV-2 than those in smaller households, and those in
neighborhoods with greater household crowding (>1 resident per room) were twice as likely to test positive.
Throughout the United States, counties with the highest proportion of crowded households have experienced COVID-19
mortality rates 2.6 times those of counties with the lowest proportion of crowded households.

96a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

Shared housing is not limited to friends and family. It includes a broad range of settings, including transitional housing and
domestic violence and abuse shelters. Special considerations exist for such housing because of the challenges of maintaining
social distance. Residents often gather closely or use shared equipment, such as kitchen appliances, laundry facilities, stairwells,
and elevators. Residents may have unique needs, such as disabilities, chronic health conditions, cognitive decline, or limited
access to technology, and thus may find it more difficult to take actions to protect themselves from COVID-19. CDC
recommends that shelters provide new residents with a clean mask, keep them isolated from others, screen for symptoms at
entry, or arrange for medical evaluations as needed depending on symptoms. Accordingly, an influx of new residents at facilities
that offer support services could potentially overwhelm staff and, if recommendations are not followed, lead to exposures.
Preliminary modeling projections and observational data from COVID-19 incidence comparisons across states that implemented
and lifted eviction moratoria indicate that evictions substantially contribute to COVID-19 transmission. In mathematical models
where eviction led exclusively to sharing housing with friends or family, lifting eviction moratoria led to a 40% increased risk
of contracting COVID-19 among people who were evicted and those with whom they shared housing after eviction (pre-peer
review). Compared to a scenario where no evictions occurred, the models also predicted a 5-50% increased risk of infection,
even for those who did not share housing, as a result of increased overall transmission. The authors estimated that anywhere
from 1,000 to 100,000 excess cases per million population could be attributable to evictions depending on the eviction and
infection rates.
An analysis of observational data from state-based eviction moratoria in the 43 states and the District of Columbia showed
significant increases in COVID-19 incidence and mortality approximately 2-3 months after eviction moratoria were lifted (prepeer review). Specifically, the authors compared the COVID-19 incidence and mortality rates in states that lifted their moratoria
with the rates in states that maintained their moratoria. In these models, the authors controlled for time-varying indicators of
each state's test count as well as major public-health interventions including lifting stay-at-home orders, school closures, and
mask mandates. After adjusting for these other changes, they found that the incidence of COVID-19 in states that lifted their
moratoria was 1.6 times that of states that did not at 10 weeks post-lifting (95% CI 1.0, 2.3), a ratio that grew to 2.1 at >=16
weeks (CI 1.1, 3.9). Similarly, they found that mortality in states that lifted their moratoria was 1.6 times that of states that
did not at 7 weeks post-lifting (CI 1.2, 2.3), a ratio that grew to 5.4 at >=16 weeks (CI 3.1, 9.3). The authors estimated that,
nationally, over 433,000 cases of COVID-19 and over 10,000 deaths could be attributed to lifting state moratoria.[FN32]
32

Leifheit, Kathryn M. and Linton, Sabriya L. and Raifman, Julia and Schwartz, Gabriel and Benfer, Emily
and Zimmerman, Frederick J and Pollack, Craig, Expiring Eviction Moratoriums and COVID-19 Incidence and
Mortality (November 30, 2020). Available at SSRN: https://ssrn.com/abstract=3739576 or http://dx.doi.org/10.2139/
ssrn.3739576.

*16735 Although data are limited, available evidence suggests evictions lead to interstate spread of COVID-19 in two ways.
First, an eviction may lead the evicted members of a household to move across state lines. Of the 35 million Americans who
move each year, 15% move to a new state. Second, even if a particular eviction, standing alone, would not always result in
interstate displacement, the mass evictions that would occur in the absence of this Order would inevitably increase the interstate
spread of COVID-19. This Order cannot effectively mitigate interstate transmission of COVID-19 without covering intrastate
evictions, as the level of spread of SARS-CoV-2 resulting from these evictions can lead to SARS-CoV-2 transmission across
state borders. Moreover, intrastate spread facilitates interstate spread in the context of communicable disease spread, given the
nature of infectious disease. In the aggregate, the mass-scale evictions that will likely occur in the absence of this Order will
inevitably increase interstate spread of COVID-19.
Eviction, Homelessness, and Risk of Severe Disease From COVID-19
Evicted individuals without access to support or other assistance options may become homeless, including older adults or those
with underlying medical conditions, who are more at risk for severe illness from COVID-19 than the general population. In
Seattle-King County, 5-15% of people experiencing homelessness between 2018 and 2020 cited eviction as the primary reason

97a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

for becoming homeless. Additionally, some individuals and families who are evicted may originally stay with family or friends,
but subsequently seek homeless services. Among people who entered shelters throughout the United States in 2017, 27% were
staying with family or friends beforehand.
People experiencing homelessness are at high risk for COVID-19. It may be more difficult for these persons to consistently
access the necessary resources to adhere to public health recommendations to prevent COVID-19. For instance, it may not be
possible to avoid certain congregate settings such as homeless shelters, or easily access facilities to engage in handwashing
with soap and water.
Extensive outbreaks of COVID-19 have been identified in homeless shelters. In Seattle, Washington, a network of three related
homeless shelters experienced an outbreak that led to 43 cases among residents and staff members. In Boston, Massachusetts,
universal COVID-19 testing at a single shelter revealed 147 cases, representing 36% of shelter residents. COVID-19 testing in
a single shelter in San Francisco led to the identification of 101 cases (67% of those tested). Data from 557 universal diagnostic
testing events at homeless shelters in 21 states show an average of 6% positivity among shelter clients. Data comparing the
incidence or severity of COVID-19 among people experiencing homelessness directly to the general population are limited.
However, during the 15-day period of the outbreak in Boston, MA, researchers estimated a cumulative incidence of 46.3 cases
of COVID-19 per 1000 persons experiencing homelessness, as compared to 1.9 cases per 1000 among Massachusetts adults
(pre-print).
CDC guidance recommends increasing physical distance between beds in homeless shelters. To adhere to this guidance, shelters
have limited the number of people served throughout the United States. In many places, considerably fewer beds are available to
individuals who become homeless. Shelters that do not adhere to the guidance, and operate at ordinary or increased occupancy,
are at greater risk for the types of outbreaks described above. The challenge of mitigating disease transmission in homeless
shelters has been compounded because some organizations have chosen to stop or limit volunteer access and participation.
In the context of the current pandemic, large increases in evictions resulting in homelessness could have at least two potential
negative consequences. One is if homeless shelters increase occupancy in ways that increase the exposure risk to COVID-19.
The other is if homeless shelters limit new admissions, leading to increases in unsheltered homelessness, which is associated
with significantly heightened risk of mortality generally. Neither consequence is in the interest of the public health.
Additionally, research suggests that the population of persons who would be evicted and those experiencing homelessness
may be at risk of severe disease from COVID-19. Five studies have shown an association between eviction and hypertension,
which has been associated with more severe outcomes from COVID-19. Also, people experiencing homelessness often have
underlying conditions that increase their risk of severe outcomes of COVID-19. Among patients with COVID-19, homelessness
has been associated with increased likelihood of hospitalization.
In short, evictions threaten to increase the spread of COVID-19 as they force people to move, often into close quarters in new
shared housing settings with friends or family, or congregate settings such as homeless shelters. The ability of these settings to
adhere to best practices, such as social distancing and other infection control measures, decreases as populations increase.
Modifications
In addition to extending the effective period of the prior orders, this Order makes several modifications. A description of each
modification follows:
CDC added a statement in the “Statement of Intent” section consistent with the clarification of the “Evict” and “Eviction”
definitions. The statement now specifically clarifies that one intended purpose of this Order is to mitigate the spread of
COVID-19 by temporarily suspending the eviction of covered persons from residential property for nonpayment of rent.
CDC modified the “Applicability” section to add the following points:

98a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

A signed declaration submitted under a previous order remains valid notwithstanding the issuance of this extended and modified
order, and covered persons do not need to submit a new declaration under this Order. Evictions for nonpayment of rent initiated
prior to September 4, 2020, but not yet completed are subject to this Order, but those that were completed before September
4, 2020, are not subject to the Order. While the Order does not prohibit evictions for engaging in criminal activity while on
the leased premises, covered persons may not be evicted on the sole basis that they are alleged to have committed the crime
of trespass (or similar state-law offense) where the underlying activity is a covered person remaining in a residential property
despite nonpayment of rent. Individuals who are confirmed to have, who have been exposed to, or who might have COVID-19
and take reasonable precautions to not spread the disease should not be evicted on grounds that they pose a health or safety
threat to other residents.
Even if a particular eviction, standing alone, would not always result in interstate displacement, the mass evictions that would
occur in the absence of this Order would inevitably increase the interstate spread of COVID-19. Moreover, increases in intrastate
spread further facilitate interstate spread in the context of communicable disease spread.
The “Background,” “Eviction and Risk of COVID-19 Infection” and “Eviction, Homelessness, and Risk of Severe Disease
from COVID-19” *16736 subsections have been revised to reflect updated epidemiological and other relevant information
in support of this Order.
CDC added a new section titled “Declaration Forms” with the following points:
To qualify as a covered person eligible for the protections of this Order, a tenant, lessee, or resident of a residential property
must provide a completed and signed copy of a declaration with the elements listed in the definition of “Covered Person” to their
landlord, owner of the residential property where they live, or other person who has a right to have them evicted or removed.
Tenants, lessees, or residents of a residential property may use any written document in place of the Declaration Form if it
includes the required information as in the Form, is signed, and includes a perjury statement.
Tenants, lessees, or residents of a residential property can use a form translated into other Languages.
In some circumstances, it may be appropriate for one member of the residence to provide an executed declaration on behalf of
the other adult residents who are party to the lease, rental agreement, or housing contract.
CDC modified the “Findings and Action” section to, among other things, further explain that this Order is not a rule within the
meaning of the Administrative Procedure Act and, to the extent a court finds that the Order qualifies as a rule, there is good
cause to dispense with prior public notice and comment.
Applicability
This Order does not apply in any state, local, territorial, or tribal area with a moratorium on residential evictions that provides
the same or greater level of public-health protection than the requirements listed in this Order or to the extent its application is
prohibited by federal court order. In accordance with 42 U.S.C. 264(e), this Order does not preclude state, local, territorial, and
tribal authorities from imposing additional requirements that provide greater public-health protection and are more restrictive
than the requirements in this Order.
This Order is a temporary eviction moratorium to prevent the further spread of COVID-19. This Order does not relieve any
individual of any obligation to pay rent, make a housing payment, or comply with any other obligation that the individual may
have under a tenancy, lease, or similar contract. Nothing in this Order precludes the charging or collecting of fees, penalties,
or interest as a result of the failure to pay rent or other housing payment on a timely basis, under the terms of any applicable
contract. Nothing in this Order precludes evictions based on a tenant, lessee, or resident: (1) Engaging in criminal activity

99a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

while on the premises; (2) threatening the health or safety of other residents; [FN33] (3) damaging or posing an immediate
and significant risk of damage to property; (4) violating any applicable building code, health ordinance, or similar regulation
relating to health and safety; or (5) violating any other contractual obligation, other than the timely payment of rent or similar
housing-related payment (including non-payment or late payment of fees, penalties, or interest).
33

Individuals who might have COVID-19 are advised to stay home except to get medical care. Accordingly, individuals
who might have COVID-19 and take reasonable precautions to not spread the disease should not be evicted on the ground
that they may pose a health or safety threat to other residents. See What to Do if You are Sick, Centers for Disease Control
and Prevention, https://www.cdc.gov/coronavirus/2019-ncov/if-you-are-sick/steps-when-sick.html (last updated Mar.
17, 2021).

A signed declaration submitted under a previous order remains valid notwithstanding the issuance of this extended and modified
order, and covered persons do not need to submit a new declaration under this Order.
Any evictions for nonpayment of rent initiated prior to September 4, 2020, but not yet completed, are subject to this Order. Any
tenant, lessee, or resident of a residential property who qualifies as a “Covered Person” and is still present in a rental unit is
entitled to protections under this Order. Any eviction that was completed prior to September 4, 2020, is not subject to this Order.
Under this Order, covered persons may be evicted for engaging in criminal activity while on the premises. But covered persons
may not be evicted on the sole basis that they are alleged to have committed the crime of trespass (or similar state-law offense)
where the underlying activity is a covered person remaining in a residential property for nonpayment of rent. Permitting such
evictions would result in substantially more evictions overall, thus increasing the risk of disease transmission as otherwise
covered persons move into congregate settings or experience homelessness. This result would be contrary to the stated objectives
of this Order, and therefore would diminish their effectiveness. Moreover, to the extent such criminal trespass laws are invoked
to establish criminal activity solely based on a tenant, lessee, or resident of a residential property remaining in a residential
property despite the nonpayment of rent, such invocation conflicts with this Order and is preempted pursuant to 42 U.S.C. 264(e).
Individuals who are confirmed to have, who have been exposed to, or who might have COVID-19 and take reasonable
precautions to not spread the disease may not be evicted on grounds that they may pose a health or safety threat to other residents.
The Order is extended through June 30, 2021, based on the current and projected epidemiological context of SARS-CoV-2
transmission throughout the United States. Although daily incidence of COVID-19 decreased and plateaued between January
and March 25, 2021, widespread transmission continues at high levels, making the Order still necessary, especially given that
previous plateaus have led to secondary and tertiary phases of acceleration. Furthermore, the number of deaths per day continues
at levels comparable to or higher than when this Order was established in September 2020.[FN34] This 90-day extension will
allow the assessment of natural changes to COVID-19 incidence, the influences of new variants, and the expansion of COVID-19
vaccine coverage to determine if there is a continued need for a national eviction moratorium.
34

Trends in Number of COVID-19 Cases and Deaths in the US Reported to CDC, by State/Territory, Centers for Disease
Control and Prevention, https://covid.cdc.gov/covid-data-tracker/#trends_dailytrendsdeaths (last visited Mar. 22, 2021).

Declaration Forms
To qualify for the protections of this Order, a tenant, lessee, or resident of a residential property must provide a completed
and signed copy of a declaration with the elements listed in the definition of “Covered person” to their landlord, owner of
the residential property where they live, or other person who has a right to have them evicted or removed from where they
live. To assist tenants and landlords, the CDC created a standardized declaration form that can be downloaded here: https://
www.cdc.gov/coronavirus/2019-ncov/downloads/declaration-form.pdf.

100a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

Tenants, lessees, and residents of residential property are not obligated to use the CDC form. Any written document that an
eligible tenant, lessee, or residents of residential property presents to their landlord will comply with this Order, as long as
it contains the required elements of “Covered person” as described in this order. In addition, tenants, lessees, and residents
*16737 of residential property are allowed to declare in writing that they meet the elements of covered person in other
languages.
All declarations, regardless of form used, must be signed, and must include a statement that the tenant, lessee, or resident of a
residential property understands that they could be liable for perjury for any false or misleading statements or omissions in the
declaration. This Order does not preclude a landlord challenging the truthfulness of a tenant's, lessee's, or resident's declaration
in court, as permitted under state or local law.
In certain circumstances, such as individuals filing a joint tax return, it may be appropriate for one member of the residence to
provide an executed declaration on behalf of the other adult residents party to the lease, rental agreement, or housing contract.
The declaration may be signed and transmitted either electronically or by hard copy.
Findings and Action
For the reasons described herein, I am extending and modifying the September 4, 2020 Order, as extended by section 502 of
Title V, Division N of the Consolidated Appropriations Act, 2021 and further extended by the January 29, 2021 Order. I have
determined that extending the temporary halt in evictions in this Order constitutes a reasonably necessary measure under 42
CFR 70.2 to prevent the further spread of COVID-19 throughout the United States. I have further determined that measures by
states, localities, or territories that do not meet or exceed these minimum protections are insufficient to prevent the interstate
spread of COVID-19.[FN35]
35

In the United States, public health measures are implemented at all levels of government, including the federal, state,
local, and tribal levels. Publicly-available compilations of pending measures indicate that eviction moratoria and other
protections from eviction have expired or are set to expire in many jurisdictions. COVID-19 Housing Policy Scorecard,
The Eviction Lab: Princeton University, https://evictionlab.org/covid-policy-scorecard/ (last visited Mar. 23, 2021).

Based on the convergence of COVID-19, household crowding and transmission, and the increased risk of individuals sheltering
in close quarters in congregate settings such as homeless shelters, which may be unable to provide adequate social distancing
as populations increase, I have determined that extending the temporary halt on evictions is appropriate.
Therefore, under 42 CFR 70.2, subject to the limitations under the “Applicability” section, the September 4, 2020 Order is
hereby modified and extended through June 30, 2021.
Accordingly, a landlord, owner of a residential property, or other person with a legal right to pursue eviction or possessory action
shall not evict any covered person from any residential property in any state or U.S. territory in which there are documented
cases of COVID-19 that provides a level of public-health protections below the requirements listed in this Order.
This Order is not a rule within the meaning of the Administrative Procedure Act (APA) but rather an emergency action taken
under the existing authority of 42 CFR 70.2. The purpose of section 70.2, which was promulgated through notice-and-comment
rulemaking, is to enable CDC to take swift steps to prevent contagion without having to seek a second round of public comments
and without a delay in effective date.[FN36]
36

Chambless Enters., LLC v. Redfield, No. 20-1455, 2020 WL 7588849, (W.D. La. 2020).

In the event that this Order qualifies as a rule under the APA, notice and comment and a delay in effective date are not required
because there is good cause to dispense with prior public notice and comment and the opportunity to comment on this Order

101a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

and the delay in effective date. See 5 U.S.C. 553(b)(3)(B). Considering the public health emergency caused by COVID-19,
it would be impracticable and contrary to the public health, and by extension the public interest, to delay the issuance and
effective date of this Order.
In the September 4, 2020 Order, the previous CDC Director determined that good cause existed because the public health
emergency caused by COVID-19 made it impracticable and contrary to the public health, and by extension the public interest, to
delay the issuance and effective date of the Order. The previous Director also found that a delay in the effective date of the Order
would permit the occurrence of evictions—potentially on a mass scale—that would have potentially significant consequences.
For these reasons, the previous Director concluded that the delay in the effective date of the Order would defeat the purpose
of the Order and endanger the public health and, therefore, determined that immediate action was necessary. As a result, the
previous Director issued the Order without prior notice and comment and without a delay in the effective date. I made similar
findings in the January 29, 2021 Order.
As noted above, although transmission levels have decreased since January, between February 25, 2021 and March 25, 2021, the
daily incidence of COVID-19 remained comparable to the summer peak of transmission in July 2020. Daily incidence in the last
30 days has remained consistently higher than the daily incidence when the Order took effect in September 2020. Furthermore,
37% of counties in the United States are categorized as experiencing “high” transmission (over 100 cases per 100,000 people or
greater than 10% test positivity) and an additional 30% of counties are categorized as experiencing “substantial” transmission
(50-99.99 cases per 100,000 people or 8-9.99% test positivity). No counties are currently considered free of spread, and only
8% of counties are considered to have low transmission. Because of these reasons and because the current extension is set to
expire on March 31, 2021, I hereby conclude that immediate action is again necessary without prior notice and comment and
without a delay in the effective date.
The rapidly changing nature of the pandemic requires not only that CDC act swiftly, but also deftly to ensure that its actions
are commensurate with the threat. This necessarily involves assessing evolving conditions that inform CDC's determinations.
Although the pandemic is dynamic and the situation evolves over time, the fundamental public health threat that existed on
September 4, 2020, and January 29, 2021—the risk of large numbers of residential evictions contributing to the spread of
COVID-19 throughout the United States—continues to exist. Without this Order, there is every reason to expect that evictions
will increase. It is imperative that public health authorities act quickly to help ward off an unprecedented wave of evictions,
which would threaten new spikes in SARS-CoV-2 transmission at a critical juncture in fight against COVID-19. Such mass
evictions and the attendant public-health consequences would be very difficult, if not impossible, to reverse. It would be
impracticable and contrary to the public interest to delay the issuance and effective date of the Order pending notice-andcomment rulemaking for the reasons described herein, and because of the ever-changing landscape of the pandemic and the
uncertainty of whether Congress would grant another extension as it did in December 2020.
Similarly, if this Order qualifies as a rule under the APA, the Office of Information and Regulatory Affairs (OIRA) has
determined that it would be an economically significant regulatory *16738 action pursuant to Executive Order 12866 and a
major rule under the Congressional Review Act (CRA). But there would not be a delay in its effective date. CDC has determined
that for the same reasons, there would be good cause under the CRA to make the requirements herein effective immediately.
Thus, this action has been reviewed by OIRA.
If any provision of this Order, or the application of any provision to any persons, entities, or circumstances, shall be held invalid,
the remainder of the provisions, or the application of such provisions to any persons, entities, or circumstances other than those
to which it is held invalid, shall remain valid and in effect.
This Order shall be enforced by federal authorities and cooperating state and local authorities through the provisions of 18
U.S.C. 3559, 3571; 42 U.S.C. 243, 268, 271; and 42 CFR 70.18. However, this Order has no effect on the contractual obligations

102a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

of renters to pay rent and shall not preclude charging or collecting fees, penalties, or interest as a result of the failure to pay rent
or other housing payment on a timely basis, under the terms of any applicable contract.
Criminal Penalties
Under 18 U.S.C. 3559, 3571; 42 U.S.C. 271; and 42 CFR 70.18, a person violating this Order may be subject to a fine of no
more than $100,000 or one year in jail, or both, if the violation does not result in a death, or a fine of no more than $250,000
or one year in jail, or both if the violation results in a death, or as otherwise provided by law. An organization violating this
Order may be subject to a fine of no more than $200,000 per event if the violation does not result in a death or $500,000 per
event if the violation results in a death or as otherwise provided by law. The U.S. Department of Justice may initiate criminal
proceedings as appropriate seeking imposition of these criminal penalties.
Notice to Cooperating State and Local Officials
Under 42 U.S.C. 243, the U.S. Department of Health and Human Services is authorized to cooperate with and aid state and
local authorities in the enforcement of their quarantine and other health regulations and to accept state and local assistance in
the enforcement of federal quarantine rules and regulations, including in the enforcement of this Order.
Notice of Available Federal Resources
While this Order to prevent eviction is effectuated to protect the public health, the states and units of local government are
reminded that the Federal Government has deployed unprecedented resources to address the pandemic, including housing
assistance.
The Department of Housing and Urban Development (HUD), the Department of Agriculture, and Treasury have informed
CDC that unprecedented emergency resources have been appropriated through various Federal agencies that assist renters and
landlords during the pandemic, including $46.55 billion to the Treasury through the Consolidated Appropriations Act of 2021
and the American Rescue Plan (ARP). Furthermore, in 2020 44 states and 310 local jurisdictions allocated about $3.9 billion
toward emergency rental assistance, largely from funds appropriated to Treasury and HUD from the Coronavirus Aid, Relief,
and Economic Security (CARES).[FN37] These three rounds of federal appropriations also provided substantial resources for
homeless services, homeowner assistance, and supplemental stimulus and unemployment benefits that low income renters used
to pay rent.
37

Vincent Reina et al., COVID-19 Emergency Rental Assistance: Analysis of a National Survey of Programs, Research
Brief, https://nlihc.org/sites/default/files/HIP_NLIHC_Furman_Brief_FINAL.pdf (last visited Mar. 26, 2021).

Visit https://home.treasury.gov/policy-issues/cares/state-and-local-governments for more information about the Coronavirus
Relief Fund and https://home.treasury.gov/policy-issues/cares/emergency-rental-assistance-program for more information
about the Emergency Rental Assistance Program. HUD has further informed CDC that forbearance policies for mortgages
backed by the federal government are in effect until June 30, 2021, which provide many landlords, especially smaller landlords,
with temporary relief as new emergency rental assistance programs are deployed.
HUD, USDA and Treasury grantees and partners play a critical role in prioritizing efforts to support this goal. As grantees decide
how to deploy CDBG-CV and ESG-CV funds provided by the new funding from the CARES Act, Consolidated Appropriations
Act of 2021, and ARP all communities should assess what resources have already been allocated to prevent evictions and
homelessness through temporary rental assistance and homelessness prevention, particularly to the most vulnerable households.
HUD stands at the ready to support American communities take these steps to reduce the spread of COVID-19 and maintain
economic prosperity. For program support, including technical assistance, please visit www.hudexchange.info/program-support.
For further information on HUD resources, tools, and guidance available to respond to the COVID-19 pandemic, state and local

103a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 16731-01

officials are directed to visit https://www.hud.gov/coronavirus. These tools include toolkits for Public Housing Authorities and
Housing Choice Voucher landlords related to housing stability and eviction prevention, as well as similar guidance for owners
and renters in HUD-assisted multifamily properties. Furthermore, tenants can visit consumerfinance.gov/housing for up-to-date
information on rent relief options, protections, and key deadlines.
Effective Date
This Order is effective on April 1, 2021, and will remain in effect through June 30, 2021, subject to revision based on the
changing public health landscape.
Authority: The authority for this Order is Section 361 of the Public Health Service Act (42 U.S.C. 264) and 42 CFR 70.2.
Dated: March 29, 2021.
Sherri Berger,
Acting Chief of Staff, Centers for Disease Control and Prevention.

[FR Doc. 2021-06718 Filed 3-29-21; 4:15 pm]
BILLING CODE 4163-18-P

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

104a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

APPENDIX Q

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

86 FR 34010-02, 2021 WL 2636210(F.R.)
NOTICES
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Disease Control and Prevention
Temporary Halt in Residential Evictions To Prevent the Further Spread of COVID-19
Monday, June 28, 2021
AGENCY: Centers for Disease Control and Prevention (CDC), Department of Health and Human Services (HHS).
*34010 ACTION: Agency Order.
SUMMARY: The Centers for Disease Control and Prevention (CDC), located within the Department of Health and Human
Services (HHS) announces the extension of an Order under Section 361 of the Public Health Service Act to temporarily halt
residential evictions to prevent the further spread of COVID-19.
DATES: This Order is effective July 1, 2021, through July 31, 2021.
FOR FURTHER INFORMATION CONTACT: Tiffany Brown, Deputy Chief of Staff, Centers for Disease Control and
Prevention, 1600 Clifton Road NE, MS H21-10, Atlanta, GA 30329. Phone: 404-639-7000. Email: cdcregulations@cdc.gov.
SUPPLEMENTARY INFORMATION:
Background
This Order further extends the original temporary eviction moratorium Order published on September 4, 2020, as initially
extended by the Consolidated Appropriations Act, 2021, and further extended by the Orders published on January 29, 2021 and
March 31, 2021 set to expire on June 30, 2021. Because of COVID-19, household crowding and transmission, and the increased
risk of individuals sheltering in close quarters in congregate settings such as homeless shelters, which may be unable to provide
adequate social distancing as populations increase, extending the temporary halt on evictions is appropriate. This Order further
extends the prior Eviction Moratoria for what is currently intended to be a final 30 day-period, until July 31, 2021.
The Order is extended through July 31, 2021 based on current and projected epidemiological context of SARS-CoV-2
transmission throughout the United States.
A copy of the Order is provided below. A copy of the signed Order and Declaration form can be found at: https://www.cdc.gov/
coronavirus/2019-ncov/covid-eviction-declaration.html.
CENTERS FOR DISEASE CONTROL AND PREVENTION
DEPARTMENT OF HEALTH AND HUMAN SERVICES
ORDER UNDER SECTION 361 OF THE PUBLIC HEALTH SERVICE ACT (42 U.S.C. 264) AND 42 CODE OF
FEDERAL REGULATIONS 70.2
TEMPORARY HALT IN RESIDENTIAL EVICTIONS TO PREVENT THE FURTHER SPREAD OF COVID-19
Summary

105a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

Subject to the limitations under “Applicability,” a landlord, owner of a residential property, or other person [FN1] with a legal
right to pursue eviction or possessory action, shall not evict any covered person from any residential property in any jurisdiction
to which this Order applies during the effective period of the Order.
1

For purposes of this Order, “person” includes corporations, companies, associations, firms, partnerships, societies, and
joint stock companies, as well as individuals.

Definitions
“Available government assistance” means any governmental rental or housing payment benefits available to the individual or
any household member.
“Available housing” means any available, unoccupied residential property, or other space for occupancy in any seasonal or
temporary housing, that would not violate Federal, State, or local occupancy standards and that would not result in an overall
increase of housing cost to such individual.
“Covered person” [FN2] means any tenant, lessee, or resident of a residential *34011 property who provides to their landlord,
the owner of the residential property, or other person with a legal right to pursue eviction or a possessory action,[FN3] a
declaration under penalty of perjury indicating that:
2

This definition is based on factors that are known to contribute to evictions and thus increase the need for individuals to
move into close quarters in new congregate or shared living arrangements or experience homelessness. Individuals who
suffer job loss, have limited financial resources, are low income, or have high out-of-pocket medical expenses are more
likely to be evicted for nonpayment of rent than others not experiencing these factors. See Desmond, M., Gershenson,
C., Who gets evicted? Assessing individual, neighborhood, and network factors, Soc Sci Res. 2017;62:362-377.
doi:10.1016/j.ssresearch.2016.08.017, (identifying job loss as a possible predictor of eviction because renters who lose
their jobs experience not only a sudden loss of income but also the loss of predictable future income). According to one
survey, over one quarter (26%) of respondents also identified job loss as the primary cause of homelessness. See 2019
San Francisco Homeless Count & Survey Comprehensive Report, Applied Survey Research, at 22, https://hsh.sfgov.org/
wp-content/uploads/2020/01/2019HIRDReport_SanFrancisco_FinalDraft-1.pdf (last viewed Mar. 24, 2021).

3

As used throughout this Order, this would include, without limitation, an agent or attorney acting on behalf of the
landlord or the owner of the residential property.

(1) The individual has used best efforts to obtain all available government assistance for rent or housing;
(2) The individual either (i) earned no more than $99,000 (or $198,000 if filing jointly) in Calendar Year 2020, or expects to
earn no more than $99,000 in annual income for Calendar Year 2021 (or no more than $198,000 if filing a joint tax return),
[FN4] (ii) was not required to report any income in 2020 to the U.S. Internal Revenue Service, or (iii) received an Economic
Impact Payment (stimulus check) .5 6
4

According to one study, the national two-bedroom housing wage in 2020 was $23.96 per hour (approximately, $49,837
annually), meaning that an hourly wage of $23.96 was needed to afford a modest two-bedroom house without spending
more than 30% of one's income on rent. The hourly wage needed in Hawaii (the highest cost U.S. State for rent) was
$38.76 (approximately $80,621 annually). See Out of Reach: How Much do you Need to Earn to Afford a Modest
Apartment in Your State?, National Low Income Housing Coalition, https://reports.nlihc.org/oor (last visited Mar. 23,
2021). As further explained herein, because this Order is intended to serve the critical public health goal of preventing
evicted individuals from potentially contributing to the interstate spread of COVID-19 through movement into close

106a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

quarters in new congregate, shared housing settings, or through homelessness, the higher income thresholds listed here
have been determined to better serve this goal.
5

“Stimulus check” includes payments made pursuant to Section 2201 of the CARES Act, to Section 9601 of the American
Rescue Plan Act of 2021, or to any similar federally authorized payments made to individual natural persons in 2020
and 2021. Eligibility for the 2020 or 2021 stimulus checks has been based on an income that is equal to or lower than
the income thresholds described above and does not change or expand who is a covered person under this Order since
it was entered into on September 4, 2020.

6

A person is likely to qualify for protection under this Order if they receive the following benefits: (a) Temporary
Assistance for Needy Families (TANF); (b) Supplemental Nutrition Assistance Program (SNAP); (c) Supplemental
Security Income (SSI); or (d) Social Security Disability Income (SSDI) to the extent that income limits for these
programs are less than or equal to the income limits for this Order. However, it is the individual's responsibility to verify
that their income is within the income limits described.

(3) The individual is unable to pay the full rent or make a full housing payment due to substantial loss of household income,
loss of compensable hours of work or wages, a lay-off, or extraordinary [FN7] out-of-pocket medical expenses;
7

Extraordinary expenses are defined as those that prevented you from paying some or all of your rent or providing for
other basic necessities like food security. To qualify as an extraordinary medical expense, the unreimbursed medical
expense is one that is likely to exceed 7.5% of one's adjusted gross income for the year.

(4) The individual is using best efforts to make timely partial payments that are as close to the full payment as the individual's
circumstances may permit, taking into account other nondiscretionary expenses; and
(5) Eviction would likely render the individual homeless—or force the individual to move into and live in close quarters in a
new congregate or shared living setting—because the individual has no other available housing options.
“Evict” and “Eviction” means any action by a landlord, owner of a residential property, or other person with a legal right to
pursue eviction or possessory action, to remove or cause the removal of a covered person from a residential property. This
definition also does not prohibit foreclosure on a home mortgage.
“Residential property” means any property leased for residential purposes, including any house, building, mobile home or land
in a mobile home park,[FN8] or similar dwelling leased for residential purposes, but shall not include any hotel, motel, or other
guest house rented to a temporary guest or seasonal tenant as defined under the laws of the State, territorial, tribal, or local
jurisdiction.
8

Mobile home parks may also be referred to as manufactured housing communities.

“State” shall have the same definition as under 42 CFR 70.1, meaning “any of the 50 states, plus the District of Columbia.”
“U.S. territory” shall have the same definition as under 42 CFR 70.1, meaning “any territory (also known as possessions) of
the United States, including American Samoa, Guam, the Northern Mariana Islands, the Commonwealth of Puerto Rico, and
the U.S. Virgin Islands.”
Statement of intent
This Order shall be interpreted and implemented in a manner as to achieve the following objectives:
• Mitigating the spread of COVID-19 within crowded, congregate or shared living settings, or through unsheltered homelessness;

107a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

• Mitigating the further spread of COVID-19 from one State or territory into any other State or territory;
• Mitigating the further spread of COVID-19 by temporarily suspending the eviction of covered persons from residential
property for nonpayment of rent; and
• Supporting response efforts to COVID-19 at the Federal, State, local, territorial, and tribal levels.
Background
COVID-19 in the United States
Since January 2020, the respiratory disease known as “COVID-19,” caused by a novel coronavirus (SARS-COV-2), has spread
globally, including cases reported in all fifty states within the United States, plus the District of Columbia and U.S. territories.
As of June 23, 2021, there have been over 179 million cases of COVID-19 globally, resulting in over 3,800,000 deaths.[FN9]
Over 33,300,000 cases have been identified in the United States, with new cases reported daily, and over 599,000 deaths due
to the disease.[FN10]
9

COVID-19 Dashboard by the Center for Systems Science and Engineering (CSSE) at Johns Hopkins University (JHU),
Johns Hopkins Coronavirus Resource Center, https://coronavirus.jhu.edu/map.html (last updated June 23, 2021).

10

COVID Data Tracker, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-data-tracker/
#datatracker-home (last updated June 22, 2021).

The virus that causes COVID-19 spreads very easily and sustainably between people, particularly those who are in close contact
with one another (within about 6 feet, but occasionally over longer distances), mainly through respiratory droplets produced
when an infected person coughs, sneezes, or talks. Individuals without symptoms can also spread the virus.[FN11] Among
adults, the risk for severe illness from COVID-19 increases with age, with older adults at highest risk. Severe illness means
that persons with COVID-19 may require hospitalization, intensive care, or a ventilator to help them breathe, and may be fatal.
People of any age with certain underlying medical conditions (e.g. cancer, obesity, serious heart conditions, or diabetes) are at
increased risk for severe illness from COVID-19.[FN12]
11

Kimball A, Hatfield KM, Arons M, et al. Asymptomatic and Presymptomatic SARS-CoV-2 Infections in Residents of
a Long-Term Care Skilled Nursing Facility—King County, Washington, March 2020. MMWR Morb Mortal Wkly Rep
2020;69:377-381. DOI: http://dx.doi.org/10.15585/mmwr.mm6913e1.

12

Razzaghi H, Wang Y, Lu H, et al. Estimated County-Level Prevalence of Selected Underlying Medical Conditions
Associated with Increased Risk for Severe COVID-19 Illness—United States, 2018. MMWR Morb Mortal Wkly Rep
2020;69:945-950. DOI: http://dx.doi.org/10.15585/mmwr.mm6929a1.

COVID-19 vaccines are now widely available in the United States, and all *34012 people 12 years and older are recommended
to be vaccinated against COVID-19. Three COVID-19 vaccines are currently authorized by the U.S. Food and Drug
Administration (FDA) for emergency use: two mRNA vaccines (Pfizer-BioNTech, Moderna) and one viral vector vaccine
(Johnson & Johnson/Janssen), each of which has been determined to be safe and effective against COVID-19. As of June 22,
2021, over 150.3 million people in the United States (more than 53% of the population 12 years or older) have been fully
immunized.[FN13] However, as with other transmissible diseases in densely populated congregate settings, the risk for SARSCoV-2 infection is greater as long as there is continued community transmission of the virus. As vaccination coverage increases,
phasing out prevention measures for fully vaccinated people, ideally those measures that are the most disruptive to individuals
and society, will be increasingly feasible.[FN14] However, the vaccination program is still underway; nearly half of the eligible

108a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

population is not yet fully vaccinated; and children under age 12 are not yet eligible for vaccines. And, although rare, fully
vaccinated people may become infected with COVID-19.[FN15] Moreover, CDC recognizes the risk that even vaccinated
people face in densely populated congregate settings. CDC therefore continues to recommend mask use by all people in areas
like homeless shelters and other congregate settings.[FN16]
13

COVID-19 Vaccinations in the United States, Centers for Disease Control and Prevention, https://covid.cdc.gov/coviddata-tracker/#vaccinations (last updated June 22, 2021).

14

Interim Public Health Recommendations for Fully Vaccinated People. Centers for Disease Control and Prevention.
https://www.cdc.gov/coronavirus/2019-ncov/vaccines/fully-vaccinated-guidance.html (last updated May 28, 2021).

15

COVID-19 Vaccine Breakthrough Infections Reported to CDC—United States, January 1-April 30, 2021. MMWR Morb
Mortal Wkly Rep 2021;70:792-793. DOI: http://dx.doi.org/10.15585/mmwr.mm7021e3.

16

Interim Guidance for Homeless Service Providers to Plan and Respond to Coronavirus Disease 2019 (COVID-19).
Centers for Disease Control and Prevention. https://www.cdc.gov/coronavirus/2019-ncov/community/homelessshelters/plan-prepare-respond.html (last updated June 8, 2021).

New variants of SARS-CoV-2 have emerged globally,[FN17] several of which have been identified as variants of concern.
[FN18] Variants of concern, including the variants Alpha, Beta, Gamma, Delta, and Epsilon, are those for which there is
evidence of an increase in transmissibility, more severe disease, reduction in neutralization by antibodies generated during
previous infection or vaccination, reduced effectiveness of treatments or vaccines, or diagnostic detection failures.[FN19] The
Alpha variant has become the predominant SARS-CoV-2 strain circulating in the United States; however the proportion of
Delta variant cases has increased recently.[FN20] Available evidence suggests the currently authorized mRNA COVID-19
vaccines (Pfizer-BioNTech and Moderna) provide significant protection against known variant strains.[FN21] Other vaccines,
particularly AstraZeneca, show reduced efficacy against infection with certain variants but may still protect against severe
disease. Given the predominance of variant strains and the continued emergence of new variants, ongoing monitoring of vaccine
effectiveness is needed to identify mutations that could render vaccines most commonly used in the U.S. less effective against
more transmissible variants like the Delta variant, which now makes up almost 10 percent of U.S. cases, up from 2.7 percent
in May.[FN22]
17

Abdool Karim SS, de Oliveira T. New SARS-CoV-2 Variants—Clinical, Public Health, and Vaccine Implications
[published online ahead of print, 2021 Mar 24]. N Engl J Med. 2021;10.1056/NEJMc2100362. doi:10.1056/
NEJMc2100362.

18

Id.

19

SARS-CoV-2 Variant Classifications and Definitions, Centers for Disease Control and Prevention, https://www.cdc.gov/
coronavirus/2019-ncov/variants/variant-info.html#Concern (last updated June 22, 2021).

20

Id.

21

Science Brief: COVID-19 Vaccines and Vaccination, Centers for Disease Control and Prevention, https://www.cdc.gov/
coronavirus/2019-ncov/science/science-briefs/fully-vaccinated-people.html (last updated May 27, 2021).

22

According to data with an end collection date of June 5, 2021. Variant Proportions, Centers for Disease Control and
Prevention, https://covid.cdc.gov/covid-data-tracker/#variant-proportions (last updated June 22, 2021).

In the context of a pandemic, eviction moratoria—like quarantine, isolation, and social distancing—can be an effective public
health measure utilized to prevent the spread of communicable disease. Eviction moratoria facilitate self-isolation and selfquarantine by people who become ill or who are at risk of transmitting COVID-19.

109a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

Congress passed the Coronavirus Aid, Relief, and Economic Security (CARES) Act (Pub. L. 116-136) to aid individuals and
businesses adversely affected by COVID-19 in March 2020. Section 4024 of the CARES Act provided a 120-day moratorium
on eviction filings as well as other protections for tenants in certain rental properties with Federal assistance or federally related
financing. These protections helped alleviate the public health consequences of tenant displacement during the COVID-19
pandemic. The CARES Act eviction moratorium expired on July 24, 2020. The protections in the CARES Act supplemented
temporary eviction moratoria and rent freezes implemented by governors and other local officials using emergency powers.
Researchers estimated that this temporary Federal moratorium provided relief to a material portion of the nation's roughly 43
million renters.[FN23] The CARES act also provided funding streams for emergency rental assistance; surveys estimate that
this assistance became available to the public through rental assistance programs by July 2020.
23

Laurie Goodman, Karan Kaul, and Michael Neal. The CARES Act Eviction Moratorium Covers All Federally Financed
Rentals—That's One in Four US Rental Units. The Urban Institute. April 2, 2020. https://www.urban.org/urban-wire/
cares-act-eviction-moratorium-covers-all-federally-financed-rentals-thats-one-four-us-rental-units.

The Federal moratorium provided by the CARES Act, however, did not reach all renters. Many renters who fell outside the
scope of the Federal moratorium were instead protected under State and local moratoria. In early March, 2021, the Census
Household Pulse Survey estimated that 6.4 million households were behind on rent, and just under half fear imminent eviction.
[FN24] In 2016, research showed that there were 3.6 million eviction filings and 1.5 million eviction judgments over the span
of a whole year,[FN25] meaning that a wave of evictions on the scale feared by households would be unprecedented in modern
times. A large portion of those who are evicted may move into close quarters in shared housing or, as discussed below, become
homeless, thus becoming at higher risk of COVID-19.
24

Census Household Pulse Survey: Key Phase 3 Housing Payment Findings. Office of Policy Development and Research,
HUDUser (April 26, 2021). https://www.huduser.gov/portal/pdredge/pdr-edge-trending-042621.html.

25

Ashley Gromis. Eviction: Intersection of Poverty, Inequality, and Housing. Eviction Lab, Princeton University (May
2019). https://www.un.org/development/desa/dspd/wp-content/uploads/sites/22/2019/05/GROMIS_Ashley_Paper.pdf.

On September 4, 2020, the CDC Director issued an Order temporarily halting evictions in the United States for the reasons
described therein. That Order was set to expire on December 31, 2020, subject to further extension, modification, or rescission.
Section 502 of Title V, Division N of the Consolidated Appropriations Act, 2021 extended the Order until January 31, 2021,
and approved the Order as an exercise of the CDC's authority under Section 361 of the Public Health Service Act (42 U.S.C.
264). With the extension of the Order, Congress also provided $25 billion for emergency rental *34013 assistance for the
payment of rent and rental arrears. Congress later provided an additional $21.55 billion in emergency rental assistance when
it passed the American Rescue Plan.
On January 29, 2021, following an assessment of the ongoing pandemic, the CDC Director renewed the Order until March 31,
2021. On March 28, 2021, the CDC Director modified and extended the Order until June 30, 2021. This Order further extends
the prior Eviction Moratoria for what is currently intended to be a final 30-day period, until July 31, 2021, for the reasons
described herein. Although this Order is subject to revision based on the changing public health landscape, absent an unexpected
change in the trajectory of the pandemic, CDC does not plan to extend the Order further. To the extent any provision of this
Order conflicts with prior Orders, this Order is controlling.
Researchers estimate that, in 2020, Federal, State, and local eviction moratoria led to over one million fewer evictions than
the previous year.[FN26] Additional research shows that, despite the CDC eviction moratorium leading to an estimated 50%
decrease in eviction filings compared to the historical average, there have still been over 100,000 eviction filings since September

110a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

just within approximately 35 cities and states with more readily available data, suggesting high demand and likelihood of mass
evictions.[FN27]
26

Hepburn P, Louis R, Fish J, et al. U.S. Eviction Filing Patterns in 2020. Socius. January 2021.
doi:10.1177/23780231211009983.

27

Peter Hepburn and Renee Louis. Preliminary Analysis: Six Months of the CDC Eviction Moratorium (March 8, 2021).
https://evictionlab.org/six-months-cdc/.

Eviction, Crowding, and Interstate Transmission of Covid-19
By February 10, 2021, the U.S. Department of the Treasury had paid all of the $25 billion made available by the Consolidated
Appropriations Act of 2021 to states, territories, localities and tribes for the purpose of providing emergency rental assistance
to eligible households in their jurisdictions. Additionally, as directed in the Act, Treasury has also made available 40 percent—
more than $8.6 billion—of the additional funding to states, territories and localities for emergency rental assistance provided in
the American Rescue Plan. Based on data collected from grantees, Treasury reports that over 630,000 households had already
applied for emergency rental assistance by the end of March—when many State and local programs had not yet opened for
applications. Though there are indications that emergency rental assistance has started to reach increasing numbers of families
over recent months, State and local agencies likely have hundreds of thousands of applications for assistance that currently
remain outstanding as programs accelerate their activity. According to Treasury, more households—over 96,000—were served
in April than in the entire first quarter. Assistance accelerated in May, with over a fifty percent increase in households served
compared to the previous month. The level of assistance provided to low income households is expected to continue increasing
because some states started accepting rental assistance applications in late May, including as late as June 1, and now all states are
operating programs. Based on analysis of grantee reporting, Treasury believes that State and local emergency rental assistance
programs will collectively deploy more rental assistance in July than in any previous month. In addition to Emergency Rental
Assistance, there are coordinated efforts across Federal agencies to—in partnership with states and localities—promote eviction
prevention strategies.
An unprecedented and avoidable surge of evictions is likely to occur if the national moratorium were to conclude on June 30.
Recent data from the U.S. Census Household Pulse Survey demonstrates that an increased percentage of households behind
on rent believe that an eviction is likely in the next two months.[FN28] A surge in evictions could lead to the immediate and
significant movement of large numbers of persons from lower density to higher density housing. This potential for a mass
movement of persons would occur at precisely the same time that our nation is actively engaged in a widespread vaccination
effort. This vaccination effort has a slower rate of penetration among the populations most likely to experience eviction,
and such a mass movement would place increased stress on the homeless service system.[FN29] In combination with the
continued underlying COVID-19 spread, and the overlapping factors described above, this would create considerable risk for
rapid transmission of COVID-19 in high risk settings. Allowing additional time for rent relief to reach renters and to further
increase vaccination rates through the end of July 2021 could decrease the numbers of likely evictions and avert the potential
of COVID-19 resurgence among people who experience eviction, their communities, and other regions of the country affected
by the resulting transmission.
28

Household Pulse Survey Interactive Tool. U.S. Census Bureau. https://www.census.gov/data-tools/demo/hhp/#/ (last
visited June 23, 2021).

29

Barry V, Dasgupta S, Weller DL, et al. Patterns in COVID-19 Vaccination Coverage, by Social Vulnerability and
Urbanicity—United States, December 14, 2020-May 1, 2021. MMWR Morb Mortal Wkly Rep 2021;70:818-824. DOI:
http://dx.doi.org/10.15585/mmwr.mm7022e1.

111a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

Evicted renters must move, which leads to multiple outcomes that increase the risk of COVID-19 spread. Specifically, many
evicted renters move into close quarters in shared housing or other congregate settings. These moves may require crossing State
borders. According to the Census Bureau American Housing Survey, 32% of renters reported that they would move in with
friends or family members upon eviction, which would introduce new household members and potentially increase household
crowding. Studies show that COVID-19 transmission occurs readily within households. The secondary attack rate in households
has been estimated to be 17%, and household contacts are estimated to be 6 times more likely to become infected by an index
case of COVID-19 than other close contacts.[FN30] A study of pregnant women in New York City showed that women in large
households (greater number of residents per household) were three times as likely to test positive for SARS-CoV-2 than those
in smaller households, and those in neighborhoods with greater household crowding (>=1 resident per room) were twice as
likely to test positive.[FN31] Throughout the United States, counties with the highest proportion of crowded households have
experienced COVID-19 mortality rates 2.6 times those of counties with the lowest proportion of crowded households.
30

Qin-Long Jing, et al. Household secondary attack rate of COVID-19 and associated determinants in Guangzhou, China:
a retrospective cohort study. The Lancet.2020 June 17; vol. 20.10; doi: https://doi.org/10.1016/S1473-3099(20)30471-0.

31

Ukachi N. Emeruwa, et al. Associations Between Built Environment, Neighborhood Socioeconomic Status, and
SARS-CoV-2 Infection Among Pregnant Women in New York City. JAMA. 2020;324(4):390-392. doi:10.1001/
jama.2020.11370.

Shared housing is not limited to friends and family. It includes a broad range of settings, including transitional housing and
domestic violence and abuse shelters. Special considerations exist for such housing because of the challenges of maintaining
social distance. Residents often gather closely or use shared equipment, such as kitchen appliances, laundry facilities, stairwells,
and elevators. Residents may have unique needs, such as disabilities, chronic health conditions, cognitive *34014 decline, or
limited access to technology, and thus may find it more difficult to take actions to protect themselves from COVID-19. CDC
recommends that shelters provide new residents with a clean mask, keep them isolated from others, screen for symptoms at
entry, or arrange for medical evaluations as needed depending on symptoms. Accordingly, an influx of new residents at facilities
that offer support services could potentially overwhelm staff and, if recommendations are not followed, lead to exposures.
Modeling studies and preliminary observational data from the pre-vaccine phase of the COVID-19 pandemic comparing
incidence between states that implemented and lifted eviction moratoria indicate that evictions substantially contribute to
COVID-19 transmission. In mathematical models where eviction led exclusively to sharing housing with friends or family,
lifting eviction moratoria led to a 30% increased risk of contracting COVID-19 among people who were evicted and those with
whom they shared housing after eviction.[FN32] Compared to a scenario where no evictions occurred, the models also predicted
a 4%-40% increased risk of infection, even for those who did not share housing, as a result of increased overall transmission. The
authors estimated that anywhere from 1,000 to 100,000 excess cases per million population could be attributable to evictions
depending on the eviction and infection rates.
32

Nande A, Sheen J, Walters EL, Klein B, Chinazzi M, Gheorghe AH, Adlam B, Shinnick J, Tejeda MF, Scarpino SV,
Vespignani A, Greenlee AJ, Schneider D, Levy MZ, Hill AL. The effect of eviction moratoria on the transmission of
SARS-CoV-2. Nat Commun. 2021 Apr 15;12(1):2274. doi: 10.1038/s41467-021-22521-5. PMID: 33859196; PMCID:
PMC8050248.

An analysis of observational data from State-based eviction moratoria in 43 states and the District of Columbia showed
significant increases in COVID-19 incidence and mortality approximately 2-3 months after eviction moratoria were lifted (prepeer review). Specifically, the authors compared the COVID-19 incidence and mortality rates in states that lifted their moratoria
with the rates in states that maintained their moratoria. In these models, the authors accounted for time-varying indicators of
each State's test count as well as major public-health interventions including lifting stay-at-home orders, school closures, and
mask mandates. After adjusting for these other changes, they found that the incidence of COVID-19 in states that lifted their
moratoria was 1.6 times that of states that did not at 10 weeks post-lifting (95% CI 1.0, 2.3), a ratio that grew to 2.1 at >=16

112a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

weeks (CI 1.1, 3.9). Similarly, they found that mortality in states that lifted their moratoria was 1.6 times that of states that
did not at 7 weeks post-lifting (CI 1.2, 2.3), a ratio that grew to 5.4 at >=16 weeks (CI 3.1, 9.3). The authors estimated that,
nationally, over 433,000 cases of COVID-19 and over 10,000 deaths could be attributed to lifting State moratoria.[FN33]
33

Leifheit, Kathryn M. and Linton, Sabriya L. and Raifman, Julia and Schwartz, Gabriel and Benfer, Emily
and Zimmerman, Frederick J and Pollack, Craig, Expiring Eviction Moratoriums and COVID-19 Incidence and
Mortality (November 30, 2020). Available at SSRN: https://ssrn.com/abstract=3739576 or http://dx.doi.org/10.2139/
ssrn.3739576.

Although data are limited, available evidence suggests evictions lead to interstate spread of COVID-19 in two ways. First, an
eviction may lead the evicted members of a household to move across State lines. Of the 35 million people in America who
move each year, 15% move to a new State. Second, even if a particular eviction, standing alone, would not always result in
interstate displacement, the mass evictions that would occur in the absence of this Order would inevitably increase the interstate
spread of COVID-19. This Order cannot effectively mitigate interstate transmission of COVID-19 without covering intrastate
evictions (evictions occurring within the boundaries of a State or territory), as the level of spread of SARS-CoV-2 resulting
from these evictions can lead to SARS-CoV-2 transmission across State borders.
Moreover, intrastate spread facilitates interstate spread in the context of communicable disease spread, given the nature of
infectious disease. In the aggregate, the mass-scale evictions that will likely occur in the absence of this Order will inevitably
increase interstate spread of COVID-19.
Eviction, Homelessness, and Covid-19 Transmission
Evicted individuals without access to support or other assistance options may become homeless, including older adults or those
with underlying medical conditions, who are more at risk for severe illness from COVID-19 than the general population. In
Seattle-King County, 5-15% of people experiencing homelessness between 2018 and 2020 cited eviction as the primary reason
for becoming homeless.[FN34] Additionally, some individuals and families who are evicted may originally stay with family
or friends, but subsequently seek homeless services. Data collection by an emergency shelter in Columbus, Ohio, showed that
35.4% of families and 11.4% of single adults reported an eviction as the primary or secondary reason for their seeking shelter.
[FN35]
34

Count Us In 2020. KCRHA (July 2020). https://kcrha.org/wp-content/uploads/2020/07/Count-Us_In-2020Final_7.29.2020.pdf.

35

Chester Hartman and David Robinson. “Evictions: The Hidden Housing Problem” in Housing Policy Debate. 2003.

Extensive outbreaks of COVID-19 have been identified in homeless shelters. In Seattle, Washington, a network of three related
homeless shelters experienced an outbreak that led to 43 cases among residents and staff members. In Boston, Massachusetts,
universal COVID-19 testing at a single shelter revealed 147 cases, representing 36% of shelter residents. COVID-19 testing in
a single shelter in San Francisco led to the identification of 101 cases (67% of those tested). Data from 557 universal diagnostic
testing events at homeless shelters in 21 states show an average of 6% positivity among shelter clients. Data comparing the
incidence or severity of COVID-19 among people experiencing homelessness directly to the general population are limited.
However, during the 15-day period of the outbreak in Boston, MA, researchers estimated a cumulative incidence of 46.3 cases
of COVID-19 per 1000 persons experiencing homelessness, as compared to 1.9 cases per 1000 among Massachusetts adults
(pre-print).
CDC guidance recommends increasing physical distance between beds in homeless shelters, which is likely to decrease capacity,
while community transmission of COVID-19 is occurring. These guidelines are similar to other guidance issued for other
congregate settings such as prisons and jails. To adhere to this guidance, shelters have limited the number of people served

113a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

throughout the United States. In many places, considerably fewer beds are available to individuals who become homeless.
Shelters that do not adhere to the guidance, and operate at ordinary or increased occupancy, are at greater risk for the types
of outbreaks described above. The challenge of mitigating disease transmission in homeless shelters has been compounded
because some organizations have chosen to stop or limit volunteer access and participation.
Persons at Higher Risk of Eviction May Also be at Higher Risk of Being Unvaccinated
At this time, communities with high rates of eviction may currently have lower coverage of COVID-19 vaccination—a focus for
current *34015 vaccination campaigns. In the spring of 2021, counties with high social vulnerability (i.e., social and structural
factors associated with adverse health outcome inclusive of socioeconomic indicators related to risk of eviction) were shown
to have lower levels of COVID-19 vaccination.[FN36]
36

Barry V, Dasgupta S, Weller DL, Kriss JL, Cadwell BL, Rose C, Pingali C, Musial T, Sharpe JD, Flores SA, Greenlund
KJ, Patel A, Stewart A, Qualters JR, Harris L, Barbour KE, Black CL. Patterns in COVID-19 Vaccination Coverage,
by Social Vulnerability and Urbanicity—United States, December 14, 2020-May 1, 2021. MMWR Morb Mortal Wkly
Rep. 2021 Jun 4;70(22):818-824. doi: 10.15585/mmwr.mm7022e1. PMID: 34081685; PMCID: PMC8174677.

CDC Eviction Moratorium
The Department of the Treasury continues to distribute emergency rental assistance funds that may help mitigate spikes in
COVID-19 transmission due to increases in evictions. These funds are expected to make a meaningful difference for hundreds
of thousands of people who are expected to receive the rental assistance in the 30-day horizon of this Order, alongside other
Federal and State efforts to prevent evictions.[FN37]
37

Treasury Emergency Rental Assistance Programs in 2021: Analysis of a National Survey. National Low Income Housing
Coalition. June 2021. https://nlihc.org/sites/default/files/HIP_NLIHC_Furman_2021_6-22_FINAL_v2.pdf

On September 4, 2020, the CDC Director issued an Order temporarily halting evictions in the United States for the reasons
described therein. That Order was set to expire on December 31, 2020, subject to further extension, modification, or rescission.
Section 502 of Title V, Division N of the Consolidated Appropriations Act, 2021 extended the Order until January 31, 2021.
With the extension of the Order, Congress also provided $25 billion for emergency rental assistance for the payment of rent and
rental arrears. Congress later provided an additional $21.55 billion in emergency rental assistance when it passed the American
Rescue Plan.
On January 29, 2021, following an assessment of the ongoing pandemic, the CDC Director renewed the Order until March 31,
2021. On March 28, the CDC Director renewed the Order until June 30, 2021. This Order further extends the prior Eviction
Moratorium until July 31, 2021, for the reasons described herein, while the Department of the Treasury disburses the remaining
ERA funds to State and local jurisdictions, and those grantees continue to accelerate efforts to deploy rental assistance on behalf
of tenants. To the extent any provision of this Order conflicts with prior Orders, this Order is controlling.
Applicability
This Order does not apply in any State, local, territorial, or tribal area with a moratorium on residential evictions that provides
the same or greater level of public-health protection than the requirements listed in this Order or to the extent its application is
prohibited by Federal court order. In accordance with 42 U.S.C. 264(e), this Order does not preclude State, local, territorial, and
tribal authorities from imposing additional requirements that provide greater public-health protection and are more restrictive
than the requirements in this Order.

114a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

This Order is a temporary eviction moratorium to prevent the further spread of COVID-19. This Order does not relieve any
individual of any obligation to pay rent, make a housing payment, or comply with any other obligation that the individual may
have under a tenancy, lease, or similar contract. Nothing in this Order precludes the charging or collecting of fees, penalties,
or interest as a result of the failure to pay rent or other housing payment on a timely basis, under the terms of any applicable
contract. Nothing in this Order precludes evictions based on a tenant, lessee, or resident: (1) Engaging in criminal activity
while on the premises; (2) threatening the health or safety of other residents; [FN38] (3) damaging or posing an immediate
and significant risk of damage to property; (4) violating any applicable building code, health ordinance, or similar regulation
relating to health and safety; or (5) violating any other contractual obligation, other than the timely payment of rent or similar
housing-related payment (including non-payment or late payment of fees, penalties, or interest).
38

Individuals who might have COVID-19 are advised to stay home except to get medical care. Accordingly, individuals
who might have COVID-19 and take reasonable precautions to not spread the disease should not be evicted on the ground
that they may pose a health or safety threat to other residents. See What to Do if You are Sick, Centers for Disease Control
and Prevention, https://www.cdc.gov/coronavirus/2019-ncov/if-you-are-sick/steps-when-sick.html (last updated Mar.
17, 2021).

Any evictions for nonpayment of rent initiated prior to September 4, 2020, but not yet completed, are subject to this Order. Any
tenant, lessee, or resident of a residential property who qualifies as a “Covered Person” and is still present in a rental unit is
entitled to protections under this Order. Any eviction that was completed prior to September 4, 2020, is not subject to this Order.
Under this Order, covered persons may be evicted for engaging in criminal activity while on the premises. But covered persons
may not be evicted on the sole basis that they are alleged to have committed the crime of trespass (or similar State-law offense)
where the underlying activity is a covered person remaining in a residential property for nonpayment of rent. Permitting such
evictions would result in substantially more evictions overall, thus increasing the risk of disease transmission as otherwise
covered persons move into congregate settings or experience homelessness. This result would be contrary to the stated objectives
of this Order, and therefore would diminish their effectiveness. Moreover, to the extent such criminal trespass laws are invoked
to establish criminal activity solely based on a tenant, lessee, or resident of a residential property remaining in a residential
property despite the nonpayment of rent, such invocation conflicts with this Order and is preempted pursuant to 42 U.S.C. 264(e).
Individuals who are confirmed to have, who have been exposed to, or who might have COVID-19 and take reasonable
precautions to not spread the disease may not be evicted on grounds that they may pose a health or safety threat to other residents.
The Order is extended through July 31, 2021, based on the current and projected epidemiological context of SARS-CoV-2
transmission throughout the United States. This 30-day extension, intended to be the final iteration, will allow the assessment of
natural changes to COVID-19 incidence, the influences of new variants, additional distribution of emergency rental assistance
funds, and the expansion of COVID-19 vaccine uptake.
Declaration Forms
To qualify for the protections of this Order, a tenant, lessee, or resident of a residential property must provide a completed
and signed copy of a declaration with the elements listed in the definition of “Covered person” to their landlord, owner of
the residential property where they live, or other person who has a right to have them evicted or removed from where they
live. To assist tenants and landlords, the CDC created a standardized declaration form that can be downloaded here: https://
www.cdc.gov/coronavirus/2019-ncov/downloads/declaration-form.pdf.
Tenants, lessees, and residents of residential property are not obligated to use the CDC form. Any written document that
an eligible tenant, lessee, or residents of residential property presents to their landlord will comply with this Order, as long
as it contains *34016 the required elements of “Covered person” as described in this Order. In addition, tenants, lessees,

115a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

and residents of residential property are allowed to declare in writing that they meet the elements of covered person in other
languages.
All declarations, regardless of form used, must be signed, and must include a statement that the tenant, lessee, or resident of a
residential property understands that they could be liable for perjury for any false or misleading statements or omissions in the
declaration. This Order does not preclude a landlord challenging the truthfulness of a tenant's, lessee's, or resident's declaration
in court, as permitted under State or local law.
In certain circumstances, such as individuals filing a joint tax return, it may be appropriate for one member of the residence to
provide an executed declaration on behalf of the other adult residents party to the lease, rental agreement, or housing contract.
The declaration may be signed and transmitted either electronically or by hard copy.
As long as the information in a previously signed declaration submitted under a previous order remains submit a new declaration
under this Order.
Findings and Action
Determination
For the reasons described herein, I am extending the September 4, 2020 Order, as extended by section 502 of Title V, Division N
of the Consolidated Appropriations Act, 2021 and further extended and modified by the January 29, 2021 and March 28, 2021
Orders. I have determined based on the information below that extending the temporary halt in evictions in this Order constitutes
a reasonably necessary measure under 42 CFR 70.2 to prevent the further spread of COVID-19 throughout the United States. I
have further determined that measures by states, localities, or territories that do not meet or exceed these minimum protections
are insufficient to prevent the interstate spread of COVID-19.
State and local jurisdictions continue to distribute emergency rental assistance funds, provided by the Department of Treasury,
that will help avert a spate of evictions and thus mitigate corresponding spikes in COVID-19 transmission. Although trends
have improved dramatically since January 2021, there continues to be ongoing transmission of approximately 10,000 cases per
day in the United States.[FN39]
39

COVID Data Tracker, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-data-tracker/
#trends_dailytrendscases (last updated June 22, 2021).

Congress has appropriated approximately $46 billion—of which almost three-quarters is currently available to State and local
grantees—to help pay rent and rental arrears for tenants who may otherwise be at high risk of eviction. According to estimates
based on the U.S. Census Household Pulse Survey, approximately 6.4 million renter households are behind on their rent as
of March 29, 2021. The successful delivery of those funds by states and localities should greatly reduce the incidence of
eviction that would occur in the absence of that support. However, many states and localities are still ramping up the collection
and processing of applications and the delivery of assistance and putting in place other eviction prevention strategies. It was
only in the beginning of June that all State-run emergency rental assistance programs had opened for applications. If the
moratorium expires on June 30, a wave of evictions, on the order of hundreds of thousands, could occur this summer and
early fall, exacerbating the spread of COVID-19 among the significant percentage of the population that remains unvaccinated.
In appropriating these emergency rental assistance funds, Congress intended that the funding would work in concert with
the eviction moratorium, providing time for rental assistance to reach eligible tenants and landlords to sustainably reduce the
threat of an eviction wave after an eviction moratorium was no longer in effect. While the pace of assistance is continuing to
increase, without additional time for states and localities to deliver this needed relief and engage in other efforts to prevent
evictions, a surge of evictions would occur upon the conclusion of the national moratorium. A surge in evictions would lead to
immediate movement, crowding, and increased stress on the homeless service system. In combination with ongoing COVID-19

116a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

transmission, and the overlapping factors described above, this would create considerable risk for the rapid transmission of
COVID-19 in high-risk settings. Allowing additional time for rent relief to reach renters—alongside other Federal and State
actions to prevent evictions—by an extension through the month of July 2021 can decrease the numbers of likely evictions and
avert the potential of COVID-19 resurgence among people who experience eviction, their communities, and other regions of
the country affected by the resulting transmission.
Based on the convergence of these issues, I have determined that extending the temporary halt on evictions is appropriate.
Therefore, under 42 CFR 70.2, subject to the limitations under the “Applicability” section, the September 4, 2020 Order, as
extended and modified by the January 29, 2021 and March 28, 2021 Orders, is hereby extended through July 31, 2021.
Accordingly, a landlord, owner of a residential property, or other person with a legal right to pursue eviction or possessory
action shall not evict any covered person from any residential property in any State or U.S. territory where there are documented
cases of COVID-19 and the State or U.S. territory has provided a level of public-health protections below the requirements
listed in this Order.
This Order is not a rule within the meaning of the Administrative Procedure Act (APA) but rather an emergency action taken
under the existing authority of 42 CFR 70.2. The purpose of § 70.2, which was promulgated through notice-and-comment
rulemaking, is to enable CDC to take swift steps to prevent contagion without having to seek a second round of public comments
and without a delay in effective date.[FN40]
40

Chambless Enters., LLC v. Redfield, No. 20-1455, 2020 WL 7588849 (W.D. La. 2020).

Good Cause
In the event this Order qualifies as a rule under the APA, there is good cause to dispense with prior public notice and comment
and a delay in effective date. See 5 U.S.C. 553(b)(B), (d)(3). Good cause exists, in sum, because the public health emergency
caused by the COVID-19 pandemic and the unpredictability of the trajectory of the pandemic make it impracticable and contrary
to the public health, and by extension the public interest, to delay the issuance and effective date of this Order.
In the September 4, 2020 Order, the previous CDC Director determined that good cause existed because the public health
emergency caused by COVID-19 made it impracticable and contrary to the public health, and by extension the public interest, to
delay the issuance and effective date of the Order. The previous Director also found that a delay in the effective date of the Order
would permit the occurrence of evictions—potentially on a mass scale—that would have potentially significant consequences.
For these reasons, the previous Director concluded that the delay in the effective date of the Order *34017 would defeat the
purpose of the Order and endanger the public health and, therefore, determined that immediate action was necessary. As a result,
the previous Director issued the Order without prior notice and comment and without a delay in the effective date. I made similar
findings in the January 29, 2021 and March 28, 2021 Orders, and similar findings, as described herein, continue to exist.
The rapidly changing nature of the pandemic requires not only that CDC act swiftly, but also deftly to ensure that its actions
are commensurate with the threat. This necessarily involves assessing evolving conditions that inform CDC's determinations.
And although the pandemic is showing positive trends, the fundamental public health threat that existed on September 4,
2020, January 29, 2021, and March 28, 2021—the risk of large numbers of residential evictions contributing to the spread of
COVID-19 throughout the United States—continues to exist. Without this Order, there is every reason to expect that evictions
will increase. It is imperative that public health authorities act quickly to mitigate such an increase of evictions, which could
increase the likelihood of new spikes in SARS-CoV-2 transmission even as COVID-19 morbidity and mortality may be waning.
Such mass evictions and the attendant public-health consequences could unravel positive trends, and would be very difficult
to reverse.

117a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

For all of these reasons, I hereby conclude that immediate action is again necessary and that notice-and-comment rulemaking
and a delay in effective date would be impracticable and contrary to the public interest.
Miscellaneous
Similarly, if this Order qualifies as a rule under the APA, the Office of Information and Regulatory Affairs (OIRA) has
determined that it would be an economically significant regulatory action pursuant to Executive Order 12866 and a major rule
under Subtitle E of the Small Business Regulatory Enforcement Fairness Act of 1996 (the Congressional Review Act or CRA),
5 U.S.C. 804(2). Thus, this action has been reviewed by OIRA. CDC has determined that for the same reasons given above,
there would be good cause under the CRA to make the requirements herein effective immediately. 5 U.S.C. 808(2).
If any provision of this Order, or the application of any provision to any persons, entities, or circumstances, shall be held invalid,
the remainder of the provisions, or the application of such provisions to any persons, entities, or circumstances other than those
to which it is held invalid, shall remain valid and in effect.
This Order shall be enforced by Federal authorities and cooperating State and local authorities through the provisions of 18
U.S.C. 3559, 3571; 42 U.S.C. 243, 268, 271; and 42 CFR 70.18. However, this Order has no effect on the contractual obligations
of renters to pay rent and shall not preclude charging or collecting fees, penalties, or interest as a result of the failure to pay rent
or other housing payment on a timely basis, under the terms of any applicable contract.
Criminal Penalties
Under 18 U.S.C. 3559, 3571; 42 U.S.C. 271; and 42 CFR 70.18, a person violating this Order may be subject to a fine of no
more than $100,000 or one year in jail, or both, if the violation does not result in a death, or a fine of no more than $250,000
or one year in jail, or both if the violation results in a death, or as otherwise provided by law. An organization violating this
Order may be subject to a fine of no more than $200,000 per event if the violation does not result in a death or $500,000 per
event if the violation results in a death or as otherwise provided by law. The U.S. Department of Justice may initiate criminal
proceedings as appropriate seeking imposition of these criminal penalties.
Notice To Cooperating State and Local Officials
Under 42 U.S.C. 243, the U.S. Department of Health and Human Services is authorized to cooperate with and aid State and
local authorities in the enforcement of their quarantine and other health regulations and to accept State and local assistance in
the enforcement of Federal quarantine rules and regulations, including in the enforcement of this Order.
Notice of Available Federal Resources
While this Order to prevent eviction is effectuated to protect the public health, the states and units of local government are
reminded that the Federal Government has deployed unprecedented resources to address the pandemic, including housing
assistance.
The Department of Housing and Urban Development (HUD), the Department of Agriculture, and the Department of the
Treasury have informed CDC that unprecedented emergency resources have been appropriated through various Federal agencies
that assist renters and landlords during the pandemic, including $46.55 billion to the Treasury through the Consolidated
Appropriations Act of 2021 and the American Rescue Plan (ARP). Furthermore, in 2020 44 states and 310 local jurisdictions
allocated about $3.9 billion toward emergency rental assistance, largely from funds appropriated to HUD from the Coronavirus
Aid, Relief, and Economic Security (CARES).[FN41] These three rounds of Federal appropriations also provided substantial
resources for homeless services, homeowner assistance, and supplemental stimulus and unemployment benefits that low-income
renters used to pay rent.

118a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Temporary Halt in Residential Evictions To Prevent the Further..., 86 FR 34010-02

41

Vincent Reina et al, COVID-19 Emergency Rental Assistance: Analysis of a National Survey of Programs, Research
Brief, https://nlihc.org/sites/default/files/HIP_NLIHC_Furman_Brief_FINAL.pdf (last visited Mar. 26, 2021).

Visit https://home.treasury.gov/policy-issues/cares/state-and-local-governments for more information about the Coronavirus
Relief Fund and https://home.treasury.gov/policy-issues/cares/emergency-rental-assistance-program for more information
about the Emergency Rental Assistance Program. Relevant agencies have informed CDC that forbearance policies for mortgages
backed by the Federal Government provide many landlords, especially smaller landlords, with temporary relief as new
emergency rental assistance programs are deployed. Treasury, HUD, and USDA grantees and partners play a critical role
in prioritizing efforts to support this goal. All communities should assess what resources have already been allocated to
prevent evictions and homelessness through temporary rental assistance and homelessness prevention, particularly to the most
vulnerable households. Treasury, HUD, and USDA stand at the ready to support American communities in taking these steps
to reduce the spread of COVID-19 and maintain economic prosperity.
For program support, including technical assistance, please visit www.hudexchange.info/program-support. For further
information on HUD resources, tools, and guidance available to respond to the COVID-19 pandemic, State and local officials
are directed to visit https://www.hud.gov/coronavirus. These tools include toolkits for Public Housing Authorities and Housing
Choice Voucher landlords related to housing stability and eviction prevention, as well as similar guidance for owners and renters
in HUD-assisted multifamily properties. Furthermore, tenants can visit consumerfinance.gov/housing for up-to-date information
on rent relief options, protections, and key deadlines.
*34018 Effective Date
This Order is effective on July 1, 2021, and will remain in effect through July 31, 2021, subject to revision based on the changing
public health landscape.
Authority
The authority for this Order is Section 361 of the Public Health Service Act (42 U.S.C. 264) and 42 CFR 70.2.
Dated: June 24, 2021.
Sherri Berger,
Chief of Staff, Centers for Disease Control and Prevention.

[FR Doc. 2021-13842 Filed 6-24-21; 2:00 pm]
BILLING CODE 4163-18-P

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

119a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

APPENDIX R

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

86 FR 43244-01, 2021 WL 3419603(F.R.)
NOTICES
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Disease Control and Prevention
Temporary Halt in Residential Evictions in Communities With Substantial or
High Transmission of COVID-19 To Prevent the Further Spread of COVID-19
Friday, August 6, 2021
AGENCY: Centers for Disease Control and Prevention (CDC), Department of Health and Human Services (HHS).
*43244 ACTION: Agency Order.
SUMMARY: The Centers for Disease Control and Prevention (CDC), located within the Department of Health and Human
Services (HHS) announces a new Order under Section 361 of the Public Health Service Act to temporarily halt residential
evictions in communities with substantial or high transmission of COVID-19 to prevent the further spread of COVID-19.
DATES: This Order is effective August 3, 2021 through October 3, 2021.
FOR FURTHER INFORMATION CONTACT: Tiffany Brown, Deputy Chief of Staff, Centers for Disease Control and
Prevention, 1600 Clifton Road NE, MS H21-10, Atlanta, GA 30329. Phone: 404-639-7000. Email: cdcregulations@cdc.gov.
SUPPLEMENTARY INFORMATION:
Background
On September 4, 2020, the CDC Director issued an Order temporarily halting evictions in the United States for the reasons
described therein. That Order was set to expire on December 31, 2020, subject to further extension, modification, or rescission.
Section 502 of Title V, Division N of the Consolidated Appropriations Act, 2021 extended the Order until January 31, 2021,
and approved the Order as an exercise of the CDC's authority under Section 361 of the Public Health Service Act (42 U.S.C.
264). With the extension of the Order, Congress also provided $25 billion for emergency rental assistance for the payment of
rent and rental arrears. Congress later provided an additional $21.55 billion in emergency rental assistance when it passed the
American Rescue Plan. The Order was extended multiple times due to the changing public health landscape and expired on
July 31, 2021 after what was intended to be the final extension.[FN1] Absent an unexpected change in the trajectory of the
pandemic, CDC did not plan to extend the Order further.
1

The CDC Director renewed the Order until March 31, 2021. On March 28, 2021, the CDC Director modified and
extended the Order until June 30, 2021. On June 24, 2021 the CDC Director extended the Order until July 31, 2021.

Following the recent surge in cases brought forth by the highly transmissible Delta variant, the CDC Director now issues a
new Order temporarily halting evictions for persons in counties or U.S. territories experiencing substantial or high rates of
transmission, for the reasons described herein. It is more limited in scope than prior orders, intended to target specific areas of
the country where cases are rapidly increasing, which likely would be exacerbated by mass evictions.
Accordingly, subject to the limitations listed in the new Order, a landlord, owner of a residential property, or [FN2] person with
a legal right to pursue eviction or possessory action, shall not evict any covered person from any residential property in any
county or U.S. territory while the county or territory is experiencing substantial or high levels of community transmission levels
of SARS-CoV-2. This Order will expire on October 3, 2021, but is subject to further extension, modification, or rescission
based on public health circumstances.[FN3]

120a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

2

For purposes of this Order, “person” includes corporations, companies, associations, firms, partnerships, societies, and
joint stock companies, as well as individuals.

3

To the extent any provision of this Order conflicts with prior Orders, this Order is controlling, as this is a new order.

A copy of the Order is provided below. A copy of the signed Order and Declaration form can be found at https://www.cdc.gov/
coronavirus/2019-ncov/covid-eviction-declaration.html.
*43245 Centers for Disease Control and Prevention, Department of Health and Human Services
Order Under Section 361 of the Public Health Service Act (42 U.S.C. 264) and 42 Code of Federal Regulations 70.2
Temporary Halt in Residential Evictions in Communities With Substantial or High Levels of Community Transmission
of COVID-19 To Prevent the Further Spread of COVID-19
Summary
The U.S. Centers for Disease and Control (CDC) is issuing a new order temporarily halting evictions in counties with heightened
levels of community transmission in order to respond to recent, unexpected developments in the trajectory of the COVID-19
pandemic, including the rise of the Delta variant. It is intended to target specific areas of the country where cases are rapidly
increasing, which likely would be exacerbated by mass evictions. Accordingly, subject to the limitations under “Applicability,”
a landlord, owner of a residential property, or other person [FN4] with a legal right to pursue eviction or possessory action,
shall not evict any covered person from any residential property in any county or U.S. territory while the county or territory is
experiencing substantial or high levels of community transmission of SARS-CoV-2.
4

For purposes of this Order, “person” includes corporations, companies, associations, firms, partnerships, societies, and
joint stock companies, as well as individuals.

Definitions
“Available government assistance” means any governmental rental or housing payment benefits available to the individual or
any household member.
“Available housing” means any available, unoccupied residential property, or other space for occupancy in any seasonal or
temporary housing, that would not violate federal, state, or local occupancy standards and that would not result in an overall
increase of housing cost to such individual.
“Covered person” [FN5] means any tenant, lessee, or resident of a residential property who provides to their landlord, the owner
of the residential property, or other person with a legal right to pursue eviction or a possessory action,[FN6] a declaration [FN7]
under penalty of perjury indicating that:
5

This definition is based on factors that are known to contribute to evictions and thus increase the need for individuals to
move into close quarters in new congregate or shared living arrangements or experience homelessness. Individuals who
suffer job loss, have limited financial resources, are low income, or have high out-of-pocket medical expenses are more
likely to be evicted for nonpayment of rent than others not experiencing these factors. See Desmond, M., Gershenson,
C., Who gets evicted? Assessing individual, neighborhood, and network factors, Soc Sci Res. 2017;62:362-377.
doi:10.1016/j.ssresearch.2016.08.017, (identifying job loss as a possible predictor of eviction because renters who lose
their jobs experience not only a sudden loss of income but also the loss of predictable future income). According to one

121a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

survey, over one quarter (26%) of respondents also identified job loss as the primary cause of homelessness. See 2019
San Francisco Homeless Count & Survey Comprehensive Report, Applied Survey Research, at 22, https://hsh.sfgov.org/
wp-content/uploads/2020/01/2019HIRDReport_SanFrancisco_FinalDraft-1.pdf. (last viewed Mar. 24, 2021).
6

As used throughout this Order, this would include, without limitation, an agent or attorney acting on behalf of the
landlord or the owner of the residential property.

7

A person who previously filed a declaration under prior CDC eviction moratoria issued on September 4, 2020, January
29, 2021, March 28, 2021, or June 24, 2021 may be eligible for protection under this Order and does not need to file a
new declaration, if they live in a county experiencing substantial or high rates of transmission of community levels of
SARS-CoV-2 and meet the definition of a covered person under this Order.

(1) The individual has used best efforts to obtain all available governmental assistance for rent or housing;
(2) The individual either (i) earned no more than $99,000 (or $198,000 if filing jointly) in Calendar Year 2020 or expects to
earn no more than $99,000 in annual income for Calendar Year 2021 (or no more than $198,000 if filing a joint tax return),
[FN8] (ii) was not required to report any income in 2020 to the U.S. Internal Revenue Service, or (iii) received an Economic
Impact Payment (stimulus check) .9 10
8

According to one study, the national two-bedroom housing wage in 2020 was $23.96 per hour (approximately, $49,837
annually), meaning that an hourly wage of $23.96 was needed to afford a modest two-bedroom house without spending
more than 30% of one's income on rent. The hourly wage needed in Hawaii (the highest cost U.S. State for rent) was
$38.76 (approximately $80,621 annually). See Out of Reach: How Much do you Need to Earn to Afford a Modest
Apartment in Your State?, National Low Income Housing Coalition, https://reports.nlihc.org/oor (last visited Mar. 23,
2021). As further explained herein, because this Order is intended to serve the critical public health goal of preventing
evicted individuals from potentially contributing to the interstate spread of COVID-19 through movement into close
quarters in new congregate, shared housing settings, or through homelessness, the higher income thresholds listed here
have been determined to better serve this goal.

9

“Stimulus check” includes payments made pursuant to Section 2201 of the CARES Act, to Section 9601 of the American
Rescue Plan Act of 2021, or to any similar federally authorized payments made to individual natural persons in 2020
and 2021. Eligibility for the 2020 or 2021 stimulus checks has been based on an income that is equal to or lower than
the income thresholds described above and does not change or expand who is a covered person under this Order since
it was entered into on September 4, 2020.

10

A person is likely to qualify for protection under this Order if they receive the following benefits: (a) Temporary
Assistance for Needy Families (TANF); (b) Supplemental Nutrition Assistance Program (SNAP); (c) Supplemental
Security Income (SSI); or (d) Social Security Disability Insurance (SSDI) to the extent that income limits for these
programs are less than or equal to the income limits for this Order. However, it is the individual's responsibility to verify
that their income is within the income limits described.

(3) The individual is unable to pay the full rent or make a full housing payment due to substantial loss of household income,
loss of compensable hours of work or wages, a lay-off, or extraordinary [FN11] out-of-pocket medical expenses;
11

Extraordinary expenses are defined as those that prevented you from paying some or all of your rent or providing for
other basic necessities like food security. To qualify as an extraordinary medical expense, the unreimbursed medical
expense is one that is likely to exceed 7.5% of one's adjusted gross income for the year.

(4) The individual is using best efforts to make timely partial rent payments that are as close to the full rent payment as the
individual's circumstances may permit, taking into account other nondiscretionary expenses;

122a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

(5) Eviction would likely render the individual homeless—or force the individual to move into and reside in close quarters in a
new congregate or shared living setting—because the individual has no other available housing options; and
(6) The individual resides in a U.S. county experiencing substantial [FN12] or high [FN13] rates of community transmission
levels of SARS-CoV-2 as defined by CDC.
12

Counties experiencing substantial transmission levels are experiencing (1) 50.99-99.99 new cases in the county in the
past 7 days divided by the population in the county multiplied by 100,000; and (2) 8.00-9.99% positive nucleic acid
amplification tests in the past 7 days (number of positive tests in the county during the past 7 days divided by the total
number of tests performed in the county during the past 7 days). Christie A, Brooks JT, Hicks LA, et al. Guidance
for Implementing COVID-19 Prevention Strategies in the Context of Varying Community Transmission Levels
and Vaccination Coverage. MMWR Morb Mortal Wkly Rep 2021;70:1044-1047. DOI: http://dx.doi.org/10.15585/
mmwr.mm7030e2. See COVID-19 Integrated County View, Centers for Disease Control and Prevention; https://
covid.cdc.gov/covid-data-tracker/#county-view (last updated August 1, 2021).

13

Id. (defining high transmission levels as (1) >=100 new cases in the county in the past 7 days divided by the population in
the county multiplied by 100,000; and (2) >=10.00% positive nucleic acid amplification tests in the past 7 days (number
of positive tests in the county during the past 7 days divided by the total number of tests performed in the county during
the past 7 days)).

“Evict” and “Eviction” means any action by a landlord, owner of a residential property, or other person with a legal right to
pursue eviction or possessory action, to remove or cause the removal of a covered person from a *43246 residential property.
This definition also does not prohibit foreclosure on a home mortgage.
“Residential property” means any property leased for residential purposes, including any house, building, mobile home or land
in a mobile home park,[FN14] or similar dwelling leased for residential purposes, but shall not include any hotel, motel, or
other guest house rented to a temporary guest or seasonal tenant as defined under the laws of the state, territorial, tribal, or
local jurisdiction.
14

Mobile home parks may also be referred to as manufactured housing communities.

“State” shall have the same definition as under 42 CFR 70.1, meaning “any of the 50 states, plus the District of Columbia.”
“U.S. territory” shall have the same definition as under 42 CFR 70.1, meaning “any territory (also known as possessions) of
the United States, including American Samoa, Guam, the Northern Mariana Islands, the Commonwealth of Puerto Rico, and
the U.S. Virgin Islands.”
Statement of Intent
This Order shall be interpreted and implemented in a manner as to achieve the following objectives:
• Mitigating the spread of COVID-19 within crowded, congregate or shared living settings, or through unsheltered homelessness;
• Mitigating the further spread of COVID-19 from one state or territory into any other state or territory;
• Mitigating the further spread of COVID-19 by temporarily suspending the eviction of covered persons from residential
property for nonpayment of rent; and

123a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

• Supporting response efforts to COVID-19 at the federal, state, local, territorial, and tribal levels.
Background
COVID-19 in the United States
Since January 2020, the respiratory disease known as “COVID-19,” caused by a novel coronavirus (SARS-COV-2), has spread
globally, including cases reported in all fifty states within the United States, plus the District of Columbia and U.S. territories.
As of August 3, 2021, there have been almost 200 million cases of COVID-19 globally, resulting in over 4,240,000 deaths.
[FN15] Almost 35,000,000 cases have been identified in the United States, with new cases reported daily, and almost 610,000
deaths have been attributed to the disease.[FN16] A renewed surge in cases in the United States began in early July 2021; case
counts rose from 19,000 cases on July 1, 2021 to 103,000 cases on July 30, 2021. Forecasted case counts predict that cases will
continue to rise over the next four weeks.[FN17]
15

COVID-19 Dashboard by the Center for Systems Science and Engineering (CSSE) at Johns Hopkins University (JHU),
Johns Hopkins Coronavirus Resource Center, https://coronavirus.jhu.edu/map.html (last updated August 3, 2021).

16

COVID Data Tracker, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-data-tracker/
#datatracker-home (last updated August 1, 2021).

17

United States Forecasting, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-data-tracker/
#forecasting_weeklycases (updated July 28, 2021) (citing data an estimated 608,569 weekly COVID-19 cases by early
September 2021).

The virus that causes COVID-19 spreads very easily and sustainably between people, particularly those who are in close contact
with one another (within about 6 feet, but occasionally over longer distances), mainly through respiratory droplets produced
when an infected person coughs, sneezes, or talks. Individuals without symptoms can also spread the virus.[FN18] Among
adults, the risk for severe illness from COVID-19 increases with age, with older adults at highest risk. Severe illness means
that persons with COVID-19 may require hospitalization, intensive care, or a ventilator to help them breathe, and may be fatal.
People of any age with certain underlying medical conditions (e.g., cancer, obesity, serious heart conditions, or diabetes) are
at increased risk for severe illness from COVID-19.[FN19]
18

Kimball A., Hatfield K.M., Arons M., et al. Asymptomatic and Presymptomatic SARS-CoV-2 Infections in Residents
of a Long-Term Care Skilled Nursing Facility—King County, Washington, March 2020. MMWR Morb Mortal Wkly
Rep 2020;69:377-381. DOI: http://dx.doi.org/10.15585/mmwr.mm6913e1.

19

Razzaghi H., Wang Y., Lu H., et al. Estimated County-Level Prevalence of Selected Underlying Medical Conditions
Associated with Increased Risk for Severe COVID-19 Illness—United States, 2018. MMWR Morb Mortal Wkly Rep
2020;69:945-950. DOI: http://dx.doi.org/10.15585/mmwr.mm6929a1.

New variants of SARS-CoV-2 have emerged globally,[FN20] several of which have been identified as variants of concern,
[FN21] including the Alpha, Beta, Gamma, and Delta variants. These variants of concern have evidence of an increase in
transmissibility, which may lead to higher incidence.[FN22]
20

Abdool Karim S.S., de Oliveira T. New SARS-CoV-2 Variants—Clinical, Public Health, and Vaccine Implications
[published online ahead of print, 2021 Mar 24]. N Engl J Med. 2021;10.1056/NEJMc2100362. doi:10.1056/
NEJMc2100362.

21

Id.

124a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

22

Dougherty K., Mannell M., Naqvi O., Matson D., Stone J. SARS-CoV-2 B.1.617.2 (Delta) Variant COVID-19
Outbreak Associated with a Gymnastics Facility—Oklahoma, April-May 2021. MMWR Morb Mortal Wkly
Rep 2021;70:1004-1007. DOI: http://dx.doi.org/10.15585/mmwr.mm7028e2 (describing a B.1.617.2 (Delta) Variant
COVID-19 outbreak associated with a gymnastics facility and finding that the Delta variant is highly transmissible in
indoor sports settings and households, which might lead to increased incidence rates).

Currently, the Delta variant is the predominant SARS-CoV-2 strain circulating in the United States, estimated to account for
over 82% of cases as of July 17, 2021.[FN23] The Delta variant has demonstrated increased levels of transmissibility compared
to other variants.[FN24] Furthermore, early evidence suggests that people who are vaccinated and become infected with the
Delta variant may transmit the virus to others.[FN25]
23

Variant Proportions, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-data-tracker/#variantproportions (citing data for the two-week interval ending July 17, 2021).

24

About Variants of the Virus that Causes COVID-19, Centers for Disease Control and Prevention, https://www.cdc.gov/
coronavirus/2019-ncov/variants/variant.html (last updated June 28, 2021).

25

Riemersma et al. Vaccinated and unvaccinated individuals have similar viral loads in communities with
a high prevalence of the SARS-CoV-2 Delta variant. Pre-print. Available at https://www.medrxiv.org/
content/10.1101/2021.07.31.21261387v1.

Transmission of the Delta variant has led to accelerated community transmission in the United States. CDC recommends
assessing the level of community transmission using, at a minimum, two metrics: new COVID-19 cases per 100,000 persons in
the last 7 days and percentage of positive SARS-CoV-2 diagnostic nucleic acid amplification tests in the last 7 days. For each
of these metrics, CDC classifies transmission values as low, moderate, substantial, or high. As of August 1, 2021, over 80%
of the U.S. counties were classified as experiencing substantial or high levels of community transmission.[FN26] In areas of
substantial or high transmission, CDC recommends community leaders encourage vaccination and universal masking in indoor
public spaces in addition to other layered prevention strategies to prevent further spread.
26

COVID-19 Integrated County View, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-datatracker/#county-view (last updated July 28, 2021).

COVID-19 vaccines are now widely available in the United States, and vaccination is recommended for all people 12 years
of age and older. Three COVID-19 vaccines are currently authorized by the U.S. Food and Drug Administration (FDA) for
emergency use: Two mRNA vaccines and one viral vector vaccine, each of which has been determined to be safe and effective
against COVID-19. As of July 28, 2021, over 163 million people in the United States (57.6% of the population 12 years or
older) have been fully vaccinated and *43247 over 189 million people in the United States (66.8% of the population 12 years
or older) have received at least one dose.[FN27] Changes in vaccine uptake and the extreme transmissibility of the Delta variant
have resulted in rising numbers of COVID-19 cases, primarily and disproportionately affecting the unvaccinated population.
27

COVID-19 Vaccinations in the United States, Centers for Disease Control and Prevention, https://covid.cdc.gov/coviddata-tracker/#vaccinations (last updated July 28, 2021).

The COVID-19 vaccination effort has a slower rate of penetration among the populations most likely to experience eviction .28
29 In combination with the continued underlying COVID-19 spread, and the overlapping factors described above, this creates
considerable risk for rapid transmission of COVID-19 in high-risk settings.

125a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

28

Barry V., Dasgupta S., Weller D.L., et al. Patterns in COVID-19 Vaccination Coverage, by Social Vulnerability and
Urbanicity—United States, December 14, 2020-May 1, 2021. MMWR Morb Mortal Wkly Rep 2021;70:818-824. DOI:
http://dx.doi.org/10.15585/mmwr.mm7022e1.

29

Centers for Disease Control and Prevention. COVID-19 Vaccination Equity. Accessed 8/3/21. Available at: https://
covid.cdc.gov/covid-data-tracker/#vaccination-equity.

In the context of a pandemic, eviction moratoria—like quarantine, isolation, and social distancing—can be an effective public
health measure utilized to prevent the spread of communicable disease. Eviction moratoria facilitate self-isolation and selfquarantine by people who become ill or who are at risk of transmitting COVID-19.
Congress passed the Coronavirus Aid, Relief, and Economic Security (CARES) Act (Pub. L. 116-136) to aid individuals and
businesses adversely affected by COVID-19 in March 2020. Section 4024 of the CARES Act provided a 120-day moratorium
on eviction filings as well as other protections for tenants in certain rental properties with federal assistance or federally
related mortgage financing. These protections helped alleviate the public health consequences of tenant displacement during
the COVID-19 pandemic. The CARES Act eviction moratorium expired on July 24, 2020. The protections in the CARES
Act supplemented temporary eviction moratoria and rent freezes implemented by governors and other local officials using
emergency powers.
Researchers estimated that this temporary federal moratorium provided relief to over one-quarter a material portion of the
nation's roughly 43 million renters.[FN30] The CARES act also provided funding streams for emergency rental assistance;
surveys estimate that this assistance became available to the public through rental assistance programs by July 2020.[FN31]
30

Laurie Goodman, Karan Kaul, and Michael Neal. The CARES Act Eviction Moratorium Covers All Federally Financed
Rentals—That's One in Four US Rental Units. The Urban Institute. April 2, 2020. https://www.urban.org/urban-wire/
cares-act-eviction-moratorium-covers-all-federally-financed-rentals-thats-one-four-us-rental-units.

31

Vincent Reina et al, COVID-19 Emergency Rental Assistance: Analysis of a National Survey of Programs, Research
Brief, https://nlihc.org/sites/default/files/HIP_NLIHC_Furman_Brief_FINAL.pdf (last visited Mar. 26, 2021).

The Federal moratorium provided by the CARES Act, however, did not reach all renters. Many renters who fell outside the scope
of the Federal moratorium were instead protected under state and local moratoria. In early March 2021, the Census Household
Pulse Survey estimated that 6.4 million households were behind on rent and just under half fear imminent eviction.[FN32] In
2016, research showed that there were 3.6 million eviction filings and 1.5 million eviction judgments over the span of a whole
year,[FN33] meaning that the pandemic would cause a wave of evictions on a scale that would be unprecedented in modern
times. A large portion of those who are evicted may move into close quarters in shared housing or, as discussed below, become
homeless, thus becoming at higher risk of COVID-19.
32

Census Household Pulse Survey: Key Phase 3 Housing Payment Findings. Office of Policy Development and Research,
HUDUser (April 26, 2021). https://www.huduser.gov/portal/pdredge/pdr-edge-trending-042621.html.

33

Ashley Gromis. Eviction: Intersection of Poverty, Inequality, and Housing. Eviction Lab, Princeton University (May
2019). https://www.un.org/development/desa/dspd/wp-content/uploads/sites/22/2019/05/GROMIS_Ashley_Paper.pdf.

On September 4, 2020, the CDC Director issued an Order temporarily halting evictions in the United States for the reasons
described therein. That Order was set to expire on December 31, 2020, subject to further extension, modification, or rescission.
Section 502 of Title V, Division N of the Consolidated Appropriations Act, 2021 extended the Order until January 31, 2021, and
approved the Order as an exercise of the CDC's authority under Section 361 of the Public Health Service Act (42 U.S.C. 264).
With the extension of the Order, Congress also provided $25 billion for emergency rental assistance for the payment of rent and

126a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

rental arrears. Congress later provided an additional $21.55 billion in emergency rental assistance when it passed the American
Rescue Plan Act of 2021. The Order was extended multiple times due to the changing public health landscape and expired on
July 31, 2021 after what was intended to be the final extension.[FN34] Absent an unexpected change in the trajectory of the
pandemic, CDC did not plan to extend the Order further.
34

The CDC Director renewed the Order until March 31, 2021. On March 28, 2021, the CDC Director modified and
extended the Order until June 30, 2021. On June 24, 2021 the CDC Director extended the Order until July 31, 2021.

Following the recent surge in cases brought forth by the highly transmissible Delta variant, the CDC Director now issues a new
Order temporarily halting evictions for persons in counties experiencing substantial or high rates of transmission, for the reasons
described herein. This Order will expire on October 3, 2021, but is subject to further extension, modification, or rescission
based on public health circumstances.
Researchers estimate that, in 2020, Federal, state, and local eviction moratoria led to over 1.5 million fewer evictions filings than
the previous year.[FN35] Additional research shows that, despite the CDC eviction moratorium leading to an estimated 50%
decrease in eviction filings compared to the historical average,[FN36] there have still been over 450,000 eviction filings during
the pandemic just within approximately 31 cities and six states with more readily available data. This data covers approximately
1 in 4 renter households in the country, suggesting high demand and likelihood of mass evictions nationwide.[FN37]
35

Hepburn P., Louis R., Fish J., et al. U.S. Eviction Filing Patterns in 2020. Socius. January 2021.
doi:10.1177/23780231211009983.

36

Peter Hepburn and Renee Louis. Preliminary Analysis: Six Months of the CDC Eviction Moratorium (March 8, 2021).
https://evictionlab.org/six-months-cdc/.

37

Eviction Lab. Accessed 8/2/21. Available at: https://evictionlab.org/eviction-tracking/.

Eviction, Crowding, and Interstate Transmission of COVID-19
By February 10, 2021, the U.S. Department of the Treasury had paid all of the $25 billion made available by the Consolidated
Appropriations Act, 2021 to states, territories, localities and tribes for the purpose of providing emergency rental assistance to
eligible households in their jurisdictions. Additionally, as directed in the Act, Treasury has also made available 40 percent—
more than $8.6 billion—of the additional funding to states, territories and localities for emergency rental assistance provided
in the American Rescue Plan Act of 2021. While some emergency rental assistance programs were slow to open, every State
program had opened by early June. Based on data collected from grantees, Treasury reports that over 85,000 renter households
received rental and utility *43248 assistance to support their housing stability by the end of March and this number increased
to more than 100,000 in April, more than 156,000 in May and over 290,000 in June. Though emergency rental assistance has
clearly started to reach increasing numbers of families over recent months, state and local agencies have hundreds of thousands
of applications for assistance that currently remain outstanding as programs accelerate their activity. The level of assistance
continued to increase in June, with nearly 300,000 households served. Based on analysis of grantee reporting, Treasury believes
that the monthly deployment of rental assistance by state and local emergency rental assistance programs will continue to
increase from the significant deployment in June. In addition to Emergency Rental Assistance, there are coordinated efforts
across Federal agencies to—in partnership with states and localities—promote eviction prevention strategies.
Recent data from the U.S. Census Household Pulse Survey demonstrates that just under half of households behind on rent
believe that an eviction is likely in the next two months.[FN38] A surge in evictions could lead to the immediate and significant
movement of large numbers of persons from lower density to higher density housing at a time in the United States when the
highly transmissible Delta variant is driving COVID-19 cases at an unprecedented rate.

127a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

38

Household Pulse Survey Interactive Tool. U.S. Census Bureau. https://www.census.gov/data-tools/demo/hhp/#/ (last
visited June 23, 2021).

Evicted renters must move, which leads to multiple outcomes that increase the risk of COVID-19 spread. Specifically, many
evicted renters move into close quarters in shared housing or other congregate settings. These moves may require crossing
state borders. According to the 2017 Census Bureau American Housing Survey, 32% of renters reported that they would move
in with friends or family members upon eviction, which would introduce new household members and potentially increase
household crowding. Studies show that COVID-19 transmission occurs readily within households. The secondary attack rate in
households has been estimated to be 17%, and household contacts are estimated to be 6 times more likely to become infected by
an index case of COVID-19 than other close contacts.[FN39] A study of pregnant women in New York City showed that women
in large households (greater number of residents per household) were three times as likely to test positive for SARS-CoV-2 than
those in smaller households, and those in neighborhoods with greater household crowding (>1 resident per room) were twice as
likely to test positive.[FN40] Throughout the United States, counties with the highest proportion of crowded households have
experienced COVID-19 mortality rates 2.6 times those of counties with the lowest proportion of crowded households.
39

Qin-Long Jing, et al. Household secondary attack rate of COVID-19 and associated determinants in Guangzhou, China: a
retrospective cohort study. The Lancet. 2020 June 17; vol. 20.10; doi: https://doi.org/10.1016/S1473-3099(20)30471-0.

40

Ukachi N. Emeruwa, et al. Associations Between Built Environment, Neighborhood Socioeconomic Status, and
SARS-CoV-2 Infection Among Pregnant Women in New York City. JAMA. 2020;324(4):390-392. doi:10.1001/
jama.2020.11370.

Shared housing is not limited to friends and family. It includes a broad range of settings, including transitional housing and
domestic violence and abuse shelters. Special considerations exist for such housing because of the challenges of maintaining
social distance. Residents often gather closely or use shared equipment, such as kitchen appliances, laundry facilities, stairwells,
and elevators. Residents may have unique needs, such as disabilities, chronic health conditions, cognitive decline, or limited
access to technology, and thus may find it more difficult to take actions to protect themselves from COVID-19. CDC
recommends that shelters provide new residents with a clean mask, keep them isolated from others, screen for symptoms at
entry, or arrange for medical evaluations as needed depending on symptoms. Accordingly, an influx of new residents at facilities
that offer support services could potentially overwhelm staff and, if recommendations are not followed, lead to exposures.
Modeling studies and observational data from the pre-vaccine phase of the COVID-19 pandemic comparing incidence between
states that implemented and lifted eviction moratoria indicate that evictions substantially contribute to COVID-19 transmission.
In mathematical models where eviction led exclusively to sharing housing with friends or family, lifting eviction moratoria led
to a 30% increased risk of contracting COVID-19 among people who were evicted and those with whom they shared housing
after eviction.[FN41] Compared to a scenario where no evictions occurred, the models also predicted a 4%-40% increased risk
of infection, even for those who did not share housing, as a result of increased overall transmission. The authors estimated
that anywhere from 1,000 to 100,000 excess cases per million population could be attributable to evictions depending on the
eviction and infection rates.
41

Nande A, Sheen J, Walters EL, Klein B, Chinazzi M, Gheorghe AH, Adlam B, Shinnick J, Tejeda MF, Scarpino SV,
Vespignani A, Greenlee AJ, Schneider D, Levy MZ, Hill AL. The effect of eviction moratoria on the transmission of
SARS-CoV-2. Nat Commun. 2021 Apr 15;12(1):2274. doi: 10.1038/s41467-021-22521-5. PMID: 33859196; PMCID:
PMC8050248.

An analysis of observational data from state-based eviction moratoria in 43 states and the District of Columbia showed
significant increases in COVID-19 incidence and mortality approximately 2-3 months after eviction moratoria were lifted.
[FN42] Specifically, the authors compared the COVID-19 incidence and mortality rates in states that lifted their moratoria with

128a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

the rates in states that maintained their moratoria. In these models, the authors accounted for time-varying indicators of each
state's test count as well as major public-health interventions including lifting stay-at-home orders, school closures, and mask
mandates. After adjusting for these other changes, they found that the incidence of COVID-19 in states that lifted their moratoria
was 1.6 times that of states that did not at 10 weeks post-lifting (95% CI 1.0, 2.3), a ratio that grew to 2.1 at >=16 weeks (CI
1.1, 3.9). Similarly, they found that mortality in states that lifted their moratoria was 1.6 times that of states that did not at 7
weeks post-lifting (CI 1.2, 2.3), a ratio that grew to 5.4 at >=16 weeks (CI 3.1, 9.3). The authors estimated that, nationally, over
433,000 cases of COVID-19 and over 10,000 deaths could be attributed to lifting state moratoria.[FN43]
42

Leifheit KM, Linton SL, Raifman J, Schwartz GL, Benfer EA, Zimmerman FJ, Pollack CE. Expiring Eviction
Moratoriums and COVID-19 Incidence and Mortality. Am J Epidemiol. 2021 Jul 26:kwab196. doi: 10.1093/aje/
kwab196. Epub ahead of print. PMID: 34309643.

43

Leifheit, Kathryn M. and Linton, Sabriya L. and Raifman, Julia and Schwartz, Gabriel and Benfer, Emily
and Zimmerman, Frederick J and Pollack, Craig, Expiring Eviction Moratoriums and COVID-19 Incidence and
Mortality (November 30, 2020). Available at SSRN: https://ssrn.com/abstract=3739576 or http://dx.doi.org/10.2139/
ssrn.3739576.

Although data are limited, available evidence suggests evictions lead to interstate spread of COVID-19 in two ways. First, an
eviction may lead the evicted members of a household to move across state lines. Of the 35 million people in America who
move each year, 15% move to a new state. Second, even if a particular eviction, standing alone, would not always result in
interstate displacement, the mass *43249 evictions that would occur in the absence of this Order would inevitably increase the
interstate spread of COVID-19. This Order cannot effectively mitigate interstate transmission of COVID-19 without covering
intrastate evictions (evictions occurring within the boundaries of a state or territory), as the level of spread of SARS-CoV-2
resulting from these evictions can lead to SARS-CoV-2 transmission across state borders.
Moreover, intrastate spread facilitates interstate spread in the context of communicable disease spread, given the nature of
infectious disease. In the aggregate, the mass-scale evictions that will likely occur in the absence of this Order in areas of
substantial or high transmission will inevitably increase interstate spread of COVID-19.
Eviction, Homelessness, and COVID-19 Transmission
Evicted individuals without access to support or other assistance options may become homeless, including older adults or those
with underlying medical conditions, who are more at risk for severe illness from COVID-19 than the general population. In
Seattle-King County, 5-15% of people experiencing homelessness between 2018 and 2020 cited eviction as the primary reason
for becoming homeless.[FN44] Additionally, some individuals and families who are evicted may originally stay with family
or friends, but subsequently seek homeless services. Data collection by an emergency shelter in Columbus, Ohio, showed that
35.4% of families and 11.4% of single adults reported an eviction as the primary or secondary reason for their seeking shelter.
[FN45]
44

Count Us In 2020. KCRHA (July 2020). https://kcrha.org/wp-content/uploads/2020/07/Count-Us_In-2020Final_7.29.2020.pdf.

45

Chester Hartman and David Robinson. “Evictions: The Hidden Housing Problem” in Housing Policy Debate. 2003.

Extensive outbreaks of COVID-19 have been identified in homeless shelters. In Seattle, Washington, a network of three related
homeless shelters experienced an outbreak that led to 43 cases among residents and staff members. In Boston, Massachusetts,
universal COVID-19 testing at a single shelter revealed 147 cases, representing 36% of shelter residents. COVID-19 testing in
a single shelter in San Francisco led to the identification of 101 cases (67% of those tested). Data from 634 universal diagnostic
testing events at homeless shelters in 21 states show an average of 6% positivity among shelter clients. Data comparing the

129a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

incidence or severity of COVID-19 among people experiencing homelessness directly to the general population are limited.
However, during the 15-day period of the outbreak in Boston, MA, researchers estimated a cumulative incidence of 46.3 cases
of COVID-19 per 1000 persons experiencing homelessness, as compared to 1.9 cases per 1000 among Massachusetts adults
(pre-print).
Among other things, CDC guidance recommends increasing physical distance between beds in homeless shelters, which is
likely to decrease capacity, while community transmission of COVID-19 is occurring. To adhere to this guidance, shelters have
limited the number of people served throughout the United States. In many places, considerably fewer beds are available to
individuals who become homeless. Shelters that do not adhere to the guidance, and operate at ordinary or increased occupancy,
are at greater risk for the types of outbreaks described above.
Application of COVID-19 Prevention Strategies Based on Community Transmission
CDC recommends strengthening or adding effective COVID-19 mitigation strategies in communities with considerable
transmission risk. As discussed above, CDC guidance specifies that everyone, regardless of vaccination status, should wear
masks in indoor and public settings in communities experiencing substantial or high rates of community transmission.
Similarly, CDC guidance for homeless shelters recommends maintaining layered COVID-19 precautions as long as community
transmission is occurring and provides options for scaling back precautions when community transmission is low.[FN46]
46

Centers for Disease Control and Prevention. Interim Guidance for Homeless Service Providers to Plan and Respond
to Coronavirus Disease 2019 (COVID-19). Available at: https://www.cdc.gov/coronavirus/2019-ncov/community/
homeless-shelters/plan-prepare-respond.html.

Eviction moratoria represent a COVID-19 transmission prevention measure that can similarly be applied when the
epidemiological context is appropriate, for example in communities with substantial or high transmission of COVID-19.[FN47]
Prevention strategies like these should only be relaxed or lifted after two weeks of continuous sustained improvement in the
level of community transmission. In areas with low or no SARS-CoV-2 transmission and with testing capacity in place to
detect early introduction or increases in spread of the virus, layered prevention strategies might be removed one at a time while
monitoring closely for any evidence that COVID-19 cases are increasing. Decisions to add or remove prevention strategies
should be based on local data and public health recommendations. The emergence of more transmissible SARS-CoV-2 variants,
including Delta, increases the urgency for public health agencies and other organizations to collaboratively monitor the status
of the pandemic in their communities and continue to apply layered prevention strategies.
47

Of course, eviction moratoria are only effective to the degree that consumers know about them and to the degree they
are complied with by landlords, owners of residential property, others who have a right to evict, or their agents.

Persons at Higher Risk of Eviction May Also Be at Higher Risk of Being Unvaccinated
Communities with high rates of eviction have been shown to have lower coverage of COVID-19 vaccination—a focus for
current vaccination campaigns. A study in the spring of 2021 showed that counties with high social vulnerability (i.e., social
and structural factors associated with adverse health outcome inclusive of socioeconomic indicators related to risk of eviction)
had lower levels of COVID-19 vaccination.[FN48]
48

Barry V, Dasgupta S, Weller DL, Kriss JL, Cadwell BL, Rose C, Pingali C, Musial T, Sharpe JD, Flores SA, Greenlund
KJ, Patel A, Stewart A, Qualters JR, Harris L, Barbour KE, Black CL. Patterns in COVID-19 Vaccination Coverage,
by Social Vulnerability and Urbanicity—United States, December 14, 2020-May 1, 2021. MMWR Morb Mortal Wkly
Rep. 2021 Jun 4;70(22):818-824. doi: 10.15585/mmwr.mm7022e1. PMID: 34081685; PMCID: PMC8174677.

130a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

CDC Eviction Moratorium
The Department of the Treasury has made funding available to states, territories, localities, and Tribal governments, which
continue to distribute emergency rental assistance funds that may help mitigate spikes in COVID-19 transmission due to
increases in evictions. Alongside other federal and state efforts to prevent evictions, these funds are expected to make a
meaningful difference for hundreds of thousands of people who are expected to receive the rental assistance.[FN49]
49

Treasury Emergency Rental Assistance Programs in 2021: Analysis of a National Survey. National Low Income Housing
Coalition. June 2021. https://nlihc.org/sites/default/files/HIP_NLIHC_Furman_2021_6-22_FINAL_v2.pdf.

On September 4, 2020, the CDC Director issued an Order temporarily halting evictions in the United States for the reasons
described therein. That Order was set to expire on December 31, 2020, subject to further extension, modification, or rescission.
Section 502 of Title V, Division N of the *43250 Consolidated Appropriations Act, 2021 extended the Order until January
31, 2021. With the extension of the Order, Congress also provided $25 billion for emergency rental assistance for the payment
of rent and rental arrears. Congress later provided an additional $21.55 billion in emergency rental assistance when it passed
the American Rescue Plan.
On January 29, 2021, following an assessment of the ongoing pandemic, the CDC Director renewed the Order until March
31, 2021. On March 28, the CDC Director renewed the Order until June 30, 2021. On June 24, the CDC Director renewed
the Order until July 31, 2021 (July Order). The CDC Director indicated that the July Order would be the final extension of
the nationwide eviction moratorium absent an unexpected change in the trajectory of the pandemic. Unfortunately, the rise of
the Delta variant and corresponding rise in cases in numerous counties in the United States have altered the trajectory of the
pandemic. As a result, CDC is issuing this narrower, more targeted Order to temporarily halt evictions in the hardest hit areas.
Without this Order, evictions in these areas would likely exacerbate the increase in cases. To the extent any provision of this
Order conflicts with prior Orders, this Order is controlling.
Applicability
This Order applies in U.S. counties [FN50] experiencing substantial [FN51] and high [FN52] levels of community transmission
levels of SARS-CoV-2 as defined by CDC, as of August 3, 2021. If a U.S. county that is not covered by this Order as of August
3, 2021 later experiences substantial or high levels of community transmission while this Order is in effect, then that county will
become subject to this Order as of the date the county begins experiencing substantial or high levels of community transmission.
If a U.S. county that is covered by this Order no longer experiences substantial or high levels of community transmission for 14
consecutive days, then this Order will no longer apply in that county, unless and until the county again experiences substantial
or high levels of community transmission while this Order is in effect.
50

As used in this Order, the term “county” refers to both counties in the United States and U.S. territories.

51

Supra note 7.

52

Supra. note 8.

This Order does not apply in any state, local, territorial, or tribal area with a moratorium on residential evictions that provides
the same or greater level of public-health protection than the requirements listed in this Order or to the extent its application is
prohibited by Federal court order. In accordance with 42 U.S.C. 264(e), this Order does not preclude state, local, territorial, and
tribal authorities from imposing additional requirements that provide greater public-health protection and are more restrictive
than the requirements in this Order.

131a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

This Order is a temporary eviction moratorium to prevent the further spread of COVID-19. This Order does not relieve any
individual of any obligation to pay rent, make a housing payment, or comply with any other obligation that the individual may
have under a tenancy, lease, or similar contract. Nothing in this Order precludes the charging or collecting of fees, penalties, or
interest as a result of the failure to pay rent or other housing payment on a timely basis, under the terms of any applicable contract.
Nothing in this Order precludes evictions based on a tenant, lessee, or resident: (1) Engaging in criminal activity while on the
premises; (2) threatening the health or safety of other residents; [FN53] (3) damaging or posing an immediate and significant
risk of damage to property; (4) violating any applicable building code, health ordinance, or similar regulation relating to health
and safety; or (5) violating any other contractual obligation, other than the timely payment of rent or similar housing-related
payment (including non-payment or late payment of fees, penalties, or interest).
53

Individuals who might have COVID-19 are advised to stay home except to get medical care. Accordingly, individuals
who might have COVID-19 and take reasonable precautions to not spread the disease should not be evicted on the ground
that they may pose a health or safety threat to other residents. See What to Do if You are Sick, Centers for Disease Control
and Prevention, https://www.cdc.gov/coronavirus/2019-ncov/if-you-are-sick/steps-when-sick.html (last updated Mar.
17, 2021).

Any evictions for nonpayment of rent initiated prior to issuance of this Order but not yet completed, are subject to this Order. Any
tenant, lessee, or resident of a residential property who previously submitted a Declaration, still qualifies as a “Covered Person”
and is still present in a rental unit is entitled to protections under this Order. Any eviction that was completed before issuance
of this Order including from August 1 through August 3, 2021 is not subject to this Order, as it does not operate retroactively.
Under this Order, covered persons may be evicted for engaging in criminal activity while on the premises. But covered persons
may not be evicted on the sole basis that they are alleged to have committed the crime of trespass (or similar state-law offense)
where the underlying activity is a covered person remaining in a residential property for nonpayment of rent. Permitting such
evictions would result in substantially more evictions overall, thus increasing the risk of disease transmission as otherwise
covered persons move into congregate settings or experience homelessness. This result would be contrary to the stated objectives
of this Order, and therefore would diminish their effectiveness. Moreover, to the extent such criminal trespass laws are invoked
to establish criminal activity solely based on a tenant, lessee, or resident of a residential property remaining in a residential
property despite the nonpayment of rent, such invocation conflicts with this Order and is preempted pursuant to 42 U.S.C. 264(e).
Individuals who are confirmed to have, who have been exposed to, or who might have COVID-19 and take reasonable
precautions to not spread the disease may not be evicted on grounds that they may pose a health or safety threat to other residents.
This Order is in effect through October 3, 2021, based on the current and projected epidemiological context of SARS-CoV-2
transmission throughout the United States. This timeframe will allow the assessment of natural changes to COVID-19 incidence,
the influences of new variants, additional distribution of emergency rental assistance funds, and the expansion of COVID-19
vaccine uptake.
Declaration Forms
To qualify for the protections of this Order, a tenant, lessee, or resident of a residential property must provide a completed
and signed copy of a declaration with the elements listed in the definition of “Covered person” to their landlord, owner of
the residential property where they live, or other person who has a right to have them evicted or removed from where they
live. To assist tenants and landlords, the CDC created a standardized declaration form that can be downloaded here: https://
www.cdc.gov/coronavirus/2019-ncov/downloads/declaration-form.pdf.
Tenants, lessees, and residents of residential property are not obligated to use the CDC form. Any written document that an
eligible tenant, lessee, or resident of residential property presents to their landlord will comply with this Order, as long as

132a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

it contains the required elements of “Covered person” as described in this Order. In *43251 addition, tenants, lessees, and
residents of residential property are allowed to declare in writing that they meet the elements of “Covered person” in other
languages.
All declarations, regardless of form used, must be signed, and must include a statement that the tenant, lessee, or resident of a
residential property understands that they could be liable for perjury for any false or misleading statements or omissions in the
declaration. This Order does not preclude a landlord challenging the truthfulness of a tenant's, lessee's, or resident's declaration
in court, as permitted under state or local law.
In certain circumstances, such as individuals filing a joint tax return, it may be appropriate for one member of the residence to
provide an executed declaration on behalf of the other adult residents party to the lease, rental agreement, or housing contract.
The declaration may be signed and transmitted either electronically or by hard copy.
As long as the information in a previously signed declaration submitted under a previous order remains truthful and accurate,
covered persons do not need to submit a new declaration under this Order. However, eligibility for protection will be based
on the terms of this Order.
Findings and Action
Determination
For the reasons described herein, I have determined based on the information below that issuing a temporary halt in evictions in
counties experiencing substantial or high levels of COVID-19 transmission constitutes a reasonably necessary measure under
42 CFR 70.2 to prevent the further spread of COVID-19 throughout the United States. I have further determined that measures
by states, localities, or territories that do not meet or exceed these minimum protections are insufficient to prevent the interstate
spread of COVID-19.
State and local jurisdictions continue to distribute emergency rental assistance funds, provided by the Department of Treasury,
that will help avert a spate of evictions and thus mitigate corresponding spikes in COVID-19 transmission. Trends have
dramatically worsened since June 2021 and transmission is rapidly accelerating in the United States.[FN54]
54

COVID Data Tracker, Centers for Disease Control and Prevention, https://covid.cdc.gov/covid-data-tracker/
#trends_dailytrendscases (last updated June 22, 2021).

Congress has appropriated approximately $46 billion—of which almost three-quarters is currently available to state and local
grantees—to help pay rent and rental arrears for tenants who may otherwise be at high risk of eviction. According to estimates
based on the U.S. Census Household Pulse Survey, approximately 6.9 million renter households were behind on their rent in late
June. At that time, about 4.6 million renter households were concerned that they could not pay next month's rent. The successful
delivery of those funds by states and localities should greatly reduce the incidence of eviction that would occur in the absence
of that support. However, many states and localities are still ramping up the collection and processing of applications and the
delivery of assistance and putting in place other eviction prevention strategies. It was only in the beginning of June that all staterun emergency rental assistance programs had opened for applications. If the moratorium is not in place, a wave of evictions, on
the order of hundreds of thousands, could occur in late summer and early fall, exacerbating the spread of COVID-19 among the
significant percentage of the population that remains unvaccinated. In appropriating these emergency rental assistance funds,
Congress intended that the funding would work in concert with the eviction moratorium, providing time for rental assistance
to reach eligible tenants and landlords to sustainably reduce the threat of an eviction wave after an eviction moratorium was no
longer in effect. While the pace of assistance is continuing to increase, without additional time for states and localities to deliver
this needed relief and engage in other efforts to prevent evictions, a surge of evictions would occur upon the conclusion of the
national moratorium. A surge in evictions would lead to immediate movement, crowding, and increased stress on the homeless

133a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

service system. In combination with surging COVID-19 rates across the country, and the overlapping factors described above,
this would create considerable risk for the rapid transmission of COVID-19 in high-risk settings.
Based on the convergence of these issues, I have determined that issuing a new Order temporarily halting evictions is appropriate.
Accordingly, a landlord, owner of a residential property, or other person with a legal right to pursue eviction or possessory action
shall not evict any covered person from any residential property in any county or U.S. territory while COVID-19 transmission
is substantial or high and the relevant state, county, locality, or territory has provided a level of public-health protections below
the requirements listed in this Order.
This Order is not a rule within the meaning of the Administrative Procedure Act (APA) but rather an emergency action taken
under the existing authority of 42 CFR 70.2. The purpose of section 70.2, which was promulgated through notice-and-comment
rulemaking, is to enable CDC to take swift steps to prevent contagion without having to seek a second round of public comments
and without a delay in effective date.[FN55]
55

Chambless Enters., LLC v. Redfield, No. 20-1455, 2020 WL 7588849 (W.D. La. 2020).

Good Cause
In the event this Order qualifies as a rule under the APA, there is good cause to dispense with prior public notice and comment
and a delay in effective date. See 5 U.S.C. 553(b)(B), (d)(3). Good cause exists, in sum, because the public health emergency
caused by the COVID-19 pandemic and the unpredictability of the trajectory of the pandemic make it impracticable and contrary
to the public health, and by extension the public interest, to delay the issuance and effective date of this Order.
I have determined that good cause exists because the public health emergency caused by COVID-19 makes it impracticable
and contrary to the public health, and by extension the public interest, to delay the issuance and effective date of the Order. A
delay in the effective date of the Order would permit the occurrence of evictions—potentially on a mass scale—that would have
potentially significant public health consequences. I conclude that the delay in the effective date of the Order would defeat the
purpose of the Order and endanger the public health and, therefore, determine that immediate action is necessary.
The rapidly changing nature of the pandemic requires not only that CDC act swiftly, but also deftly to ensure that its actions
are commensurate with the threat. This necessarily involves assessing evolving conditions that inform CDC's determinations.
Despite promising trends in the spring of 2021, the surge of cases spurred by the Delta variant has confirmed that the fundamental
public health threat—of the risk of large numbers of residential evictions contributing to the spread of COVID-19 throughout the
United States—continues to exist. Without this Order, there is every reason to expect that evictions will increase dramatically
*43252 at a time when COVID-19 infections in the United States are increasing sharply. It is imperative that public health
authorities act quickly to mitigate such an increase of evictions, which could increase the likelihood of new spikes in SARSCoV-2 transmission. Such mass evictions and the attendant public health consequences would be very difficult to reverse.
For all of these reasons, I hereby conclude that immediate action is again necessary and that notice-and-comment rulemaking
and a delay in effective date would be impracticable and contrary to the public interest.
Miscellaneous
Similarly, if this Order qualifies as a rule under the APA, the Office of Information and Regulatory Affairs (OIRA) has
determined that it would be an economically significant regulatory action pursuant to Executive Order 12866 and a major rule
under Subtitle E of the Small Business Regulatory Enforcement Fairness Act of 1996 (the Congressional Review Act or CRA),
5 U.S.C. 804(2). Thus, this action has been reviewed by OIRA. CDC has determined that for the same reasons given above,
there would be good cause under the CRA to make the requirements herein effective immediately. 5 U.S.C. 808(2).

134a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

If any provision of this Order, or the application of any provision to any persons, entities, or circumstances, shall be held invalid,
the remainder of the provisions, or the application of such provisions to any persons, entities, or circumstances other than those
to which it is held invalid, shall remain valid and in effect.
This Order shall be enforced by federal authorities and cooperating state and local authorities through the provisions of 18
U.S.C. 3559, 3571; 42 U.S.C. 243, 268, 271; and 42 CFR 70.18. However, this Order has no effect on the contractual obligations
of renters to pay rent and shall not preclude charging or collecting fees, penalties, or interest as a result of the failure to pay rent
or other housing payment on a timely basis, under the terms of any applicable contract.
Criminal Penalties
Under 18 U.S.C. 3559, 3571; 42 U.S.C. 271; and 42 CFR 70.18, a person violating this Order may be subject to a fine of no
more than $100,000 or one year in jail, or both, if the violation does not result in a death, or a fine of no more than $250,000
or one year in jail, or both if the violation results in a death, or as otherwise provided by law. An organization violating this
Order may be subject to a fine of no more than $200,000 per event if the violation does not result in a death or $500,000 per
event if the violation results in a death or as otherwise provided by law. The U.S. Department of Justice may initiate criminal
proceedings as appropriate seeking imposition of these criminal penalties.
Notice to Cooperating State and Local Officials
Under 42 U.S.C. 243, the U.S. Department of Health and Human Services is authorized to cooperate with and aid state and
local authorities in the enforcement of their quarantine and other health regulations and to accept state and local assistance in
the enforcement of Federal quarantine rules and regulations, including in the enforcement of this Order.
Notice of Available Federal Resources
While this Order to prevent eviction is effectuated to protect the public health, the states and units of local government are
reminded that the Federal Government has deployed unprecedented resources to address the pandemic, including housing
assistance.
The Department of Housing and Urban Development (HUD), the Department of Agriculture, and the Department of the
Treasury have informed CDC that unprecedented emergency resources have been appropriated through various Federal agencies
that assist renters and landlords during the pandemic, including $46.55 billion to the Treasury through the Consolidated
Appropriations Act of 2021 and the American Rescue Plan (ARP). Furthermore, in 2020 44 states and 310 local jurisdictions
allocated about $3.9 billion toward emergency rental assistance, largely from funds appropriated to HUD from the Coronavirus
Aid, Relief, and Economic Security (CARES).[FN56] These three rounds of federal appropriations also provided substantial
resources for homeless services, homeowner assistance, and supplemental stimulus and unemployment benefits that low-income
renters used to pay rent.
56

Vincent Reina et al, COVID-19 Emergency Rental Assistance: Analysis of a National Survey of Programs, Research
Brief, https://nlihc.org/sites/default/files/HIP_NLIHC_Furman_Brief_FINAL.pdf (last visited Mar. 26, 2021).

Visit https://covid.cdc.gov/covid-data-tracker/#county-view for an integrated, county view of levels of community transmission
for monitoring the COVID-19 pandemic in the United States. Visit https://home.treasury.gov/policy-issues/cares/state-andlocal-governments for more information about the Coronavirus Relief Fund and https://home.treasury.gov/policy-issues/
cares/emergency-rental-assistance-program for more information about the Emergency Rental Assistance Program. Visit
www.consumerfinance.gov/renthelp to access the Rental Assistance Finder that connects renters and landlords with the state
and local programs that are distributing billions of dollars in federal assistance. Relevant agencies have informed CDC that

135a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

Temporary Halt in Residential Evictions in Communities With..., 86 FR 43244-01

forbearance policies for mortgages backed by the federal government provide many landlords, especially smaller landlords,
with temporary relief as new emergency rental assistance programs are deployed.
Treasury, HUD, and USDA grantees and program participants play a critical role in prioritizing efforts to support this goal. All
communities should assess what resources have already been allocated to prevent evictions and homelessness through temporary
rental assistance and homelessness prevention, particularly to the most vulnerable households.
Treasury, HUD, and USDA stand at the ready to support American communities in taking these steps to reduce the spread of
COVID-19 and maintain economic prosperity.
For program support, including technical assistance, please visit www.hudexchange.info/program-support. For further
information on HUD resources, tools, and guidance available to respond to the COVID-19 pandemic, state and local officials
are directed to visit https://www.hud.gov/coronavirus. These tools include toolkits for Public Housing Authorities and Housing
Choice Voucher landlords related to housing stability and eviction prevention, as well as similar guidance for owners and renters
in HUD-assisted multifamily properties. Furthermore, tenants can visit consumerfinance.gov/housing for up-to-date information
on rent relief options, protections, and key deadlines.
Effective Date
This Order is effective on August 3, 2021 and will remain in effect through October 3, 2021, subject to revision based on the
changing public health landscape.
Authority: The authority for this Order is Section 361 of the Public Health Service Act (42 U.S.C. 264) and 42 CFR 70.2.
Sherri Berger,
Chief of Staff, Centers for Disease Control and Prevention.

[FR Doc. 2021-16945 Filed 8-4-21; 2:00 pm]
BILLING CODE 4163-18-P

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

136a
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

